<html>
<title> - BENEFITS FOR SURVIVORS: IS AMERICA FULFILLING LINCOLN'S CHARGE TO CARE FOR THE FAMILIES OF THOSE KILLED IN THE LINE OF DUTY?</title>
<body><pre>[Senate Hearing 109-32]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 109-32
 
                   BENEFITS FOR SURVIVORS: IS AMERICA
                  FULFILLING LINCOLN'S CHARGE TO CARE
                    FOR THE FAMILIES OF THOSE KILLED
                          IN THE LINE OF DUTY?

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS

                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 3, 2005

                               __________

       Printed for the use of the Committee on Veterans' Affairs






 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate






                 U.S. GOVERNMENT PRINTING OFFICE

20-729                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001













                     COMMITTEE ON VETERANS' AFFAIRS


        .........................................................


                    Larry E. Craig, Idaho, Chairman
Arlen Specter, Pennsylvania          Daniel K. Akaka, Hawaii, Ranking 
Kay Bailey Hutchison, Texas              Member
Lindsey O. Graham, South Carolina    John D. Rockefeller IV, West 
Richard Burr, North Carolina             Virginia
John Ensign, Nevada                  James M. Jeffords, (I), Vermont
John Thune, South Dakota             Patty Murray, Washington
Johnny Isakson, Georgia              Barack Obama, Illinois
                                     Ken Salazar, Colorado


                  Lupe Wissel, Majority Staff Director
               D. Noelani Kalipi, Minority Staff Director













                            C O N T E N T S

                              ----------                              

                            February 3, 2005
                                SENATORS

                                                                   Page
Craig, Hon. Larry E., U.S. Senator from Idaho....................     1
Graham, Hon. Lindsey O., U.S. Senator from South Carolina........     2
Murray, Hon. Patty, U.S. Senator from Washington.................     3
Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     4
Nelson, Hon. Bill, U.S. Senator from Florida, prepared statement.     5
Burr, Hon. Richard, U.S. Senator from North Carolina.............     6
Obama, Hon. Barak, U.S. Senator from Illinois....................     7
Thune, Hon. John, U.S. Senator from South Dakota.................    21
Salazar, Hon. Ken, U.S. Senator from Colorado....................    52
    Prepared statement...........................................    53

                               WITNESSES

Petty, Tiffany, surviving spouse.................................     8
    Prepared statement...........................................     9
McCollum, Jennifer, surviving spouse.............................    12
    Prepared statement...........................................    15
Carroll, Bonnie, Chairman, The Tragedy Assistance Program for 
  Survivors......................................................    21
    Prepared statement...........................................    24
    Stein, Ben, Honorary Board Member, TAPS, prepared statement..    23
Smith, Edith G., Member, Legislative Committee, Gold Star Wives 
  of 
  America........................................................    26
    Prepared statement...........................................    28
Moakler, Kathleen B., Deputy Director, Government Relations, 
  National 
  Military Family Association....................................    33
    Prepared statement...........................................    34
Cooper, Hon. Daniel L., Under Secretary for Benefits, Veterans' 
  Benefits Administration, Department of Veterans Affairs; 
  accompanied by Robert J. Epley, Associate Deputy Under 
  Secretary for Policy and Program 
  Management, and Thomas M. Lastowka, Director, VA Regional 
  Office and Insurance Center....................................    58
    Prepared statement...........................................    60
    Response to written questions submitted by:
    Hon. Larry E. Craig..........................................    63
    Hon. Daniel K. Akaka.........................................    65
    Hon. John Thune..............................................    66
    Hon. Richard Burr............................................    68
Ward, Mark L., Senior Policy Advisor, Casualty, Mortuary and 
  Military 
  Funeral Honors, Office of the Deputy Under Secretary of 
  Defense, 
  Department of Defense..........................................    68
    Response to written questions submitted by:
    Hon. Larry E. Craig..........................................    71
    Hon. Daniel K. Akaka.........................................    71
    Hon. Richard Burr............................................    74
Abell, Hon. Charles S., Principal Deputy Under Secretary of 
  Defense, 
  Department of Defense, prepared statement......................    75
Streckewald, Frederick G., Assistant Deputy Commissioner for 
  Program 
  Policy, Social Security Administration.........................    79
    Prepared statement...........................................    81
Tower, Thomas R., Assistant Director of Compensation, Office of 
  the Deputy Under Secretary of Defense, Department of Defense...    85
    Response to written questions submitted by:
    Hon. Larry E. Craig..........................................    86
    Hon. Daniel K. Akaka.........................................    86
    Hon. John Thune..............................................    87


















                  BENEFITS FOR SURVIVORS: IS AMERICA 
FULFILLING LINCOLN'S CHARGE TO CARE FOR THE FAMILIES OF THOSE KILLED IN 
                           THE LINE OF DUTY?

                              ----------                              


                       THURSDAY, FEBRUARY 3, 2005

                      United States Senate,
                    Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
room 418, Russell Senate Office Building, Hon. Larry E. Craig, 
Chairman of the Committee, presiding.
    Present: Senators Craig, Graham, Burr, Thune, Isakson, 
Akaka, Murray, Obama, and Salazar.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Chairman Craig. Good morning, everyone. Welcome to the 
Veterans' Affairs Committee's first oversight hearing of the 
109th Congress.
    There are few issues more important than what is on our 
agenda today. The title of the hearing, ``Benefits for 
Survivors: Is America Fulfilling Lincoln's Charge to Care for 
the Families of Those Who Were Killed in the Line of Duty?'' I 
think presents the question that gets to the heart of why the 
Department of Veterans Affairs exists and indeed why this 
Committee exists.
    During his 1865 inaugural address, President Lincoln spoke 
of the need to care for ``him who shall have borne the battle 
and for his widow and his orphan.'' Those words today and 
forever reflect the conscience of our Nation. They remind us of 
a commitment we all have to those who have given, also in 
Lincoln's words, ``the last true measure of devotion for their 
country.''
    So we are gathered here this morning to renew that 
commitment. There are many in this hearing room who are 
survivors of those who have made the ultimate sacrifice in 
defense of our freedom, so I would like to ask those who are 
survivors if you might stand so we could recognize you all. 
Thank you.
    [Applause.]
    Chairman Craig. Thank you. Thank you very much for doing 
that.
    Let me also recognize that my colleague and Ranking Member, 
Senator Danny Akaka will be here in a few moments to join me as 
the hearing progresses.
    In the past few months, I have heard the media question the 
adequacy of benefits provided to survivors of those killed in 
the line of duty. They have focused in large part on just one 
benefit, the $12,420 death gratuity paid by the Department of 
Defense. As Chairman of this Committee, I have resolved to 
explore the full range of survivor benefits so that a truer, 
more comprehensive view of the adequacy of those benefits can 
be taken.
    The chart behind me is an attempt to capture the benefits 
provided to survivors based on two very real present-day 
examples. The chart shows the benefits provided to the spouse 
and two dependent children of a fallen enlisted servicemember 
and a fallen officer. As you can see, there are at least 13 
different benefits provided by three Federal agencies, VA, the 
Department of Defense, and the Social Security Administration. 
The chart is colored green where benefits are provided by VA, 
red where provided by DoD, and yellow where provided by Social 
Security.
    By any standard, understanding these benefits can be 
overwhelming, especially for a grieving spouse. What this chart 
does not show is the complexity of navigating the system to 
access these benefits. A number of survivors have written to me 
describing the poor quality of service they received after 
their spouse died. One letter came to me from Lisa Vance, widow 
of Gene Vance, who was killed in Afghanistan almost 3 years 
ago. Mrs. Vance told me of the day her Casualty Assistance 
Officer brought to her an Army manual explaining her benefits. 
Shockingly, the manual had not been updated since 1989. Yet 
many important changes have been made since that time that this 
spouse was eligible for.
    I have heard from other survivors who have several similar 
stories. As we will see and hear from our witnesses today, 
providing for survivors involves far more than simply 
increasing the dollar amount of benefits. It involves 
coordination, communication, and a quality of service with 
those who are providing the benefits.
    One final point. While the face of today's hearing is the 
survivors of those killed during the war on terror, there are 
over 330,000 survivors which VA has identified who are alive 
today. They all have unique stories to tell, regardless of the 
circumstances. They all have our deepest respect and 
admiration. This hearing is for them.
    I would now turn to my colleague, Senator Akaka. He will be 
coming in a few moments. So let me turn to other colleagues 
that have joined us this morning.
    First, let me turn to Senator Graham. Do you have any 
opening comment to make?

         OPENING STATEMENT OF HON. LINDSEY O. GRAHAM, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Graham. Thank you, Mr. Chairman. One, I appreciate 
the hearing. I think this is a timely topic. Mrs. McCollum, 
welcome to Congress. Welcome to the Senate. She is from South 
Carolina. Her husband was a Clemson graduate, I think, is that 
right? We had a ceremony for her husband in Pickens.
    As we talk about how to make it more user friendly, as we 
talk about how to make it fairer in terms of compensation, let 
us remember that we have said thank you to these people in a 
heartfelt way. It is now time to do something. We are talking 
this stuff to death.
    So, Mr. Chairman, I think with your leadership, we are 
actually going to do something, and that is why I came today, 
just to echo the sentiment that if there is anything that we 
can find bipartisan common ground on, it has got to be this, 
and let us move.
    Chairman Craig. Thank you very much.
    Senator Murray, welcome.

            OPENING STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Thank you very much, Mr. Chairman. I want 
to thank you and Senator Akaka for calling this extremely 
important hearing today. You mentioned in your opening 
statement the words of Abraham Lincoln of 140 years ago that we 
have to promise to care for the veteran who has borne the 
battle, his widow, and his orphan, and I think as Members of 
this Committee, we have a tremendous responsibility and an 
opportunity to keep that promise still today and I look forward 
to working with you towards that goal.
    I also want to welcome all of our panelists who are here 
today, the Tragedy Assistance Program for Survivors, Gold Star 
Wives of America, and National Military Family Association. All 
of you are to be commended for being such strong advocates for 
families and I really appreciate the work you do across the 
country.
    But I particularly want to thank the women and the men who 
have lost loved ones fighting for our freedoms. Mrs. Petty and 
Mrs. McCollum, you are very brave to be here today and all of 
us really appreciate your coming today and sharing with us your 
experience so we can do the right thing for everyone who has 
lost someone in their service to this country.
    Mr. Chairman, my father was a disabled veteran from World 
War II and I grew up understanding the commitment that he made 
to this country and the responsibility we carry to make sure 
that he and others like him are kept the promises that were 
made to them. During my college internship back in the early 
1970s, I worked in the Seattle VA Hospital. I was a senior in 
college during the Vietnam War and was working with young men 
and women my age who were coming back from Vietnam. I know the 
tremendous burden they gave to this country and the 
responsibility we owed them, and that is one reason why I have 
served on this Committee for some time and keep the commitment 
to making sure that those who serve us are kept the commitments 
that we have given them.
    That is why today, a lot of my work is continuing to make 
sure that our brave soldiers and airmen and women have the 
tools that they need to accomplish their missions, but that we 
also make sure that those who have served us get the benefits 
and services they have earned and don't have to keep fighting 
for them, to make sure that they get them quickly and 
honorably, as well, and to make sure that we take care of the 
families who have lost loved ones who certainly have given the 
ultimate commitment to our country.
    Last year, or several years ago, I fought with a number of 
Members of this Committee against a VA rule that would have 
limited the amount of unclaimed benefits that a survivor could 
receive. VA's policy said that if a veteran had not received 
any unclaimed benefits by the time they died, their survivors 
could only get 2 years of the benefits that they owed the 
veteran. We made that change 2 years ago and now survivors do 
receive all the benefits that are owed them.
    I am also proud to have worked with my colleagues on this 
Committee to update the survivor benefits formula. Now, the 
Senate voted to increase those benefits last year, but 
unfortunately, it was left out of the defense bill last year, 
so we have more work to do in that area, as well. That is one 
of the reasons why your being here today and having this 
hearing is so important, so that we can make sure that we get 
benefits timely to the people who deserve them so much.
    Mr. Chairman, I look forward to the testimony. I do have 
another commitment and another hearing that I will attend, but 
I will be reviewing all the testimony. Mr. Chairman and Ranking 
Member Akaka, who is now here, I look forward to working with 
you on this Committee to make sure we keep the promises that we 
made.
    Chairman Craig. Senator Murray, thank you very much.
    We have now been joined by the Ranking Member of the 
Committee, Senator Dan Akaka, so I will turn to you, Senator.

          OPENING STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
thank you for holding this hearing and to tell you again I look 
forward to working with you and the Committee.
    I am pleased to welcome you to this very important and 
timely hearing of the Committee on Veterans' Affairs. I would 
like to say a personal thank you to all of the survivors and 
families of servicemembers who have traveled here for this 
hearing. It is you who we must not forget when we think of 
Abraham Lincoln's pledge to care for the families of those who 
paid the ultimate sacrifice on behalf of our Nation. My 
thoughts and prayers are with you and your families.
    I want to also thank the panelists for being here today. I 
look forward to hearing the testimony that you have prepared. 
Many of you have special insight into how VA's system is 
working. Please share your views with us so that we can better 
serve you and serve your families, as well.
    Last session, this Committee extended education benefits 
for surviving spouses of those killed on active duty and 
provided an additional $250 per month to surviving spouses with 
children for a 2-year period. Please let us know where there 
are still gaps in services or areas where VA can be doing 
better than it is doing now.
    There has been much news coverage of late regarding the 
benefits given to families upon a servicemember's death. This 
hearing is geared toward answering whether VA benefits are 
fulfilling the obligation that this Nation has to care for its 
deceased servicemembers' families.
    From the Department of Veterans Affairs, Department of 
Defense, and Social Security Administration, I hope to hear 
more about the types of services that are offered and the 
timeliness of delivery of services and compensation.
    Again, I look forward to hearing today's testimony and 
thank you for your attendance.
    Mr. Chairman, I also have a statement from Senator Bill 
Nelson that I would like to submit for the record.
    Thank you very much, Mr. Chairman.
    Chairman Craig. Senator, without objection, Senator 
Nelson's statement will be made a part of the record.
    [The prepared statement of Senator Nelson follows:]
                Prepared Statement of Hon. Bill Nelson, 
                       U.S. Senator from Florida
    Thank you, Mr. Chairman. Today I'd like to discuss two glaring 
inequities in how this country treats the survivors of its military 
retirees. It is my belief that we owe a solemn debt to those men and 
women who spend the best years of their lives in military service to 
their country, and who have dedicated themselves to preserving our 
freedom. Quite simply, I cannot think of a nobler life's mission.
    How we treat our veterans and their families is a reflection of our 
esteem for their service. As one newsmagazine recently put it, 
``America's commitment to the survivors of the tsunami is a mark of our 
generosity. The commitment we make to those who voluntarily put 
themselves in harm's way to fight our wars is a mark of our 
character.''
    Last year the Congress made great progress to benefit military 
retirees and their families by repealing the law that prohibits 
concurrent receipt of military retired pay and VA disability 
compensation for our 100 percent disabled retirees. I have received 
hundreds of letters in my office from veterans living in my State of 
Florida, thanking the Congress for treating them with the dignity that 
their service demands.
    Mr. Chairman, despite this success, many military retirees and 
their survivors still face unfair treatment in receiving the benefits 
they have earned or purchased. The same sort of unfair benefit 
reduction that we just eliminated in the last Congress for 100 percent 
disabled retirees still exists for their survivors--between payments 
from the Survivors' Benefit Plan (SBP) and the VA Dependency and 
Indemnity Compensation (DIC). This is the first of the two inequities 
that are addressed in legislation that I have introduced in S. 185, the 
Military Retiree Survivor Benefit Equity Act of 2005.
    As my colleagues well know, the Survivors' Benefit Plan is a 
purchased annuity which, after years of premium payments, provides 
income to the survivors of 100 percent disabled military retirees and 
those who die in active service. The VA's Dependency and Indemnity 
Compensation benefit is received by the surviving spouse of an active 
duty or retired military member who dies from a service-connected 
cause. Under current law, even if the surviving spouse of such a 
servicemember is eligible for SBP, that purchased annuity is reduced by 
the amount of DIC she receives. I recently met with Jennifer McCollum, 
a Florida widow who is in just this situation. Her husband, a Marine 
aviator, was killed in Operation Enduring Freedom in 2001. The SBP 
payment to which his rank entitles her is largely offset by DIC. 
Officially, she is entitled to both, yet a technicality in the statute 
prevents her from receiving her due. The survivors of servicemembers 
who have made the ultimate sacrifice to protect our country deserve 
better from their Government.
    Mr. Chairman, I have conducted some research into this matter, and 
neither I nor my staff can find another incidence of a purchased 
annuity benefit being cancelled or reduced on the basis that some other 
source of income exists. It simply is not fair that this benefit can be 
taken away due to cause of death. If military service caused a retired 
member's death, the VA indemnity compensation should be added to the 
SBP the retiree paid for, not substituted for it. For members killed on 
active duty, a surviving spouse can avoid the dollar-for-dollar offset 
only by assigning SBP to children. But that forfeits any SBP claim 
after the children reach adulthood, leaving the spouse with benefits 
less than $1,000 per month in DIC from the Veterans Administration. Mr. 
Chairman, brave Americans who give their lives for their country 
deserve fairer treatment for those they leave behind.
    Mr. Chairman, the U.S. Government gives DIC to the families of 
military personnel whose death is related to their service because we 
feel that such honorable sacrifices merit something extra. Not because 
we believe that the families of such men and women no longer deserve 
the SBP benefit they have paid for.
    The Military Retiree Survivor Benefit Equity Act of 2005 addresses 
this situation in two important ways. First, it repeals the offset 
language in the law, which is the basis of the problem I have just 
described. Second, it allows those surviving spouses who have assigned 
SBP to their children to switch it back to themselves. Together these 
two changes to the current law will set right the treatment of 
surviving spouses.
    The second serious problem for SBP recipients addressed in the 
Military Retiree Survivor Benefit Equity Act of 2005 is the effective 
date for paid-up status. As my colleagues know, the Defense 
Authorization act for FY 1999 provided that SBP enrollees may stop 
paying premiums if they have reached 70 years of age and have been 
paying in for 30 years. The problem with this arrangement is that the 
effective date was set at Oct 1, 2008. The SBP program was started in 
1972, meaning that there were 36 years between the effective date and 
when the earliest enrollees joined the system. Military enrollees who 
joined SBP between 1972 and 1978 are therefore required to pay for more 
than 30 years to reach paid-up status, whereas everyone who came after 
them is paid-up after just 30.
    Mr. Chairman, this effective date of October 1, 2008 forces 
thousands of ``greatest generation'' retirees who signed up for SBP at 
its beginning to pay premiums for up to 36 years. The intention of the 
law is that retirees will pay into SBP for 30 years, and then reach 
paid-up status. The letter of the law, however, dictates that while 
most retirees will pay premiums for 30 years and reach paid-up status, 
our most aged retirees, many of them World War II combat veterans now 
in their 80s, will be forced to pay up to 20 percent longer. These 
early retirees also paid the highest premiums since they were set at 10 
percent of retired pay until 1990, when they were reduced to 6.5 
percent. I submit to you, Mr. Chairman, that this inequity is not what 
the 105th Congress had in mind when they allowed paid-up status.
    The Military Retiree Survivor Benefit Equity Act of 2005 addresses 
this second problem very directly, by changing the effective date from 
October 1, 2008, to October 1, 2005. This will end the waiting now 
being imposed upon our most aged retirees, beginning in FY 2006.
    It is time to provide our military retirees and their families what 
they have earned and purchased, and restore basic fairness to military 
widows, widowers, and retirees. I call for support from my Senate 
colleagues for this important legislation.
    Mr. Chairman, my thanks to you and Senator Akaka for your 
leadership and for the opportunity to address this issue today.

    Chairman Craig. Now let me turn to our colleague, Senator 
Burr, for any opening comments he would like to make.

            OPENING STATEMENT OF HON. RICHARD BURR, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Mr. Chairman, thank you. I thank the Ranking 
Member for this hearing.
    Mr. Chairman, I would like to take this opportunity this 
morning to recognize somebody who is in the audience with us, 
Deborah May. Deborah is the wife of Marine Staff Sergeant 
Donald May, who died in Iraq in March of 2003, serving in 
Operation Iraqi Freedom. Deborah is here with her three 
children, Mariah and two sons, Jack and Will. She currently 
lives in Jacksonville, North Carolina, and made this trip up 
today as a woman who has been through the loss of her husband, 
has worked through the process that surviving spouses must deal 
with in raising three young children.
    Deborah's story, along with the stories of Mrs. Petty and 
Mrs. McCollum, who will testify this morning, can provide this 
Committee a first-hand insight into what we should do and how 
we can make the process better, and specifically what changes 
need to be made in the benefit structure that we are able to 
provide.
    I personally want to thank Deborah for making the trip up 
today. I believe I can speak for all of us in saying that we 
can never thank the individuals that are affected enough for 
the sacrifices that have been made.
    But I ditto the comments of Lindsey Graham. We can act. We 
can do the things that we have said we should do, the things we 
know we should do, and to take away the element, the question 
that surviving spouses have, and that is how do I survive and 
how do I take care of a family now that we have got one that is 
not there.
    Mr. Chairman, again, I thank our witnesses for their 
willingness to be here. I thank the Members for the passion 
that they show. I look forward to the progress under your 
leadership.
    Chairman Craig. Senator Burr, thank you very much, and 
thank you for introducing Deborah.
    Deborah, this Committee is here to also hear from you. At 
any point you would want to visit with me or our staffs or 
certainly your Senator, and with any additional information, we 
would be happy to take it and supply it for the record.
    Now let me turn to another Senator who has just entered, 
the Senator from Illinois, Senator Obama. Do you have any 
opening comments you would like to make?

            OPENING STATEMENT OF HON. BARAK OBAMA, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Obama. Thank you very much, Mr. Chairman, Members 
of this Committee. I simply want to thank the witnesses here 
and their families for the enormous service that they have 
rendered to this country, the sacrifices that have been made.
    I am new to this Committee, but one of the advantages, I 
think, of traveling in a large State like Illinois during the 
course of the campaign is the opportunity to meet all the 
military families, members of the National Guard, Reserves, and 
just get a sense of how significant their sacrifices are. In 
every small town all throughout Illinois, you will meet people 
who not only have volunteered, but families who are proud of 
the services that are rendered.
    One of the concerns, I think, that I have had is that 
although we are very good at honoring our troops during the 
course of a war when they are in uniform, that oftentimes it 
seems as if once the spotlight is off of them, they are 
forgotten. I know that this Committee and the Members of this 
Committee share my commitment to make sure that that is not the 
case.
    This particular issue of what are we doing for these 
families when their loved ones are gone is of critical 
importance. I expect that this Committee will not only use this 
testimony to inspire our words, but also hopefully inspire our 
deeds, because ultimately, it is not enough for us just to talk 
about honoring our troops. We are going to have to also make 
sure that we follow through on it and that is going to require 
a commitment of resources that so far has not been forthcoming.
    So I congratulate those Members of the Senate who have 
taken it upon themselves to focus on this issue. I thank you 
for helping us put a face to these issues and I am very much 
looking forward to your testimony.
    Chairman Craig. Thank you very much, Senator. Let me thank 
all of my colleagues for joining us this morning.
    And now, let us turn to our two panels. Our first panel, we 
have five witnesses. First is a distinguished Idahoan, Mrs. 
Tiffany Petty, surviving spouse of Army PFC Jerrick Petty, who 
was killed in a firefight outside Mosul on December 10, 2003. 
Mrs. Petty has two children at home in Idaho, 4-year-old 
Azerdon and 2-year-old Jerrick.
    Mrs. Jennifer McCollum, surviving spouse of Captain Dan 
McCollum, who was killed in a plane crash in Pakistan on 
January 9, 2002. Mrs. McCollum has one child, Daniel Junior, 
who was born 5 months after Captain McCollum was killed.
    Mrs. Bonnie Carroll, chairman and founder of Tragedy 
Assistance Program for Survivors. Mrs. Carroll was gracious 
enough to testify in place of actor and comedian Ben Stein, who 
had a last-minute conflict, I understand some health problems. 
So you are an exceptional replacement.
    [Laughter.]
    Chairman Craig. Bonnie, we appreciate you being with us. 
She is the surviving spouse of Brigadier General Tom Carroll, 
who died in an Army C-12 plane crash in 1992.
    Mrs. Edith Smith, Legislative Committee Member of the Gold 
Star Wives of America. Senator Murray has already spoken of 
your phenomenal services and the service of your organization. 
Mrs. Smith is the widow of Lieutenant Colonel Vincent M. Smith, 
who died as a result of service-related injuries.
    And last, but certainly not least, Kathleen Moakler, Deputy 
Director within the Government Relations Department of the 
National Military Family Association.
    We welcome all of you, and Tiffany, we will turn to you to 
offer your testimony. We would ask you to pull the microphone 
as close as you wish. There is a little button on the bottom of 
it that you will need to activate. Welcome before the 
Committee.

          STATEMENT OF TIFFANY PETTY, SURVIVING SPOUSE

    Mrs. Petty. Thank you. Thank you very much. I am very 
honored to be here. I never thought that I could be able to 
make a difference in my life, and when I got the phone call to 
be asked to come up here and speak to the Committee, I was 
scared to death and now I am just extremely happy. Anything I 
can do to help to make things different for other people that 
have to go through the same circumstances, that is why I am 
here, just to do whatever I can.
    There are quite a few things that I really wanted to put 
focus on. As far as the Casualty Assistance Officers, the first 
officer that I had was very wonderful to me. He had a very 
difficult job to tell me about the fact that my husband was 
dead. Unfortunately, I did not have him for very long.
    The second officer that I had did do his absolute best to 
help me as much as he could, but he was not educated in the 
things that came after the funeral, the things that I needed to 
know as far as insurance, Social Security, what kind of 
benefits were available for my children, and everything that 
comes afterwards. He tried to do everything that he could. He 
tried to get to the right people to get me the answers that I 
needed. Unfortunately, he just couldn't do what he needed to 
do.
    I ended up getting more help from the soldiers that were 
not obligated to help me. The soldiers that were with my 
husband in Iraq are the ones that helped me get my furniture 
home, the ones that helped me get a new military I.D. card, the 
ones that had been there just for a phone call, when I needed 
somebody to cry to, when I needed to hear the good things that 
my husband did while he was over there. That is when the 
soldiers were there to help me.
    Social Security has been good to me, as much as they could. 
I have had one incident where I had to make a phone call and 
the lady I talked to on the phone was not the best to me. She 
was condescending and rude. Unfortunately, I had to deal with 
that, but we did get through the problem. We did get it fixed 
and now I am not having any more problems with Social Security.
    Really, I can't think of anything else that was a major 
problem right off the top of my head. I did not have a speech 
written. I am not good at those. I usually just look at the 
paper and look away and start talking on my own. So if I miss 
anything, I apologize.
    Really, the biggest thing that I wanted to put focus on was 
the fact of the soldiers that were helping me that did not need 
to help me. I think it is very important that people do know 
that there are so many soldiers out there that are coming home 
afterwards that have been injured and their families have to 
take care of them. It is just like losing your loved one in the 
war when you have got to take care of one that cannot take care 
of himself or herself. I believe they need to be taken care of, 
as well.
    The soldiers are very wonderful people and I think they all 
need to be recognized for that.
    Chairman Craig. Tiffany, thank you very much for that 
testimony. We will come back to you for questions and any 
additional thoughts you might have as the hearing and the panel 
progresses this morning, but we do appreciate you traveling 
here from Idaho and offering your heartfelt thoughts to the 
Committee.
    [The prepared statement of Mrs. Petty follows:]
         Prepared Statement of Tiffany Petty, Surviving Spouse
    Thank you for the opportunity to speak. I am very honored that you 
picked me to represent so many men and women. If what you hear from me 
makes a difference in the way things are done in the event of another 
family's loved one's death, then I have accomplished my goals. I could 
not ask for a better chance to make a difference. Thank you for 
listening to what I have to say.
    The first issue I would like to address is with the notification of 
Jerrick's death from the Army. I was officially notified from the Army 
of Jerrick's death the day after his parents were notified. My sister-
in-law called me after an officer went to the family. She called me to 
see if I was doing okay. I was not happy with finding out from my in-
laws, hours after they were told, about my husband's death. I believe 
the Army should make sure they have immediate family's information 
updated regularly so that the spouse is notified immediately, rather 
than the day after the parents are notified. The spouse should always 
be the first notification, even if it has to be delayed.
    The first casualty assistance officer that worked with me was good. 
I do not have any complaints about the way he treated me. Unfortunately 
I did not work with him long. I was handed over to another officer 
within a couple of weeks that was not trained or knowledgeable for 
being an assistance officer. He tried to be as much help as he could, 
and he was very kind and considerate of my needs, but he was not able 
to answer questions or help me with certain needs. He would try to get 
questions answered for me by asking others, but he could not find the 
right people to talk to.
    The casualty assistance officers were very kind and very 
businesslike, but yet personal. It was obvious that they had feelings 
about what they had to do, and considered my feelings the entire time, 
with all information given. I wanted to know what had happened to my 
husband, and they told me that he was killed almost instantly. I later 
learned that he was flown by helicopter to a hospital where he fought 
for his life for two hours. He was able to communicate to a fellow 
soldier by squeezing his hand when he was asked questions. All of this 
information was very important to me. The problem was that I was given 
information that could be verified later by his fellow soldiers and I 
should not have been given inaccurate information of any kind. The 
casualty officers should know all information is verifiable at some 
time. If they do not know the circumstances surrounding the loved one's 
death, they need to say that rather than just trying to make the family 
feel that their loved one did not suffer.
    The casualty officer had one very specific task that we know was 
incredibly difficult for him. At the time he handled it very 
diplomatically. I had to choose how to send my husband's body home. 
There was a piece of his body missing, and I had to choose whether to 
send him home with or without it. It was a terrible question to ask, 
but I am glad they gave me the choice to have him sent home sooner 
without it, or later with it. It was the right thing for them to do, 
even though it was very hard on my part and his. He handled it very 
honorably, and with compassion and diplomacy.
    The casualty assistance officers have a very difficult job, and 
they treated me with the utmost respect and kindness. I believe they 
did their best with the information they were given, but they do need 
to be more educated about the tasks that come after the burial. When I 
had questions about benefits available, or simple things like moving my 
furniture to Pocatello from the base in Kentucky, they were not able to 
help me. They did not have the answers I needed, and they did not know 
how or where to get the answers. In my opinion, that does need to be 
remedied.
    The monies given to me directly after my husband's death to take 
care of expenses was not nearly enough. I had to use that money for air 
fare to get home, funeral flowers, burial plot, and for getting 
immediate family from areas of Nevada and Idaho to the place of the 
funeral. A lot of families in this day and age cannot afford to travel 
long distances to attend their loved one's funeral without assistance. 
I was told that the initial check after his death was for that reason, 
but it was not enough to pay for immediate family, for the kids and I 
to fly from Missouri to Idaho, and the extra funeral expenses.
    The Army was very gracious to provide the National Guard Armory 
free of charge to hold the funeral. Everyone there was very good at 
helping with all the arrangements. Because of a pending protest, our 
family felt secure with having the funeral and viewing there where 
cameras and interviews were not allowed. Anyone that tried to sneak in 
was quickly removed from the building before the family was bothered. 
As a result of the Army's cooperation the protest did not happen, and 
the news media was kept at bay. One of the soldiers, Lieutenant 
Marsano, also kept a sharp eye at the grave side. We did have some news 
media sneak in at that point. Lieutenant Marsano very quickly removed 
them, and again we were not bothered. I am very thankful for the men 
and women that helped during that time. They volunteered their help, 
and they were very thorough at keeping the funeral as peaceful as they 
could.
    After the death of my husband, I needed to fly home to take care of 
the funeral. The Army didn't have anyone to escort me, which in my 
situation was very important. At the time I was a young mother with two 
babies, and I was not in any condition, due to major surgery, to travel 
in a hurry for an undetermined amount of time. I needed accompaniment 
and the Army should have at least taken care of the airfare for the 
children and I, and my aunt and uncle to accompany me. My aunt couldn't 
bring me and the children home because her son had been in an Army 
accident days before in Iraq, so she should not have been left alone 
and could not accompany me alone. My uncle had to come with us to help 
me with the children. If he couldn't make it, someone from Idaho would 
have had to fly to Missouri to help me and the children get home. The 
cost would have been more if we had to do that. Keep in mind that most 
``families'' are usually at a base, not near their home, and when given 
the news of a death they need to find a way home. There are other young 
mothers that have medical problems as well. The Army needs to be aware 
and sympathetic to these mothers. I was fortunate enough to have people 
to help me, but there are others that do not have the same good 
fortune.
    When I spoke at a local Veteran's Day Celebration (October 2004), I 
learned that the Army had not yet paid for my husband's funeral 
expenses at a local funeral home. It should not have taken the Army 9 
months to pay for this. This is not the kind of thing the family 
remembers to follow up on during a time of grief and mourning. The Army 
should have been on top of this, even if the survivor has items they 
are responsible for. The Army should also be clear with the survivors, 
so that they know what they are responsible for. If the first initial 
check was for this, they should have told me at the beginning.
    We did have problems with the headstone at Jerrick's grave. Jerrick 
was buried on December 20, 2003, and when I went up to his grave a 
little over a week before Memorial Day, the headstone still had not 
been placed. I was very upset by this. The headstone should have been 
placed soon after he was buried rather than 5 months later. After some 
phone calls and a couple of headaches we were able to get the headstone 
placed a week before Memorial Day. The families would like to visit 
their loved one's grave and not have to worry about whether or not 
everything will be done the way it is supposed to be. This is not the 
kind of thing the families are supposed to worry about. The Army should 
have been on top of this.
    I have had quite a few problems with Social Security. Social 
Security keeps inconsistently changing my home address for my checks. I 
purchased a home and put in a change of address immediately. My home 
address was re-forwarded to my old address, a rented apartment, twice 
already. When I called the last time to find out why I wasn't receiving 
my checks I talked to a representative that was very rude and 
condescending. She told me that the address had been changed and I 
asked her why. She could not tell me how it had happened. I know that I 
did not put in the change so I was a little upset that it had happened 
a second time without my knowledge or permission. I asked what I could 
do to fix the problem and she could not give me a straightforward 
answer. I told her that I could not understand what she was trying to 
explain, so I asked her to go over everything one more time a little 
slower and more efficiently. She then asked me if I was ``stupid'', and 
I was appalled. She then went on to tell me that I should talk to 
someone else in the home office in Pocatello, Idaho because I was too 
ignorant to understand her. I couldn't believe that I was being spoken 
to in such a manner. I had explained to her that I needed to get the 
problem solved as soon as possible because I have to rely on those 
checks every month to support my family, and that I couldn't go another 
month without those checks. She told me that she was not concerned with 
that. I did not get anything solved with that phone call. The office in 
my home town wasn't helpful either. I ended up calling again later and 
got the problem solved within just a few minutes once I got to speak 
with someone.
    I have also had problems with trying to talk to someone with Social 
Security. I am a single mother of two small children so I don't get a 
whole lot of time to sit on the phone for long periods of time during 
calling hours. Children require constant care and attention when they 
are the age of three and under. I do not have the time to sit on hold 
for ten to twenty minutes to talk to someone, and sometimes when you do 
get through the representatives are impatient and rude. Again, I 
believe this is a problem that needs to be remedied.
    I was happy that the Army provided our family with life insurance. 
That has helped greatly, but I do have a couple of issues that should 
be addressed.
    Before my husband left for Iraq, I learned that he had signed all 
of the insurance policy over to his parents. I immediately talked to 
him about it, so he changed it to 60 percent of it to me and the 
children, and the other 40 percent to his parents. I didn't know how 
much he left to us until his death. What bothers me most about this 
situation is that I have quite a few medical problems, and I have not 
been able to work for the last few years because of them. He knew that 
I would have to depend on this life insurance to raise the children, 
but he still left almost half of it to his parents. I did open another 
life insurance policy on him just days before he left for Iraq. This 
was after he signed the paperwork for the Army life insurance and 
before I knew how much he had left to his parents in the event of his 
death. We were very fortunate that we had that extra life insurance 
policy, but other families may not have that opportunity.
    The question I have about this situation is that is it ethical for 
soldiers to leave their life insurance policy to parents instead of 
their spouse and children? The surviving spouse is the one to take care 
of the children for the rest of their growing years, and they might 
have to depend on that life insurance policy. Should the soldiers be 
able to give it away to family not in charge of the care of his or her 
children? Does the Army educate their soldiers of the importance of 
additional life insurance and how to distribute it?
    I am very thankful for the TRICARE medical insurance. If I did not 
have the insurance I would not have been able to get a lot of my 
medical problems taken care of. There are some issues that need to be 
addressed in this area as well. I do not live close to a VA hospital so 
there are some things I do not get covered for. For example, I have to 
wear glasses or contacts. TRICARE insurance does not cover the fees for 
the doctor's visit, prescription, or the glasses or contacts. From the 
information I have gotten from friends who are soldiers, I must go to a 
base or VA hospital to get coverage. Unfortunately the nearest to 
either places is at least two-and-a-half to three hours away. I do not 
have the time or means to drive that far just for glasses, contacts or 
prescription. By doing all of this in my home town it costs more than 
what I can really afford. When I have to pay a couple hundred dollars 
just to see, out of my pocket, it takes away from the regular expenses 
I need to take care of each month. Where I have only the Social 
Security and VA checks to depend on each month, I cannot afford to 
spend so much money on things other than my monthly expenses. If my 
children were to need glasses, would the insurance pay for them?
    Another problem I have with the insurance is the care I get from 
doctors in this area. I will not go see my primary physician unless I 
absolutely have to. He misdiagnosed my cancer and he would not immunize 
my children. I had to take my children to the local Health and Welfare 
department to get their immunizations, and I ended up in emergency 
surgery for the cancer and a hernia. I am not at all happy with the 
care, but I can't get the information I need to know how to change 
doctors. I do not know how to find out who takes TRICARE in this area 
either. I have plenty of insurance questions, but I do not know where 
or who to get the answers from.
    I have received a lot of support from the community and from the 
soldiers that were with my husband in Iraq. I greatly appreciate the 
help I have received from the people that it is expected from, but the 
most help and support has been from the people that are not obligated 
to do so.
    The most support I have received altogether has been from the 
soldiers that were with my husband overseas. The soldiers from Fort 
Campbell have answered all the questions I ever had about my husband 
while he was in the Army, and they have been kind enough to share some 
wonderful stories of the things he did while he was with them.
    When I moved to Idaho I left all of our belongings in storage on 
the base. When I learned of Jerrick's death I came home with my 
immediate belongings only. Just the things that would fit into luggage 
bags for the plane ride home. I did not know exactly where any of the 
items where stored, so I did not know how to get any of it back. For 
months I did not have a crib for the baby, clothing, beds, etc. The 
casualty assistance officers did not know how to track any of it down 
either. After the soldiers got back from Iraq, they called me and asked 
if I would come visit them. While I was there they got my belongings 
shipped home, they helped me get a new military identification card, 
and they answered any questions I had surrounding Jerrick's death.
    I have a big military family so I do get to see a lot of what kind 
of support our soldiers that are coming home are getting. The soldiers 
that are coming home alive are still heroes. I have seen some problems 
with how they are dealing with life away from war. I see that they are 
still living in an idea of war even though they are not overseas. I 
believe they need to have some extra care when they get home too.

    Chairman Craig. Now let us turn to Mrs. McCollum. Jennifer, 
please proceed.

        STATEMENT OF JENNIFER McCOLLUM, SURVIVING SPOUSE

    Mrs. McCollum.  Chairman Craig, Ranking Member Akaka, 
Members of the Veterans' Affairs Committee, thank you for the 
opportunity to appear before you this morning.
    Mr. Chairman, before I proceed with my oral remarks, I ask 
that my written statement, which contains a more detailed 
accounting of my experience following my husband's death, be 
made part of the record.
    Chairman Craig. Thank you, Jennifer. All of your full 
statements will become a part of the record, and please 
proceed.
    Mrs. McCollum.  Thank you, Mr. Chairman. I am honored to be 
in your presence for the purpose of sharing a little bit of my 
story as a war widow in hopes to better this road for those 
unfortunate enough that will follow.
    My husband, Captain Dan McCollum, was killed 3 years ago in 
America's response to the terrorist attacks on our country. 
Acknowledging that there are simply no words to wrap around the 
event when a military bride hears, ``We regret to inform you,'' 
from her husband's commanding officer, I would like to share 
some of the disconnect and misnomers that currently exist in 
the survivor benefit program that our Nation is offering its 
war widowed and orphaned.
    I would like to comment on a report that was published last 
year, the report to Congress requested in Section 647 of the 
National Defense Authorization Act of 2005, also known as the 
SAG Corporation's Review of Military Death Benefits. I would 
like to highlight that in this report, many things are assumed 
to be happening, such as transition assistance. Firsthand, I 
can confirm that the support and services are not consistently 
reliable, if even present.
    Upon the death of my husband, I was assigned what the U.S. 
Marine Corps calls a Casualty Assistance Calls Officer or CACO 
for short. I was told that he was my ``go-to'' guy and that he 
was assigned to me for 1 year. My CACO was shortly thereafter 
deployed. My original CACO was first and foremost a Marine 
Corps pilot. I do not begrudge that. What I do want to 
highlight is the lack of continuity that the U.S. military has 
made in almost every casualty assistance of which I am aware.
    My situation is not unique, and as a matter of fact, I am 
discovering that casualty assistance is increasingly failing 
miserably and sometimes disgracefully. Successful casualty 
assistance is not the rule. It is quite the exception. Not only 
is there a lack of continuity, but casualty assistance is a 
``learn as you go'' for officers that otherwise have jobs that 
need to be done for their unit or squadron.
    One widow has reported that her Casualty Officer was 
informed by his unit that he had a day job and the casualty 
assistance was to be done after hours. Another widow shares 
that her Casualty Officer retired 45 days after her husband 
died and was not replaced. And yet more widows have shared that 
their Casualty Officers dropped from the radar screen just 
after the funeral. This is certainly not the military taking 
care of its own.
    Although this isn't a personal experience, it is vital that 
I share with you that I have been in contact with several 
widows who are still waiting on payment or reimbursement for 
their husbands' funerals. I cannot attest to what went wrong or 
how this even became an issue. It is a clear injustice to our 
grieving families and requires immediate rectification. This is 
a prime example of families falling through the cracks in a 
system that is not working.
    Family members or dependents are led to understand that we 
have 3 years of active duty status in and of the military 
community following the death of our active duty sponsor. Upon 
the commencement of the fourth year, the dependent family is 
then considered retired.
    Six months after my husband died, I had emergency dental 
work that needed to be done. I later found out that the damage 
was due to grinding my teeth related to stress. At the time of 
injury, I was informed that I was not eligible to enroll in 
United Concordia, the active duty service provider. I was told 
to contact the retiree service that is provided through Delta 
Dental. Financially, it was not a prudent choice for me to 
enroll in this unanticipated program. I ended up paying a 
dentist out of pocket for my dental repair as insurance would 
have been a bit more costly.
    We were also told that we would have legal and tax 
assistance. As it turned out, the legal department was so 
apparently over-tasked that probate on my husband's estate was 
not completed and filed, an issue that I had to revisit 
unexpectedly 2\1/2\ years later. My taxes, having been handed 
over to the tax office at the local Marine Corps base within a 
month of my husband's death, were not prepared for filing until 
over 7 months later.
    Also, I explored the option of traveling via space 
available flights. To my surprise, widows and orphans are one 
of the very few groups that are excluded from using the 
service. Space ``A'' flights are available to active duty, 
active duty dependents, retirees, and retiree dependents, but 
not to family members of those who have died in the line of 
duty.
    I was also told that I would be provided a final move. I 
was not informed that there was a statute of limitations on 
this provision. Two years after my husband was killed, I 
prepared to move out of our home, only to find that the time 
period for this final move had elapsed. Thankfully, a few 
gracious hearts, a few phone calls, and ultimately a waiver, I 
was provided the move. Bottom line, I was unaware of this even 
being a situation until it appeared too late.
    Additionally, when I moved from California to Florida, I 
knew that I needed to contact TRICARE about relocating. 
However, I did not anticipate the reception, or lack thereof, 
that I was about to receive. It became immediately clear that I 
needed to defend the guidelines of 3 years of active duty 
status. I was told by the lead office clerk that I was not 
considered active duty, the statute of limitations had passed, 
and I needed to submit paperwork for retired status of care.
    Significant misinformation exists further regarding health 
benefits once we enter the retired status, a situation of which 
I have just arrived. I received a warning call, if you will, 
from another war widow whose husband was killed alongside mine. 
She informed me that while she was at her local military 
treatment facility, also called an MTF, for a scheduled 
appointment, she was informed that she was no longer eligible 
to receive services there. I called TRICARE upon hearing her 
story and was shortly thereafter informed that I, as well, was 
not eligible to receive services at my local MTF.
    I additionally discovered that my 2\1/2\-year-old son and I 
had been downgraded in health care coverage from TRICARE Prime 
to TRICARE Standard. I was then also told that if I wanted to 
reestablish my coverage with TRICARE Prime, the earliest it 
would go into effect would be late March, 2 months away.
    The most concerning aspect to me was not specifically the 
continued lack of communication or the generalized lack of 
knowledge among the TRICARE representatives, but rather the 
fact that my child was now ineligible to continue to receive 
services under a medical program in which I moved for. My 
relocation from San Diego, California, to Jacksonville, 
Florida, was primarily based on the fact that we would be able 
to continue to receive care at the local military treatment 
facility. Imagine my surprise when this was no longer the case.
    Also, I fully support the repeal of the SBP/DIC offset, as 
introduced by Senator Bill Nelson under S. 185. These two 
benefits do not complement each other in reciprocal dollar-for-
dollar purposes and therefore needs to be rectified. Please 
take note that Federal Civil Service dependents do not lose SBP 
benefits when receiving DIC payments.
    I additionally request the child option be made retroactive 
to September 11, 2001, in regards to SBP. As it currently 
stands, a child option is available if the servicemember died 
after November 24, 2003. My family, therefore, is ineligible 
for this option. Furthermore, add the option of turning over 
the full SBP to a child of that family specifically when and if 
the unremarried spouse remarries. My concern is that 
legislation, as it currently stands, does not encourage 
remarriage for the widowed spouse. Rather, it penalizes a 
remarried status.
    And finally, it is understood that if a spouse were to 
divorce her husband after 10 years of marriage, all the while 
being active duty in the U.S. Armed Forces, the spouse is 
entitled to at least 50 percent of the member's retired pay. A 
discrepancy exists between that of a widow and that of a 
divorcee. Upon remarriage, that divorcee is still entitled to 
half of her husband's retired pay. Upon remarriage, a widow is 
not entitled to anything, specifically concerning when children 
are involved. Of course, this is after acknowledging that the 
widow is not even entitled to her husband's retired pay at all 
as DIC offsets it.
    In closing, these examples are but a mere biopsy of the 
current conditions. Change is absolutely necessary. On behalf 
of all war widows, we need your help. Thank you for your time.
    Chairman Craig. Jennifer, thank you. That is very valuable 
testimony.
    [The prepared statement of Mrs. McCollum follows:]
       Prepared Statement of Jennifer McCollum, Surviving Spouse
    I am honored to share with you a little bit of my story as a war 
widow in hopes to better this road for those unfortunate enough that 
will follow.
    My husband, Capt. Dan McCollum was killed 3 years ago in America's 
response to the terrorist attacks on our country. My husband was a 
KC130 pilot for the United States Marine Corps. Acknowledging that 
there simply are no words to wrap around the event when a military 
bride hears, ``We regret to inform you . . .'' from her husband's 
commanding officer, I would like to share with you some of the 
disconnect and misnomers that currently exist in the survivor benefit 
program that our Nation is offering its war widowed and orphaned.
    I would like to comment on a report that was published last year, 
the report to Congress requested in Section 647.NDAA05. The SAG 
Corporation finalized a ``Review of Military Death Benefits'' in April 
of 2004. Many items highlighted in this report, are none the less 
important from the other. It is noted that Congress particularly 
expressed concern that:
    <bullet> The Government of the United States properly recognize the 
significant sacrifice entailed in the loss of life by members;
    <bullet> The death benefits offered to civilian victims of 
terrorism may outstrip those offered to military members who are also 
victims of terrorism;
    <bullet> The death benefits offered to military members have not 
kept pace with benefits offered by other employers; and
    <bullet> Servicemembers' Group Life Insurance (SGLI) requires 
members to pay premiums and does not provide a guaranteed minimum 
benefit (participation in SGLI is voluntary). [page 5]
    Also, I would like to highlight that in this report, many things 
are assumed to be happening, such as transition assistance. First hand 
I can confirm that the support and services are not consistently 
reliable, if even present [see page 6].
    Upon the death of my husband, I was assigned what the U.S. Marine 
Corps calls a ``Casualty Assistance Calls Officer,'' CACO for short. I 
was told that he was my ``go-to guy'' and that he was assigned to me 
for 1 year. My CACO was subsequently deployed, as all Miramar based 
C130 pilots were during Operation Enduring Freedom. My initial CACO, a 
dear friend to me and my husband, was first and foremost a U.S. Marine 
Corps pilot. I do not begrudge that. What I do want to highlight is the 
lack of continuity that the U.S. military has made in almost every 
casualty assistance of which I am aware. My situation is not unique, 
and as a matter of fact, I am discovering that casualty assistance is 
increasingly failing miserably and disgracefully. Successful casualty 
assistance is not the rule, it is quite the exception. Not only is 
there a significant lack of continuity, but casualty assistance is a 
``learn as you go'' for officers that otherwise have jobs that need to 
be done for the unit or squadron to continue and maintain. One widow 
has reported that her casualty officer was informed by his unit that he 
had a day job and the casualty assistance was to be done after hours. 
Another widow shares that her casualty officer retired 45 days after 
her husband died and not replaced. And yet more widows have shared that 
their casualty officers drop from the radar screen just after the 
funeral. This is certainly not the military taking care of its own.
    Although this is not a personal experience, it is vital that I 
share with you that I have been in contact with several widows who are 
still waiting on payment or reimbursement for their husbands' funerals. 
I cannot attest to what went wrong or how this even became an issue. It 
is a clear injustice to our grieving families and requires immediate 
rectification. This is a prime example of families falling through the 
cracks in a system that is not working.
    Family members, or dependents, are led to understand that we have 3 
years of ``active duty status'' in and of the military community 
following the death of our active duty ``sponsor.'' Upon the 
commencement of the 4th year, the dependent family is then considered 
``retired.''
    Six months after my husband died, I had emergency dental work that 
needed to be done. I later found out that the damage was due to 
grinding my teeth, related to stress. At the time of injury, I was 
informed that I was not eligible to enroll in United Concordia, the 
active duty service provider. I was told to contact the retiree service 
that is provided through Delta Dental. Delta Dental's premiums and 
insurance rates are much more than that of United Concordia. It has 
been explained to me that the reason for this costly difference is that 
Delta Dental (the retiree plan) is not subsidized by the Government 
while United Concordia is. Financially, it was not prudent choice for 
me to enroll in this unanticipated program at that time. I ended up 
paying a dentist out of pocket for my dental repair, as insurance would 
have been more costly. I have come to learn that I am not alone in this 
as other widows have also been left out of services in which they would 
otherwise meet eligibility requirements had they enrolled prior to 
their husband's death.
    Also, as I was 15 weeks pregnant with our son at the time of my 
husband's death, I had the arduous task of enrolling our son into the 
military health care computer system, DEERS after our son was born. It 
has also come to my attention that enrollment of these children, born 
after their fathers have been killed, continues to be wrought with 
difficulties and bureaucratic red tape.
    We were also told that we would have legal and tax assistance. As 
it turned out, the legal department was so apparently over-tasked that 
probate on my husband's estate was not completed and filed, an issue 
that I had to revisit unexpectedly 2\1/2\-years later. I would be 
remiss if I didn't share that most of us were unaware of legalities 
surrounding a death of a spouse. Legal terms, such as ``probate'' carry 
little meaning to a young woman who was previously, as an example, most 
concerned about which preschool her child should attend or what 
birthing class she and her husband should sign up for. Additionally, my 
taxes, having been handed over to the tax office at Miramar within a 
month of my husband's death, were not prepared for filing until over 7 
months later.
    Also, I explored the option of traveling via space available 
flights for CONUS and OCONUS flight operations. To my surprise, widows 
and orphans are one of the very few groups that are excluded from using 
this service. Space ``A'' flights are available to active duty, active 
duty dependents, retirees and retiree dependents but not to family 
members of those who have died in the line of duty.
    I was also told that I was to be provided a final move. I was not 
informed that there was a 12 month statute of limitations on the 
provision. I had made, in retrospect, a very sound decision in the 
first few days following the death of my husband. I chose not to make 
any major decisions for at least one whole year. Upon the second 
anniversary of his death, I prepared to move out of our home, only to 
find out that the time period for this final move had elapsed. 
Thankfully a few gracious hearts, a few phone calls and ultimately a 
waiver, I was provided the move. Bottom line, I was unaware of this 
even being a situation until it appeared too late. Without a CACO, I 
relied on friends that luckily had not transferred out of the area or 
were deployed to assist me on where to go for requests, what paperwork 
to bring and in some cases, what to fill out on the paperwork. 
Understand that in the military community, this can be considered rare 
as it is a transient community to say the least.
    Additionally, when I moved from California to Florida, I knew that 
I needed to contact TRICARE about relocating. However, I did not 
anticipate the reception, or lack thereof, that I was about to receive. 
It became immediately clear that I needed to defend the guidelines of 
``3 years of active duty status.'' I was told by the lead office clerk 
that I was not considered active duty, statute of limitations had 
passed and that I needed to submit paperwork for a retired status of 
care. She backed down shortly after I was brought to tears in the 
waiting room by this banter. It wasn't until this individual researched 
her demands and the details that the situation was remedied. However, 
that didn't negate the fact that I was immediately put on the defensive 
and made very well aware of the lack of working knowledge in this 
department (TRICARE).
    Significant misinformation exists further regarding health benefits 
once we enter the retired status, a situation in which I have just 
arrived. It was my understanding that within the month of the 
servicemember's death, the surviving spouse was to contact TRICARE and 
re-enroll in the system from active duty to retired. I received a 
warning call, if you will, from another war widow whose husband was 
killed alongside mine. She informed me that while she was at her local 
military treatment facility (MTF) for a scheduled appointment, she was 
informed that she was no longer eligible to receive services there. I 
called TRICARE upon hearing her story and was shortly thereafter 
informed that I, as well, was not eligible to receive services at my 
local MTF. I additionally discovered that my 2\1/2\-year-old son and I 
had been downgraded in health care coverage from TRICARE Prime to 
TRICARE Standard. I was then further informed that if I wanted to re-
establish my coverage with TRICARE Prime, the earliest it would go into 
effect would be late March--2 months away. Admittedly, I was in tears 
at this new revelation and finally was able to focus on just 
understanding exactly the status of the new terms surrounding our 
medical coverage. I was told that it would only cost $115 every 3 
months, or $460 per year, for my son and me to get back into the 
TRICARE Prime. Irregardless of the program I chose, we are still not 
eligible to go to the MTF for care as they have stopped taking non-
active duty patients. Needless to say, I will not be able to schedule 
any of the follow-up appointments that I have for current treatments 
and ongoing care. It took two complete days to reach a local TRICARE 
representative in the Jacksonville area. I was, at that time, told that 
it would cost me in upwards of $4,000 annually to continue in the 
TRICARE system, a fact that was soon corrected when I questioned the 
program as it applies to retirees. This is yet another example of the 
lack of working knowledge of this department. The most concerning 
aspect of this to me was not specifically the continued lack of 
communication, or the generalized lack of knowledge among TRICARE 
representatives, but rather the fact that my child was now ineligible 
to continue to receive services under a medical program that I moved 
for. My relocation from San Diego to Jacksonville, FL was primarily 
based on the fact that we would be able to continue to receive care at 
the local MTF. Imagine my surprise when this was no longer the case. 
I'm not sure how much I was understood when I shared with the TRICARE 
representatives to be aware of what was getting ready to happen in that 
there will be many, many widows like me soon to follow. (As my husband 
was one of the first killed in action after the terrorist attacks, I 
have come to that 3-year mark ahead of most.)
    Another thing to highlight is the reported disparity of line of 
duty death benefits for military personnel and other public services 
and private sectors. The bottom line appears that the benefit plan that 
is provided to the families of the men and women who put their country 
before their family, who put the freedom of this country before their 
own personal gain and have paid the extreme in ultimate sacrifice 
merely appears to be just simply a good intention, rather than a 
reality.
    The report generated by the SAG Corporation clearly supports and 
defends Senators Sessions and Lieberman's proposals of increased death 
gratuity and an increase in life insurance policies under the HEROES 
Act of 2005. It appears to me that this act has made tremendous strides 
in attempting to catch up to what the other first line defenders of 
this country are offering to their surviving families.
    I would also like to underscore the indexing of cash benefits to 
the military wage level and request that Cost of Living Allowances, 
Basic Housing Allowance and other items in a servicemember's monthly 
income take in a serious level of consideration, as these items are 
excluded from the equation when base pay is considered, however they 
are not excluded when a family prepares a budget. I request a strong 
level of support for this legislation and further request that the 
process occurs in an expeditious and efficient manner without 
unnecessary bureaucracy and needless demands.
    I fully support the repeal the SBP/DIC offset as introduced by 
Senator Bill Nelson under S. 185. These two benefits do not compliment 
each other in reciprocal, dollar for dollar purposes and therefore need 
to be rectified. Please take note that Federal civil service dependents 
do not lose SBP benefits when receiving DIC payments.
    I additionally request the child option be made retroactive to 
September 11, 2001. As it currently stands, a child option is available 
if the servicemember died after November 11, 2004. My family, 
therefore, is ineligible for this option. Furthermore, add the option 
of turning over the full SBP to a child of that family, specifically 
when and if the un-remarried spouse remarries. My concern is that the 
legislation, as it currently stands does not encourage remarriage for 
the widowed spouse, rather penalizes a remarried status.
    It is understood that if a spouse were to divorce her husband after 
10 years of marriage, all the while being active duty in the U.S. Armed 
Forces, this spouse is entitled to at least 50 percent of the member's 
retired pay. A discrepancy exists between that of a widow and that of a 
divorcee. Upon remarriage, that divorcee is still entitled to half of 
her husband's retired pay. Upon remarriage, a widow is not entitled to 
anything--specifically concerning when children are involved. Of 
course, this is after acknowledging that the widow is not even entitled 
to her husband's retired pay at all, as DIC offsets it. (As another 
example: in a two marriage situation, the first wife can have SBP and 
the second wife can have DIC without offset.)
    I would like to share a situation, although remedied, should be 
known. Four months following the death of my husband, I, along with the 
other ``next-of-kin'' family members to the six other individuals that 
died alongside my husband, received a survey in the mail. We were asked 
to rank our experiences, selecting between four to five choices, on a 
page full of questions surrounding the death of our loved one, 
notification of the death, the burial and communication of the Casualty 
Assistance Calls Officers. Not only was this perceived as thoughtless, 
but at 4 months following the most crushing event in our individual 
lives, as survey was not the way to go about obtaining information. 
Communication was made between Headquarters Marine Corps, Commanding 
General of Manpower. This survey, as we were told, was no longer 
distributed.
    The following are notes from a Casualty Assistance Calls Officer 
with whom I am familiar. His insight, I feel, will be useful in gaining 
a more detailed understanding of some frustrations CACOs experience and 
lack of information flow.
                      casualty assistance program
    1. The Casualty Assistance Program has grown in the USMC since 
2002; however, the training is still limited. Normally, an Officer or 
Staff Non-Commissioned Officer is assigned as a Unit CACO. Then, they 
are required to go to a class that normally lasts 1 day. The class 
consists of a long slide presentation and a question and answer period. 
No Casualty Assistance Drills are completed and the CACO leaves the 
training only somewhat prepared to support a surviving family or 
spouse. With the recent deployment schedule, deploying units are 
normally do not have the manpower to adequately handle the long-term 
requirements most families and spouses would have for CACO support. 
Currently, HQMC has a Casualty Support Division, but they also face the 
same manpower issues that the Fleet Marine Force faces. Suggest 
restructuring the Casualty Assistance Division by dividing the United 
States into four sectors (N/S/E/W) to provide better support and 
tracking. An office in each sector could provide more in depth classes 
for the unit CACOs, better tracking for changes to benefits and more 
complete followthrough on payment of all benefits.
    2. Changes in Survivor Benefits occur very often and the units are 
sometimes unaware. A good example is the Death Gratuity, which was 
increased to from $6,000 to $12,000. There needs to be some process 
involved that identifies when changes in Survivor Benefits occurs and 
then notifies the families affected by the change. Again, this needs to 
be handled by an office that has the sole responsibility of supporting 
Next of Kin. Normally, Marines within units PCS every 3 years or they 
are deploying and cannot completely focus on the needs of the Next of 
Kin. Surviving families need to be a priority for the USMC.
    3. Newly approved campaign medals are normally not presented to 
surviving families in the proper manner. Mailing the medals should not 
be an option. Men and women sacrificed their lives for these medals and 
in their honor medals should be hand delivered. This shows the most 
respect for the servicemember's honorable service. This may be 
difficult to coordinate, but a phone call and a little effort the 
families will be very appreciative.
    4. The military draws a line between who the squadron should be 
working with in terms of Casualty Assistance. For example, the squadron 
chose to work directly with you and really did not contact Betty. She 
did have a CACO in South Carolina, but those CACOs normally follow the 
process and then lose contact. This seems like a cold process and it 
is. There has got to be a better way to do this. Also, in Mary Ellen's 
case, Beverly was very upset with the squadron, since most of our 
contact was with Mary Ellen rather that her. Our guidance was to focus 
on spouses rather than parents.
    5. Some of the rules that we are required to follow make little 
sense. For example, if a widow would have had her husband's funeral 
locally in San Diego, the USMC would not have paid for the 
servicemember's parents to fly into San Diego. Since the widow would 
have declined her option to fly to a funeral, the USMC would not pay 
for any part of his family to fly in. I understand the USMC is trying 
to avoid paying for aunts, uncles, etc. In this case, we are talking 
about immediate family. We need to use more common sense in dealing 
with next-of-kin. Some rules are too restrictive and they make the USMC 
look bad.
    6. Issues with housing. Surviving families are only given 6 months 
to remain in Base Housing or they are paid 6 months of BAH. This is 
another instance where we may need to use common sense. Especially when 
dealing with children or exceptional family members. Sometimes putting 
the 6 month restriction may require a family to move during the school 
year. The children's lives are disrupted enough, now they will be taken 
away from their friends. As a CACO, I felt at times we were forced to 
pressure families to make tough decisions (i.e. Where to live the rest 
of their lives?) within a 6 month period. Most surviving spouses were 
still grieving after 6 months. Moving away from the unit support 
structure is not always easy. Suggest possibly looking at each case 
individually and doing away with the 6 month timeline. It is 
unrealistic.
    7. Military Pay. Immediately when the Personnel Casualty Report 
(PCR) is released, the servicemember pay is stopped. These families are 
normally asked to wait 2-3 months for their husband's back pay to be 
paid in full. For example, Capt Dan McCollum's pay was stopped on 9 Jan 
(when he died) when the PCR was sent to DFAS Kansas City. It wasn't 
until late Feb-early March that a check was received for his back pay. 
(Base Pay 1-9 Jan 02/Flight Pay/Imminent Danger Pay/Family Separation/
BAH) It is frustrating that the military immediately expects the 
families to give up their monthly pay, but allow themselves 2-3 months 
before they are expected to repay families.
                     overview of survivor benefits
Death Gratuity
    <bullet> An immediate check will be issued by base disbursing 
office for $12,000.
    <bullet> Ensure tax preparer is aware that only one-half is 
taxable, since disbursing reports that the entire $6,000 is taxable.
SGLI
    <bullet> $250,000 life insurance policy. OSGLI Phone number (800) 
419-1473
    <bullet> Best option is lump-sum. SGLI is aware of this and they 
are flexible in awarding the policy.
    <bullet> Policy will be placed into a bank account and checks will 
be forwarded to surviving beneficiary.
    <bullet> Suggestion: Marines should consider more than one life 
insurance policy. One should be for the purchase of a home. The second 
policy should be used for monthly interest to complement other benefits 
received.
    <bullet> Ernst & Young counseling service can provide beneficial 
guidance in how to handle the estate. Phone number (800) 425-4425.
Montgomey GI Bill
    <bullet> If Marine participated in this program, all unused monies 
will be refunded.
    <bullet> Information on participation can be viewed on a Marine's 
LES.
Arrears of Pay
    <bullet> DFAS Kansas City will immediately stop a Marine's pay upon 
receipt of the Personnel Casualty Report (PCR).
    <bullet> Surviving families will receive all payments owed to them 
once the figure is calculated by DFAS.
    <bullet> This process normally takes 30 to 60 days. In some cases, 
it may take longer.
    <bullet> Payment includes travel claims, base pay, flight pay, 
combat pay, etc--Payment is based on how many duty days elapsed since 
last pay period.
Basic Allowance for Housing (BAH)
    <bullet> Surviving families will receive a payment equaling their 
spouse's monthly BAH rate multiplied by 6 months.
    <bullet> Payment will enter checking account via direct deposit.
    <bullet> If the surviving family resides in base housing, they will 
be allowed to live there for 6 months rent-free. Extensions can be 
granted on a case-by-case basis. Extensions will require a monthly 
payment equal to the BAH rate.
Survivor Benefit Plan (SBP) and Dependency Indemnity Compensation (DIC)
    <bullet> Recent Legislation was passed for all deceased Marines' 
families to receive a SBP payment. Prior to this legislation, this 
payment was only available for Marines that exceeded 20 years of 
service upon death.
    <bullet> SBP will pay 55 percent of 75 percent of the Marine's base 
salary. (Confusing Calculation)
    <bullet> This payment will be calculated by HQMC.
    <bullet> Surviving families will also receive DIC. The Veteran's 
Administration (VA) will complete all paperwork required for this 
payment.
    <bullet> Normally, their representative will meet surviving 
families in their home to complete the paperwork.
    <bullet> Spouses will receive approximately $1,000 and an 
additional $234 will be paid per child monthly.
    <bullet> SBP is rank dependant. DIC is not based on rank.
Burial/Memorial Benefits
    <bullet> $1,750 will be paid by the Federal Government for primary 
funeral expenses. This includes casket, preparation, and transport to 
cemetery.
    <bullet> Secondary expenses will also be paid by the Government. 
$4,325--private cemetery or $3,000--national cemetery. Secondary 
expenses include funeral home costs, hearse rental, burial plot, etc.
    <bullet> Military Medical Support Office will normally pay the 
funeral homes directly. Phone number (800) 876-1131 ext 644/645.
    <bullet> Arlington Memorial services will allow for $600 in 
additional expenses.
    <bullet> Secondary expenses will normally not cover all expenses.
Headstones/Markers and Flag w/Case
    <bullet> VA will provide a headstone and a flag with case at no 
cost to surviving families.
    <bullet> Delivery will take about 4-6 months.
    <bullet> CACO will assist in completion of the forms.
Floral Tribute
    <bullet> The Government will pay for a floral tribute for display 
at the funeral service.
    <bullet> Re-imbursement will be in the amount of $81.
Invitational Travel Orders
    <bullet> The Government will pay for the immediate family (next-of-
kin) to travel to the burial service.
    <bullet> If next-of-kin chooses not to fly to burial service (i.e. 
burial is in the vicinity of surviving family's home); Government will 
not pay for additional relatives to travel to burial.
    <bullet> Payment includes airfare, 2 days per diem (covers hotel 
costs), 2 days travel, and rental vehicle.
    <bullet> HQMC will issue the orders.
TRICARE
    <bullet> Surviving families will receive 3 years of medical care at 
no cost. At the completion of the third year, surviving families will 
be required to pay retiree benefit costs.
    <bullet> Dental care will be for 3 years as well, if enrolled in 
United Concordia. If not enrolled, surviving families can enroll in the 
Retired Dental Program (RDP). They can provide coverage at the retiree 
rate.
Personal Effects/Household Goods
    <bullet> Traffic Management Office (TMO) will offer one move from 
the surviving family's current location.
    This outline is a very brief overview of all benefits. Marine Corps 
Order (MCO) 3040.4 should be used to answer specific questions. In 
addition, the Casualty Branch at HQMC can be reached at (703) 784-9512 
for questions.

    Chairman Craig. Bonnie, before I turn to you, we have been 
joined by Senator John Thune. Senator Thune, do you wish to 
make any opening comment?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Just simply that I appreciate you holding 
the hearing on this very important subject and the testimony of 
our distinguished panel today and look forward to hearing the 
rest of the testimony and an opportunity to ask questions 
later. Thank you.
    Chairman Craig. John, thank you very much.
    Now let us turn to Bonnie Carroll, Chairman of Tragedy 
Assistance Program for Survivors. Bonnie, thank you for being 
with us.

 STATEMENT OF BONNIE CARROLL, CHAIRMAN, THE TRAGEDY ASSISTANCE 
                     PROGRAM FOR SURVIVORS

    Mrs. Carroll. Thank you, Mr. Chairman and distinguished 
Members of the Committee. On behalf of TAPS and the families of 
those who have died while serving in the Armed Forces, I am 
honored to have this opportunity to speak about the care our 
Nation provides its surviving families.
    Ben Stein, a member of the TAPS Honorary Board, was to 
testify before you today, but due to an illness sends his 
apologies. He submitted a written statement, which I ask be 
submitted for the record.
    Chairman Craig. Without objection.
    Mrs. Carroll. This week's BusinessWeek magazine pictures 
Mr. Stein as the Yahoo.com ``know-it-all'' engine, and I have 
to tell you that after reviewing the massive amount of briefing 
materials I sent him in preparation for this hearing, he wrote 
me and he said he was rethinking this dubious distinction.
    [Laughter.]
    Mrs. Carroll. For the past 11 years, TAPS has been a 
sanctuary providing hope and healing for all those whose lives 
have been forever changed by the death of their loved one who 
served in the Armed Forces. Whether they are parents, children, 
spouse or sibling, TAPS meets a critical need by offering a 
national network of peers, the Good Grief Camp for young 
survivors, casework assistance, bereavement and trauma 
information and care, and crisis information, all available 24 
hours a day, 7 days a week, at no charge to the family and at 
no expense to the Government.
    In partnership with our fellow veterans' service 
organizations, the Gold Star Wives, Gold Star Mothers, National 
Military Family Association, and the Society of Military 
Widows, we meet the need of offering loving emotional support 
services to all those grieving the death of a loved one who has 
died serving in the Armed Forces.
    We are grateful for the proposed increases in both the 
death gratuity to $100,000 and the Servicemens' Group Life 
Insurance benefits to $400,000. TAPS supports these proposals 
and encourages that any increases be made equitably based on 
the life and the service, not differentiating based on the 
circumstances or geography of the death. A death in combat is 
certainly tragic, but the loss to the military family is no 
greater.
    We are also grateful for your support of the grief and 
trauma counseling now available to the surviving family members 
of those killed in Iraq and Afghanistan through the Department 
of Veterans Affairs Readjustment Counseling Service at 206 
veterans' centers across America. This expanded eligibility was 
granted in August 2003 by former VA Secretary Principi and in 
conjunction with the emotional support services offered by 
TAPS. It has had a tremendous impact on the ability of our 
surviving families to cope and recover.
    At the veterans' center, our families find comfort in their 
local community and obtain counseling from trained therapists 
who understand the complicating factors of loss in the 
military. To date, the VA veterans' centers have seen 367 
family members, with TAPS providing over a third of those 
referrals.
    As an example of this extraordinary program, just briefly, 
a young woman whose husband was killed in Iraq by an IED called 
TAPS, very concerned that her little 6-year-old son had been 
unable to sleep through the night and was having horrible 
nightmares, waking up screaming. He had visions of how his 
father died and had seen these images on television. He feared 
that his mother would also die, leaving him alone. TAPS 
partnered this widow with a peer mentor, another young widow 
who had faced a similar loss, and also arranged for this mom 
and son to receive trauma counseling at their local veterans' 
center.
    The therapist, a former combat veteran himself, explained 
to this little boy, man-to-little-man, what war is about, that 
his father died in combat so that his family would be safe here 
in America, and reassured him that nothing was going to happen 
to him or his mom. After they talked and the counselor answered 
all the little boy's questions with honesty, speaking both as a 
counselor and a soldier, just like his dad, their precious 
little boy has slept soundly through the night ever since.
    I can think of no greater way to honor our fallen warriors 
than by caring for their families on such a personal level, and 
I thank the Committee for ensuring the veterans' center program 
is fully supported.
    From my years of speaking with surviving families, I have 
repeatedly heard their gratitude for the honors given by our 
Armed Forces, the support of the Military Casualty and Mortuary 
Officers, and the compensation received. As the widow of a 
soldier killed in the crash of an Army C-12 aircraft, I 
remember all too clearly the day the Casualty Officer told me 
that while he was unsure of the exact benefits, he was 
confident that our family would be taken care of. This was a 
relief at a time when our world seemed to be crashing around 
us.
    Complete, accurate information is so important at this 
critical time, and for this reason, TAPS encourages the 
Committee to examine all proposals that would enhance this 
capability. A professional without the proper tools is ill-
equipped to do his or her job. To complement the assistance 
provided by the Casualty and Mortuary Officers, the emotional 
support services provided by TAPS, the counseling provided at 
the veterans' centers, we encourage an examination of modern 
technology-based tools and systems. While no amount of 
compensation will bring back a loved one, we owe our surviving 
families the peace of mind made possible when they receive the 
very best information about the complex array of benefits due 
them.
    In closing, TAPS appreciates the dedication and commitment 
of the distinguished Members of the Committee to protect, 
defend, restore, and improve the benefits earned by those who 
have served our Nation in peace and in war. Your actions on 
behalf of today's military members serving at home and abroad 
and on behalf of its future veterans will send a powerful 
signal that their service is recognized and honored.
    Thank you for the opportunity to submit testimony today.
    Chairman Craig. Bonnie, thank you for that valuable 
testimony.
    [The prepared statements of Mr. Ben Stein and Mrs. Carroll 
follow:]
      Prepared Statement of Ben Stein, Honorary Board Member, TAPS
    I apologize for not being able to be present today in person to 
testify on behalf of TAPS, the national organization providing 
compassionate care for our surviving military families, and on which I 
am proud to serve as an Honorary Board Member. I injured my eardrum 
badly during a flight last week and cannot fly for a while. As a part 
time resident of Bonner County, Idaho, I look forward to meeting with 
my home State Senator from Idaho to personally discuss these important 
issues.
    Perhaps the urgent necessity of making some order and sense about 
the generous benefits allowed to the families of military men and women 
killed while in the service can come from this example.
    One of my best friends is Corporal John Quinones of Fort Hood, 
Texas. He is 25 years old. He has been in the Army for 6 years. He is 
in the ``2/7'' of the 1st Air Cavalry Division, which is to say, Second 
Battalion, Seventh Brigade of the 1st Air Cav, which is famous for its 
exploits in the la Drang Valley in Vietnam. In turn the 1st Air Cav is 
part of the Third Army, which was the hammer with which George Patton 
hammered the Third Reich.
    When Cpl. Quinones goes out on patrol in Iraq--he has been in Iraq 
for 19 months, following 6 months in Afghanistan--he goes out 
unreservedly. He puts his life on the line every instant. He takes no 
half measures. He carries with him an M-4 short stock assault rifle, a 
Glock pistol, an M-79 grenade launcher, and a captured AK-47. He wears 
more than 50 pounds of Kevlar body armor reinforced with steel plates. 
He wears this in temperatures of close to 150 degrees. He is in 
firefights and ambushes day after day. He has been hit by shrapnel 
repeatedly and has serious scars behind his left ear and on his left 
ankle.
    The Army is his life. He does not ever want to leave it. He has no 
hesitation at all about offering up everything he has every day during 
his service in the Army. He never hedges about his commitment or tries 
to avoid its most extreme exposure to risk.
    Back at Ft. Hood, his wife Yeency--she is a native of EI Salvador--
cares for their two children, Samantha, one, and Christopher, two. She 
is a beautiful, intelligent woman and a devoted mother. She knows very 
little about laws and regulations and her command of English is not 
perfect. She is 100 percent behind her husband and behind the Army. 
Like all military wives, she is the true strength at home, the real 
backbone of our military defense might.
    I pray every night and every morning that nothing bad happens to 
Cpl. Quinones. But if, God forbid, something did happen, Yeency and 
Chris and Samantha would be entitled to a wide range of benefits a 
grateful Nation owes to them. The Congress and the President have been 
generous in this area and apparently plan to be even more generous.
    But how would Yeency understand what all of her rights were? I am a 
trained lawyer and economist for whom English is my native tongue. I am 
bound to say I have difficulty in understanding everything that is 
available, how it applies, what formulas kick in and how long payments 
for various parts of the package--education, health care, payments for 
foregone wages, would function. I have spent a good chunk of my life 
writing about complex corporate transactions for Barron's and other 
publications and even teaching law. But I still do not understand how 
the whole benefits package for families of lost servicemen and women 
works.
    In addition to the loving support and care provided by TAPS and the 
other veterans service organizations, there are tools such as the 
Servicemembers Benefits Analysis Online that could immediately access 
complete information on what every service family would be entitled to 
if that dreaded knock on the door ever came. This information could be 
made available to the families on a regular basis and they could be 
briefed regularly on what was theirs after the burial of the man or 
woman who was the center of their universe. This seems to me to be a 
basic necessity for the DoD and the VA in their package of care for the 
surviving family. I am not here to plead for more money for military 
families today--although I do find it stunning that Cpl. Quinones risks 
his life every day, in hardship conditions, for less than $1900 a 
month, including combat pay. But that is for another day. What I do 
want to emphasize is the urgent necessity of immediately communicating 
to service families just what they are entitled to if their heart's 
fondest ideal is taken from them.
    They have already suffered a totally devastating loss. Let us 
assuage it to the small extent we can by letting them know that their 
grateful Nation will provide for them in a range of basic and advanced 
areas of life. This is no more than simple decency for John and Yeency 
and Chris and Samantha and the millions like them who defend this 
glorious shining City on the Hill, this majestic America.
    Respectfully submitted, Benjamin J. Stein, West Hollywood, 
California, and Sandpoint and Priest Lake, Idaho.

                               __________

            Prepared Statement of Bonnie Carroll, Chairman, 
                Tragedy Assistance Program for Survivors
    Mister Chairman and distinguished Members of the Committee: On 
behalf of TAPS, the Tragedy Assistance Program for Survivors, and the 
families of those who have died while serving in the Armed Forces, I am 
honored to have this opportunity to speak about the care our Nation 
provides its surviving families.
    Ben Stein, a member of the TAPS Honorary Board, was to testify 
before you today, but due to an illness, sends his apologies. He has 
submitted a written statement which I request be submitted to the 
record.
    The subject of today's hearing references the words of President 
Abraham Lincoln, which are inscribed on the front of the Department of 
Veterans Affairs building: ``. . . Caring for he who shall have borne 
the battle, and his widow and his orphan.'' When a servicemember joins 
the military community, not only does the member become part of a 
larger whole, but so does his family. If he is killed, the grieving 
widow thus loses twice: her immediate loss of life partner, but also 
the extended military family and way of life which she and her partner 
have shared, regardless of the circumstances surrounding the death, 
whether in combat or in a peacetime duty status.
    For the past 11 years, TAPS has been a sanctuary providing hope and 
healing for all those whose lives have been forever changed by the 
death of their loved one who served in the armed forces. Whether they 
are parents, children, spouse or sibling, TAPS meets a critical need by 
offering a national network of peers, the Good Grief Camp for Young 
Survivors, case work assistance, bereavement and trauma information and 
care, and crisis intervention, all available 24 hours a day, 7 days a 
week, at no charge to the family and at no expense to the Government. 
In partnership with our fellow Veterans Service Organizations--the Gold 
Star Wives, Gold Star Mothers, Society of Military Widows, National 
Military Family Association, and others--we meet the need of offering 
loving emotional support services to all those grieving the death of 
their loved one in the armed forces.
    We are grateful for the proposed increases in both the Death 
Gratuity, to $100,000, and the Serviceman's Group Life Insurance 
benefits, to $400,000. TAPS supports these proposals, and encourages 
any increases be made equitably based on the life and service, not 
differentiating based on the circumstances or geography of the death. A 
death in combat is certainly tragic, but the loss to the military 
family is no greater.
    We are also grateful for your support of the grief and trauma 
counseling now available to the surviving family members of those 
killed in Iraq and Afghanistan through the Department of Veterans 
Affairs Readjustment Counseling Service at the 206 Vet Centers across 
America.
    This expanded eligibility was granted in August 2003 by former VA 
Secretary Principi, and, in conjunction with the emotional support 
services offered by TAPS, has had a tremendous impact on the ability of 
our surviving military families to cope and recover. At the Vet Center, 
our families find comfort in their local community, and obtain 
counseling from trained therapists who understand the complicating 
factors of loss in the military. To date, the VA Vet Centers have seen 
367 family members, with TAPS providing over a third of those 
referrals.
    As an example of this extraordinary program, a young widow whose 
husband was killed in Iraq by an IED, called TAPS very concerned that 
her 6-year-old son was having horrible nightmares and unable to sleep 
through the night. He had visions of how his father died, from seeing 
images of the war in Iraq on television. And he feared that his mother 
would also die, leaving him all alone. TAPS partnered this widow with a 
peer mentor, another young widow who had faced a similar loss, and also 
arranged for this mom and son to receive trauma counseling at their 
local Vet Center. The therapist, a former combat vet himself, explained 
to this little boy, man-to-little-man, what war is about, that his 
father died in combat so that his family would be safe here in America, 
and reassured him that nothing was going to happen to him or his mom. 
They talked for an hour, and the counselor answered all the little 
boy's questions with honesty, speaking both as a counselor and a 
soldier, just like his dad. That precious little boy has slept soundly 
through the night ever since. I can think of no greater way to honor 
our fallen warriors than by caring for their families on such a 
personal level, and I again thank the Committee for ensuring the Vet 
Center program is fully supported.
    From my years of speaking with surviving families, I have 
repeatedly heard their gratitude for the honors given by our armed 
forces, the support of the military casualty and mortuary officers, and 
the compensation received. As the widow of a soldier killed in the 
crash of an Army C-12 aircraft in Alaska, I remember all too clearly 
the day the casualty officer told me that while he was unsure of all 
the exact benefits, he was confident that our family would be taken 
care of. This was a relief at a time when our world seemed to be 
crashing around us. Complete, accurate information is so important at 
this critical time, and for this reason, TAPS encourages the Committee 
to examine all proposals that would enhance this capability.
    In 2001, TAPS was present at the Pentagon Family Assistance Center 
caring for the surviving families and witnessed first hand the 
capabilities of the Service Members Benefits Analysis Online 
(SMBAOnline), a tool that enabled the families of those military 
members killed in the Pentagon on September 11th to immediately see the 
full picture of the lifetime benefits available to them through the 
Death Gratuity, DoD Survivor Benefit Plan, the VA Dependency and 
Indemnity Compensation, Social Security, last pay and allowances, 
burial benefit, and the Dependent's Education Assistance, including a 
full calculation of offsets, inflation and options specific to their 
individual cases.
    A professional without the proper tools is ill-equipped to do his 
or her job. To complement the assistance provided by the Casualty and 
Mortuary Officers, the emotional support services offered by TAPS, and 
the counseling provided by the Vet Centers, we encourage an examination 
of modern technology-based tools and systems.
    This investment in training and tools would also help to educate 
the public and to correct much of the rampant misinformation. For 
example, and unfortunately, some senior officials in both the Executive 
and Legislative Branches share the misimpression that the only benefit 
provided to the surviving families is a ``paltry $12,000 death 
gratuity.'' Testimony presented by senior DoD and VA officials on 
Tuesday to the Senate Armed Services Committee made tremendous strides 
in correcting these misunderstandings and in removing the inference 
that the current death gratuity is the sole compensation given by a 
grateful Nation. Examples of a full survivor benefits analysis, 
including lifetime benefits available from the Department of Veterans 
Affairs, Department of Defense, Social Security Administration, 
Serviceman's Group Life Insurance, Veterans Education Assistance, and 
other agencies, are included in my written statement, which I submit 
for the record.
    No amount of compensation will bring back a loved one, but we owe 
our surviving families the peace of mind made possible when they 
receive the very best information about the complex array of benefits 
due them. TAPS recommends that the Congress include in the proposed 
legislation for increased financial benefits the mandate for the 
Service Members Benefits Analysis Online. Complementing our support of 
trained casualty assistance professionals, the concepts comprising this 
tool would make possible an immediate, accurate, consolidated summary 
of individual benefits due a surviving family. This expenditure will be 
a sound investment of the public money, and truly do what the deceased 
warrior would most want for his family--give peace of mind regarding 
their financial security.
    TAPS appreciates the dedication and commitment of the distinguished 
Members of the Committee to protect, defend, restore, and improve the 
benefits earned by those who have served our Nation in peace and war.
    Your actions on behalf of today's military members serving at home 
and abroad, and on behalf of its future veterans, will send a powerful 
signal that their service is recognized and honored. Thank you for the 
opportunity to submit testimony on behalf of the surviving families of 
TAPS.
                               appendix a
    Three examples of total benefits for surviving families of varying 
rank:

    A widow with two children of a Marine Captain (0-3), with 6 years 
of service, who died on active duty today receives:
    <bullet> Annual payment first year (adjusted annually)=$58,920 
($4,910 per month). (Payments decrease as children grow up and leave 
home.)
    <bullet> Lifetime cumulative benefit payments (unremarried widow's 
life expectancy 75; assumed inflation 3 percent per year)=$3,227,364.
    <bullet> Immediate benefits to the widow, including insurance 
(Death Gratuity of $12,420 plus Serviceman's Group Life Insurance of 
$250,000 and $255 Social Security Death Benefit)=$262,675.
    <bullet> Education benefits for the widow and children (current 
value)=$108,405.
    <bullet> Total lifetime benefit package for widow of captain with 2 
children: $3,598,444.
    A widow with three children of a Navy Petty Officer (E-6), with 12 
years of service, who died on active duty, receives:
    <bullet> Annual payment first year (adjusted annually)=$58,488 
($4,874 per month). (Payments decrease as children grow up and leave 
home.)
    <bullet> Lifetime cumulative benefit of payments (unremarried life 
expectancy 74; assumed inflation 3 percent per year)=$1,975,087.
    <bullet> Immediate benefits to the widow, including insurance 
(Death Gratuity of $12,420 plus Serviceman's Group Life Insurance of 
$250,000 and $255 Social Security Death Benefit)=$262,675.
    <bullet> Education benefits to widow and children (current 
value)=$220,565.
    <bullet> Total lifetime benefit package for widow of petty officer 
with 3 children: $2,458,327.
    A widow w/o children of an Army Corporal (E-4) with 3 years of 
service who died on active duty receives:
    <bullet> Annual payment first year (adjusted annually)=$11,916 
($993 per month).
    <bullet> Lifetime cumulative benefit of payments (life expectancy 
71; assumed inflation 3 percent per year)=$1,688,220.
    <bullet> Immediate benefits to the widow, including insurance 
(Death Gratuity of $12,420 plus Serviceman's Group Life Insurance of 
$250,000 and $255 Social Security Death Benefit)=$262,675.
    <bullet> Education benefits for the widow (current value)=$36,135.
    <bullet> Total lifetime benefit package for widow of corporal 
without children: $1,987,030.

    Chairman Craig. Now let us turn to Edith Smith, Member, 
Legislative Committee, Gold Star Wives of America. Edith, 
welcome to the Committee.

  STATEMENT OF EDITH G. SMITH, MEMBER, LEGISLATIVE COMMITTEE, 
                   GOLD STAR WIVES OF AMERICA

    Mrs. Smith.  Mr. Chairman, Senator Akaka, and distinguished 
Committee Members, the Gold Star Wives of America appreciates 
the opportunity to participate in this hearing to examine the 
benefits and quality of services provided to the surviving 
spouses and children of those who die in the line of duty.
    I would like to mention that Rose Lee, our National 
Legislative Chairman, is here today, well known to your 
Committee, as she has worked for 27 years on issues affecting 
the Gold Star Wives.
    I am the widow of a 100-percent service-connected disabled 
retired Marine who died in 1998, and therefore, I am presenting 
the testimony as it affects the disabled.
    Gold Star Wives collected letters that we have brought 
today from our members expressing their views to the Committee 
about their situations. Our newer widows have expressed, for 
the most part, great appreciation for the Casualty Assistance 
Officer as a person. Many have noted serious frustrations with 
the system, stemming from a lack of formal training by the 
military services. It appears to us that the officers' sources 
for accurate information are very fragmented.
    In order to solve this problem and provide our widows with 
up-to-date uniform benefit information from three Departments 
of the Government, we suggest the use of the Armed Forces 
Services Corporation, who has a unique computer software 
program, to support the Casualty Assistance Officer in helping 
the surviving spouse and family to present this accurate 
information. This organization has already demonstrated their 
successful program when they responded to DoD's request to 
provide survivor assistance following the 9/11 tragedy.
    We believe the purposes of the military survivor benefits 
appear to have been lost. We are very appreciative of the 
Dependency and Indemnity Compensation established in 1957, paid 
to the surviving spouse and children by the Veterans 
Administration as indemnification for the active duty and 
service-connected death.
    In January of 1993, legislation substantially changed the 
nature of the DIC program to provide a uniform indemnity 
payment, cutting the support payments related to military rank.
    The Department of Defense established the current survivor 
benefit program in 1972 to assure that surviving dependents of 
military personnel who die following retirement that they would 
continue to receive 55 percent of retired pay. More than 
200,000 military widows are recipients of this benefit without 
offset.
    We believe the Gold Star Wives are entitled to be included 
in the survivor benefits program provided to all other military 
widows by DoD. It is a purchased benefit of retirement. The 
cost burden of survivor benefits is then appropriately shared 
by both the military services, the employer, and the Veterans' 
Administration with the indemnity payment. Gold Star Wives 
supports one death benefit paid for all active duty deaths. 
While the cause of death may be an accident or in a different 
location, the grief and financial needs of our Gold Star Wives 
and their children are all similar.
    There is legislation proposed that would provide 
Government-funded benefits to surviving families who, before 
the death, were not financially dependent on the fallen 
soldier. We are concerned that these same benefits will be 
denied to surviving spouses and children who were financially 
dependent on their fallen soldier.
    We were asked to comment on death benefits provided to 
survivors of the catastrophically disabled retiree. Too many 
soldiers in this war have horrible permanent injuries. All 
deaths within 120 days following retirement are provided the 
benefits of active duty deaths. The disparity in survivor 
benefits comes after this period. These families face very 
difficult challenges that most of us cannot even begin to 
imagine.
    We have identified the following differences in death 
benefits for the retired catastrophically disabled soldiers as 
best we could. First, there is no Casualty Assistance Officer 
for retirees. There is no death gratuity. The VA burial 
allowance drops to $2,000 and falls far short of the military's 
allowance of $6,900 for active duty deaths. It is sad to note 
that these families of the catastrophically disabled will pay 
to bury their own.
    VA's special compensation for these retirees can be up to 
$6,700 monthly. The amount of indemnity compensation paid to 
his surviving spouse comes to about 15 percent of that amount. 
The surviving spouse of a 100 percent disabled receives 41 
percent with the DIC payment equally provided to all at $933.
    My husband lived more than 8 years with a 100 percent 
disability, so I receive an additional $213 for helping to 
provide his care. Soldiers who suffer the most may not live the 
5 years required for their survivors to receive this additional 
payment.
    The Servicemembers' Group Life Insurance must be converted 
to the Veterans' Group Life Insurance within a short time. The 
higher cost VGLI is a term insurance, with premiums actuarially 
increased by age, possibly unsubsidized by the Government, and 
there is no waiver of premium for permanent disability.
    DIC eligibility is not automatic. The cause of death must 
be service-related or live 10 years with the disability. We 
believe it is prudent to purchase the military's SBP with a 
cost of 6.5 percent of his retired pay to assure the surviving 
spouse, who has placed her career on hold, a minimum guaranteed 
income.
    Surviving family members of retirees are not eligible for 
the 3-year continuation of active duty medical and dental 
benefits. This loss is especially devastating to surviving 
special needs children.
    Gold Star Wives asks that the Committee keep these concerns 
in mind when you are working to improve survivor benefits. We 
thank you and we are very happy to answer your questions.
    Chairman Craig. Edith, thank you very much for that very 
comprehensive view of a different but very important type of 
situation.
    [The prepared statement of Mrs. Smith follows:]
 Prepared Statement of Edith G. Smith, Member, Legislative Committee, 
                       Gold Star Wives of America
    ``With malice toward none; with charity for all; with firmness in 
the right, as God gives us to see right, let us strive to finish the 
work we are in; to bind up the Nation's wounds; To care for him who has 
borne the battle, his widow and his orphan.''--President Abraham 
Lincoln, Second Inaugural Address, March 4, 1865.
    Mr. Chairman, Senator Akaka, and distinguished Committee Members, 
The Gold Star Wives of America appreciates the opportunity to 
participate in this hearing to examine the survivor benefits and the 
quality of services provided to the family members of those who die in 
line of duty. Please accept our full statement for the record. My name 
is Edith Smith and I am the widow of a service connected disabled 
retired Marine.
    The new members of Gold Star Wives, represented by our widows here 
today, have expressed frustration in their letters to you with the 
present system of Casualty Assistance as well as unanticipated bills 
they have received for the funerals of their ``Fallen Hero.'' The 
Casualty Assistance Officer does not receive training for this duty and 
their prior knowledge of survivor benefits are generally poor. However, 
our members do express great appreciation for the officers themselves. 
In order to have some uniform information in DoD's Casualty Assistance 
program, we would like to acquaint you with the Armed Forces Services 
Corporation, formerly the benefit department of ``Army Air Force Mutual 
Aid Association'' at Ft Myer, Va. This group serves as a lifetime 
casualty assistance office with its unique computer program to project 
the family's financial future of integrated Government survivor 
benefits from three main sources. They notify their members of all 
changes to these benefits and assist the surviving spouse in applying 
for those benefits. Gold Star Wives suggest that Armed Forces Services 
Corporation be contracted to provide the uniform benefit information to 
the Casualty Assistance Officer who will continue to represent the 
Military service and assist the family.
    Gold Star Wives thanks the Members of the Senate for seeking ways 
to improve survivor benefits for family members of this war. We are 
firm in our belief that ``one death, one benefit'' should be provided 
to all surviving spouses of active duty deaths regardless of the cause 
or place of death. Gold Star Wives is confused to learn that some 
legislation that would provide more generous survivor benefits to 
family members who had not been financially dependent on the fallen 
soldier while denying these same benefits to a financially dependent 
surviving family of the soldier killed in a ``friendly fire'' accident 
in a different location or severly disabled from Iraq.
    Gold Star Wives were not included in the legislation last year to 
which improved the survivor benefit payment. My husband paid for me to 
have the SBP benefit for 18 years before his death. Were he alive 
today, our family income would have the disabled retirees offset now 
eliminated, or if I remarried, my SBP eligibility would be restored. We 
military widows should not be excluded from the traditional spousal 
survivor benefit of the Department of Defense.
    Gold Star Wives believe the purposes of the SBP and DIC 
Compensation have been lost. Military widows want the dignity of 
receiving work related survivor benefits from our husband's employer. 
We are appreciative of the Indemnity Compensation paid by the Veterans 
Administration in recognition of their heroic military service and our 
great sacrifice.
    Gold Star Wives was asked to focus our remarks on the death 
benefits provided to survivors of the catastrophically disabled 
retiree. Too many soldiers in this war have horrible permanent injuries 
caused by ``Improvised Explosive Devices.'' My own awareness of this 
often overlooked group rises from my role as the widow of a retired 100 
percent disabled Marine who died in 1998.
    Deaths within 120 days of retirement receive the same benefits and 
services provided for an Active Duty Death.
    The disparities in survivor benefits for the catastrophically 
disabled arise after 120 days. These families must rise to very 
difficult challenges that most of us can't begin to imagine. The 
disparities in death benefits that Gold Star Wives have identified are:
    <bullet> No death gratuity.
    <bullet> VA Burial allowance for service connected deaths of $2,000 
plus mileage falls far short of the military's $6900 allowance. It is 
sad to know these families will pay to bury their own.
    <bullet> VA's ``special compensation'' disabled retirees receive up 
to $6,709; the surviving spouse receives $993; that is 15 percent of 
the family income. The surviving spouse of a 100 percent disabled also 
receives same indemnity compensation of $993; or 41 percent. My husband 
lived more than 8 years with a 100 percent disability, so I received an 
additional $213 DIC for assisting with his care. Soldiers who suffer 
the most may not live 5 years for their surviving spouse to qualify for 
this extra $213.
    <bullet> Casualty Assistance Officers not mandated for retired 
survivors.
    <bullet> Life Insurance: the Serviceman's Group Life Insurance must 
be converted to the Veterans' Group Life Insurance within a short time. 
The higher cost VGLI is a term insurance with premiums actually 
increased by age, unsubsidized by the Government, and with no waiver of 
premium for permanent disability.
    <bullet> DIC eligibility is not automatic; cause of death must be 
service related or live 10 years with the disability. It becomes 
prudent for the retiree to purchase the military's Survivor Benefit 
Plan with a cost of 6\1/2\ percent of retired pay to assure his 
survivor, who has placed her career on hold, of a guaranteed income.
    <bullet> Surviving family members of retirees are not eligible for 
3-year continuation of active duty medical and dental benefits.
    Gold Star Wives suggests that the Committee restructure survivor 
benefits for surviving family members of the catastrophically disabled.
                               who we are
    Gold Star Wives of America, Inc., is a Congressionally chartered 
service organization comprised of surviving spouses of military 
servicemembers who died while on active duty or as a result of a 
service-connected disability. Many of our membership of over 10,000 are 
the widows of servicemembers who were killed in combat during World War 
II, the Korean War, the Vietnam War and all those military operations 
up to today's in Iraq and Afghanistan. Almost all of our members are 
receiving Dependency and Indemnity Compensation (DIC) from the 
Department of Veterans Affairs (VA). Gold Star Wives has been working 
on Capitol Hill to help maintain survivors benefits since it was 
founded in 1945. Today, we continue to fight to maintain those benefits 
for not only our members, but also for the over 330,000 survivors 
receiving DIC.
    Gold Star Wives has a long history of performing volunteer 
community service as well as volunteer work in our Nation's Veterans 
Hospitals and many other places where they are needed. During 2003, 119 
of our members volunteered in 49 Veterans Affairs Volunteer Service 
(VAVS) accredited Hospitals and Medical Centers. Gold Star Wives 
volunteered at Veterans Hospitals and Medical Centers 11,537 hours 
valued at $59,416, drove more than 23,866 miles valued at $3,341, and 
donated over $27,000 in cash and goods. We are currently members of the 
National VAVS Committee.
    The National Legislative Committee of The Gold Star Wives of 
America is composed of volunteer members. The Committee includes:
    <bullet> Rose Lee, Chairman, of Arlington, Virginia; widow of U.S. 
Army active duty death; Korean War, Vietnam War;
    <bullet> Margaret Murphy Peterson of Remsen, New York; widow of 
KIA; U.S. Army, Vietnam War;
    <bullet> Penny Splinter of Dubuque, Iowa; widow of KIA, Operation 
Iraqi Freedom;
    <bullet> Edith Smith, of Springfield, Virginia; widow of retired 
disabled Marine, Vietnam War;
    <bullet> John Brennan, is our paid Washington Government Relations 
Representative.
          survivors' legislative highlights in 108th congress
    Gold Star Wives worked closely with the Senate Committee on 
Veterans' Affairs in the 108th Congress to pass legislation that has 
improved military survivors' benefits. We have always found both 
Majority and the Minority Committee staff members to work in a bi-
partisan and collaborative manner. They have always responded promptly 
to our requests for information, as well as meetings to discuss our 
legislative concerns and priorities. Consequently, Gold Star Wives 
would like to express our gratitude for their efforts in working to 
improve survivors' benefits during the 108th Congress.
    Specific survivors' legislative highlights in the 108th Congress 
include:
    <bullet> The Veterans Improvement Act of 2004 (P.L. 108-352)
    <bullet> Increases survivors' DIC benefits by $250 per month during 
the 2-year period following the death of a veteran to further ease the 
transition of surviving spouses with dependent children;
    <bullet> Allows a remarried spouse to be buried in a national 
cemetery with his or her deceased veteran-spouse and without permission 
from his or her subsequent husband or wife;
    <bullet> Provides for a 10-year extension of delimiting period for 
Survivors' and Dependents' Educational Assistance (DEA) for spouses of 
active duty deaths who are now in their first 10-year period of 
eligibility;
    <bullet> The Veterans Benefits Act of 2003 (P.L.108-183)
    <bullet> Includes a provision that permits surviving spouses who 
remarry after attaining age 57 to retain their VA survivors' benefits. 
Included in that law was a provision that provides for a one-year 
period to apply for reinstatement that expired on December 15, 2004, 
for those who remarried before the law was signed on December 16, 2003. 
According to the VA, as of last October, 5794 survivors have applied 
for reinstatement out of more than 32,000 eligible survivors. 
Consequently, it does not appear that many were aware of their 
eligibility to be reinstated. So, we would ask that the law be amended 
to include those survivors over age 55 as the original legislation 
requested and to enable those survivors who may not be aware of the 
legislation to become re-enrolled;
    <bullet> Increases the rate of monthly Survivors' and Dependents' 
Education Assistance (DEA) benefits for full time students from $695 to 
$788 for 45 months (the current full time student rate is $803 per 
month);
    <bullet> Provides for the end the offset of the Survivors Benefit 
Plan (SBP) payments by DIC payments for survivors who remarry after the 
age of 57. However, The Department of Defense is refusing to recognize 
this law and is now seeking to recover payments of the SBP benefits 
made to survivors who are legally eligible to receive both payments. We 
would request that the Committee help us with this unfair 
interpretation of the law.
            current survivors' benefits monthly compensation
    <bullet> The VA's Dependency and Indemnity Compensation (DIC)
    DIC is monthly compensation of $993 paid as indemnity to 
servicemember's surviving spouse. However, this amount is only 41 
percent of the $2429 paid monthly to the family of a veteran who is 100 
percent disabled as a result of a service connected injury. 
Additionally, the DIC monthly payment of $993 is only 15 percent of the 
$6709 monthly payment paid to the catastrophically disabled veteran. 
Consequently, upon the death of a veteran of a service-connected injury 
who falls into either disability category, the veteran's family suffers 
a substantial unanticipated monthly financial setback.
    <bullet> The DoD's Survivor Benefit Plan (SBP)
    SBP originally was a military retiree's purchased benefit plan that 
assures a surviving spouse a monthly payment of 55 percent of the 
monthly retirement check. It was expanded in the 108th Congress to 
include all line of duty deaths without the requirement of 20 years of 
active duty service after September 10, 2001. However, with the SBP 
reduced by DIC, practically all active duty deaths result in the 
survivor receiving only a DIC payment. After November 24, 2003, the 
Operation Iraqi Freedom survivors have the option to elect the child 
only SBP. In that case, the SBP benefit is provided to the child 
without offset of DIC. A sad consequence of the SBP child option is 
that the survivor who becomes the primary provider for the family, is 
forced to forego their intended survivor benefit and transfer it for a 
current income at the unjust loss of a lifetime benefit intended for 
surviving spouses. No living military retiree is forced to make this 
option at retirement. We therefore suggest that survivor benefit 
options provided to the living servicemember should be provided in a 
similar and equal manner to the deceased member's family. If a divorced 
spouse is able to obtain SBP benefits for herself as a divorce 
settlement without offset of any other income, we ask why the survivor 
cannot be afforded this same benefit as a consequence of their active 
duty/retired spouse's death?
    It is extremely hard to understand, from our survivor's 
perspective, why two wives of one retiree could possibly collect each 
survivor benefit without offset. Children can collect each benefit 
without offset, and their years of SBP payments would be longer than 
the average 7 years a military survivor is expected to live and collect 
SBP. Another sad result of the child option is that children who are 
ages 18-23 and in school are paid directly rather than to the surviving 
parent. Consequently, the survivor has no legal say over this money and 
it is possible that this dependent child in college could have an 
income of some $2,000 per month resulting in a loss of potential 
scholarship and the unusual situation of an unearned income provided 
directly to the surviving ``child.''
                            recommendations
    <bullet> Ending the SBP/DIC offset
    A servicemember receiving or entitled to receive retirement pay may 
participate in the Survivor Benefit Plan (SBP) to ensure a survivor 
will have some income in the event of their spouse's death. However, 
for those retired servicemembers who die as a result of a service-
connected disability and therefore entitling their survivor to become 
eligible for DIC, the survivor's SBP will then be offset dollar-for-
dollar by their DIC.
    This patently unfair offset currently affects approximately 52,000 
survivors who are dually eligible for both SBP and DIC. While DIC is 
non-taxable income and SBP is taxable, survivors of these disabled 
retirees see little or no SBP funds despite having paid monthly 
premiums equal to 6.5 per cent of their retired pay; adding up to 
thousands of dollars over the years. As a consolation for having made 
these payments, the accumulated premiums are returned to them without 
interest. This lump sum refund then becomes a taxable event for the 
survivor. Unfortunately, there was very little tax advantage for the 
disabled retiree when paying SBP premiums because his income was 
predominately non-taxable. Consequently, there is no real advantage to 
SBP for this group of survivors and, in fact, it becomes an unjust 
survivor's burden. There is a great deal of resentment by some 
survivors who see that the Federal Government is collecting taxes on 
refunded SBP contributions for which they gained nothing financially. 
The net effect of their monthly premium payments is that the retired 
disabled veteran's survivor pays taxes for having given the Federal 
Government a tax-free loan.
    There is no civilian employer that would be permitted to return 
many years of survivorship premiums, without interest, should it chose 
not to pay purchased benefits. Yet, under current law the survivor of a 
military retiree is denied participation in a cost-sharing benefit that 
was meant to protect them. Again, had the disabled servicemember 
retired from Federal Civil Service, the survivor would be entitled to 
both the Civil Service survivor benefit and DIC, with no offset.
    Many SBP/DIC survivors have spent more than 20 years sacrificing 
and supporting their spouse's military career and then years taking 
care of them during their years of disability. Retired pay represents 
deferred compensation for the 20 or more years of military service and 
disability pay is designed to compensate for a veteran's reduction in 
quality of life and lost future earnings as a result of his sacrifice 
for his country. Just as the disabled military retirees are now 
entitled to both benefits, so should their survivors. Many survivors 
are in their 50s or older and have not had the opportunity to develop 
their own careers. The DIC attempts to indemnify them for the loss of a 
spouse's life and an element of support for their future. The SBP 
represents completely different income that they have paid for and made 
a life of sacrifices for like multiple deployments, constant anxiety 
about their spouse's well being, frequent moves, and no real chance to 
invest in a pension of their own.
    <bullet> Better training for the Casualty Assistance Officers 
(CAOs)
    We raise this issue as we have heard many instances of problems 
that the new survivors of the conflicts in Iraq and Afghanistan have 
experienced. For most survivors, the death of their spouse is the most 
catastrophic event of their lives. Many are literally in shock for many 
months and are unable to cope with the financial decisions and 
bureaucratic tangles that a survivor encounters. The CAOs are 
unfortunately not now adequately trained, nor are any assigned to such 
duty full time. Yet, they must try to help survivors go through the 
maze of the VA and DoD benefits. CAOs can not provide the kind of 
counseling, both grief counseling and financial counseling necessary to 
meet the needs of a military survivor. There currently is a little 
guidance for the CAOs. Without training or some DoD/VA/SS integrated 
brochures, survivors are without proper counseling and guidance at a 
critical time in their lives. All of the services should have 
standardized guides.
    A suggested solution to provide uniform and accurate information to 
all survivors would be for DoD to contract with the Armed Forces 
Services Corporation (AFSC). AFSC specializes in Government survivor 
benefits and is renowned for its expertise, outstanding service, and 
its unique computer program that projects the family's future 
integrated stream of Government survivor benefits and changes that 
occur to those amounts due to changing ages of the spouse and children. 
They serve as a lifetime casualty assistance office keeping their 
members informed of legislative changes that may affect the family's 
survivor benefits and assist the surviving spouse in applying for those 
benefits. AFSC assists the surviving spouse in dealing with the 
Department of Defense, Survivor Benefit Plan, Department of Veterans 
Affairs, and the Social Security Administration.
    <bullet> Improved Up-Front Information Needed for Survivors' 
Decisions
    Survivors need to know up front the following information:
    <bullet> Upon remarriage survivors are subject to the following 
change in benefits:
    <bullet> Loss of their military ID card and consequent loss of base 
privileges including Exchange and Commissary, MWR, and military medical 
benefits;
    <bullet> Their medical benefits can go from TRICARE to CHAMPVA.
    <bullet> Military survivors who work for the Federal Government can 
be barred from receiving their spouse's Social Security benefit;
    <bullet> Those not enrolled in Medicare Part B are not eligible for 
CHAMPVA. The waiver of penalties and interest assessed for late 
enrollment has been fixed legislatively for TRICARE but not for 
CHAMPVA. Gold Star Wives would like to respectfully suggest that the 
plain language of Title 38, Section 1713 gives these CHAMPVA widows the 
same or similar benefits as TRICARE survivors. We are told that about 
60-100 disabled widows may be suffering a loss of medical care because 
they were unaware of the mandated requirement to purchase Medicare Part 
B as an additional condition to their eligibility for CHAMPVA. We ask 
the Committee to inquire as to the welfare of these widows.
    <bullet> The Creation of a Survivors' Office Within the Department 
of Veterans Affairs and/or the Department of Defense
    There currently is no central focus or location within either the 
VA or DoD that a survivor or family member can go to with questions or 
concerns about their benefits. The VA's regional offices are woefully 
inadequate at providing information concerning survivors' benefits. DoD 
likewise has no central location for the new survivor to turn to should 
their CAO be without such information. There is virtually no 
coordination between DoD and VA that survivors can count on. 
Consequently, there is a need for a Survivors' Office that can carry 
out these critical functions from a central location.
    <bullet> Future Changes in Survivors' Benefits
    There are several bills being introduced concerning proposed 
changes to survivors' benefits, including an increase in the death 
gratuity from $12,000 to $100,000 and to increase life insurance. We 
strongly recommend that any changes made to survivors' benefits should 
not differentiate between active duty deaths and killed in action 
deaths. Survivors of servicemembers who die on active duty have very 
similar experiences and needs following their loss. Also, insurance 
proceeds should go to the servicemember's surviving spouse and any 
children, rather to other family members who may not be dependents.

    Chairman Craig. Now let us turn to Kathleen Moakler, Deputy 
Director, Government Relations Department, National Military 
Family Association.
    Kathleen.

 STATEMENT OF KATHLEEN B. MOAKLER, DEPUTY DIRECTOR, GOVERNMENT 
              RELATIONS, NATIONAL MILITARY FAMILY 
                          ASSOCIATION

    Mrs. Moakler. Chairman Craig, Senator Akaka, and 
distinguished Members of the Committee, the National Military 
Family Association is grateful for the opportunity to present 
testimony about the needs of the surviving families of 
servicemembers killed on active duty.
    NMFA believes the focus should be on the total package of 
benefits available for them, immediately and for the long term. 
NMFA strongly believes that all servicemembers' deaths should 
be treated equally. Servicemembers are on duty 24 hours a day, 
7 days a week, 365 days a year.
    We make the following recommendations. We recommend that 
the Dependency and Indemnity Compensation offset to the 
survivor benefit plan be eliminated. Doing so would recognize 
the length of commitment and service of the career 
servicemember and family.
    That any funding for the death gratuity be applied to 
increase it across the board for all active duty deaths.
    That spouses be involved in the decision process if the 
servicemember elects to opt out of the Service Members' Group 
Life Insurance. We also suggest a trigger mechanism to prompt 
the servicemember to update survivor information when family 
status changes. NMFA also recommends that proposals to increase 
SGLI coverage be designed to ensure that the servicemember 
takes the maximum amount and that the maximum coverage be 
available to all servicemembers on active duty.
    The surviving family is presented with a large up-front 
payment of benefits. The management of that large sum of money 
is a huge responsibility, especially if young children are 
involved. The young widow with a toddler has too many immediate 
concerns to think about the child's college education 15 years 
from now. However, she will be looking one day for information 
about those benefits. The surviving spouse needs information 
unique to her family, not a cookie cutter, one-size-fits-all 
answer. We echo support of the technology offered by the Armed 
Forces Services Corporation as an already established way for 
families to acquire this information.
    NMFA recommends the establishment of a Survivor Office 
within the VA to provide long-term information and support for 
surviving spouses and children and offer individualized 
information about each surviving family's benefit package. A 
significant element of that support should be access to 
professional financial counseling.
    The loss of a loved one is a life-changing event. It 
affects spouses, children, parents, and siblings. While we 
understand veterans' centers are offering to provide grief 
counseling, NMFA is concerned about the Department's current 
capacity to provide that counseling for all who need it. NMFA 
recommends that DoD and the VA identify the emotional needs of 
surviving spouses and children, especially in the area of grief 
counseling, and promote programs and initiatives to support 
those needs.
    Families greatly appreciate the presence of the Casualty 
Assistance Officer, demonstrating to the family that we take 
care of our own. NMFA recommends improved and consistent 
training for the Casualty Assistance Officers and family 
support providers so they can better support families in their 
greatest time of need. It is only fair to families that they 
have the best help available.
    NMFA thanks this Committee for your attention to the well-
being of military families who have lost a loved one in service 
to the Nation. Surviving families deserve the most 
comprehensive package of benefits that a grateful Nation can 
provide. It must meet families' short-term needs, provide for 
their long-term financial stability, and recognize the 
commitment, service, and sacrifice of the servicemember and 
family. With this focus, a grateful Nation can continue to 
fulfill the promise made to military families by President 
Lincoln.
    I stand ready to answer any questions you may have.
    Chairman Craig. Kathleen, thank you very much.
    [The prepared statement of Mrs. Moakler follows:]
Prepared Statement of Kathleen B. Moakler, Deputy Director, Government 
            Relations, National Military Family Association
    The National Military Family Association (NMFA) is the only 
national organization whose sole focus is the military family and whose 
goal is to influence the development and implementation of policies 
that will improve the lives of those family members. Our mission is to 
serve the families of the seven uniformed services through education, 
information and advocacy.
    Founded in 1969 as the National Military Wives Association, NMFA is 
a non-profit 501(c)(3) primarily volunteer organization. NMFA today 
represents the interests of family members and the active duty, 
National Guard, Reserve, and retired personnel of the Army, Navy, Air 
Force, Marine Corps, Coast Guard, Public Health Service, and the 
National Oceanic and Atmospheric Administration.
    NMFA volunteer representatives in military communities worldwide 
provide a direct link between military families and NMFA's staff in the 
Nation's Capitol. Representatives are the ``eyes and ears'' of NMFA, 
bringing shared local concerns to national attention.
    NMFA receives no Federal grants and has no Federal contracts.
    NMFA's website is located at http://www.nmfa.org.

Kathleen B. Moakler, Deputy Director, Government Relations

    Mrs. Moakler has been associated with the National Military Family 
Association since 1995 as a member of the headquarters staff. She has 
served as Legislative Administrative Assistant and Senior Issues 
Specialist in the Government Relations Department, NMFA Office Manager, 
and since June 2003, as the Deputy Director, Government Relations. Her 
job requires a broad knowledge of the range of issues relevant to the 
quality of life of the families of the seven uniformed services. Mrs. 
Moakler represents the interest of military families on a variety of 
advisory panels and working groups, including several committees of The 
Military Coalition.
    An Army spouse of over 28 years, Mrs. Moakler has served in various 
volunteer leadership positions in civilian and military community 
organizations in that time. Through the years, Mrs. Moakler has worked 
with many military community programs including hospital consumer 
boards, commanders' boards, family readiness groups, church councils, 
youth programs, and the Army Family Action Plan at all levels. She 
believes that communication is paramount in the efficient delivery of 
services and the fostering of a rich community life for military 
families. She holds a Bachelor of Science degree in Business 
Administration from the State University of New York at Albany. Mrs. 
Moakler has been awarded the Army Commanders Award for Public Service.
    In addition to her work at NMFA, Mrs. Moakler participates as a 
member of the Contemporary Choir at the Chapel at Fort Belvoir, 
Virginia. She has a new role as a military mom. Her daughter is an Army 
nurse recently returned from a year in Iraq and one son is an active 
duty Army National Guard member involved in homeland defense in New 
York. Her oldest son is an aspiring actor in Hollywood, California. 
Mrs. Moakler and her husband, retired Colonel Martin W. Moakler Jr., 
reside in Alexandria, Virginia.
    Mr. Chairman and distinguished Members of the Committee, the 
National Military Family Association (NMFA) appreciates your interest 
in military families, especially the survivors of those who have made 
the ultimate sacrifice. NMFA is grateful for the opportunity to present 
testimony about the needs of those families. We believe the focus 
should be on the total package of benefits available for them, 
immediately and for the long term.
    NMFA thanks this Committee for the improvements to survivor 
benefits passed in the Veterans Improvement Act of 2004 (P.L. 108-454), 
including the increase to Dependency and Indemnity Compensation (DIC), 
extension of education benefits from 10 to 20 years for the survivors 
of those killed on active duty, and providing an additional $250 
monthly to surviving spouses with children under the DIC program for a 
2-year transition period. Each of these improvements enhances the 
benefit package provided to the surviving families.
    NMFA realizes that the usual focus of this Committee is on the 
benefits provided to veterans and all survivors of those killed on 
active duty or as a result of disabilities incurred as a result of 
active duty service. We believe that the Government's obligation as 
articulated by President Lincoln, ``to care for him who shall have 
borne the battle and for his widow and his orphan,'' is as valid today 
as it was at the end of the Civil War. The Committee's willingness to 
provide a forum for discussion of all aspects of benefits for survivors 
of active duty deaths serves an important purpose. As seen in media 
reports and in questions we hear from military families and others 
concerned about military families, NMFA believes there is a lot of 
misinformation and confusion about what the complete benefit is for 
those whose servicemembers have made the ultimate sacrifice. We know 
that there is no way to compensate them for their loss, but we do owe 
it to these families to help ensure a secure future.
    NMFA strongly believes that all servicemembers deaths should be 
treated equally. Servicemembers are on duty 24 hours a day, 7 days a 
week, 365 days a year. Through their oath, each servicemember's 
commitment is the same. The survivor benefit package should not create 
inequities by awarding different benefits to families who lose a 
servicemember in a hostile zone versus those who lose their loved one 
in a training mission preparing for service in a hostile zone. To the 
family, the loss is the same.
    In this testimony, NMFA will focus on the survivor benefits package 
as it pertains to the survivors of those killed in the line of duty 
while serving on active duty including those eligible members of the 
Guard and Reserve. A summary of the Federal benefits provided to 
survivors is provided in Appendix 1.
                      concerns and recommendations
    A scene is becoming all too common as America wages the global war 
against terrorism. Brave servicemembers are sacrificing their lives in 
service to their country. It may happen on a dusty battlefield or 
village in Iraq or Afghanistan or may be the result of an unfortunate 
helicopter crash at Fort Hood, Texas. While specifics vary by service, 
the overall process is the same. The family is visited by the casualty 
notification team consisting of the chaplain and a member of the 
servicemember's unit. This family will never be the same again. A 
casualty assistance officer is assigned to help the family cope with 
the trying days ahead. Funeral arrangements are made. The memorial 
service is conducted with military honors and the spouse is presented a 
flag on behalf of a grateful Nation. The bugler blows Taps and the 
family goes home.
    The spouse encounters a confusing array of decisions that must be 
made, the consequences of which will influence his or her life and the 
lives of the children for years to come. What can be done to alleviate 
the stress and confusion facing the family? What changes can be made to 
the present package of benefits to recognize the service and sacrifice 
of the servicemember and family and provide appropriate compensation 
that promotes the financial stability of the family?
    NMFA believes the benefit change that will provide the most 
significant long term protection to the family's financial security 
would be to end the Dependency Indemnity Compensation (DIC) offset to 
the Survivor Benefit Plan (SBP). The DIC is a special indemnity 
(compensation or insurance) payment that is paid by the Department of 
Veterans Affairs (VA) to the survivor when the servicemember's service 
causes his or her death. It is a flat rate payment, which for 2005 is 
$993 for the surviving spouse and $247 for each surviving child. The 
SPB annuity, paid by the Department of Defense (DoD) reflects the 
longevity of the service of the military member. It is ordinarily 
calculated at 55 percent of retired pay. Military retirees who elect 
SPB pay a portion of their retired pay to ensure that their family has 
a guaranteed income should the retiree die. If that retiree dies due to 
a service connected disability, their survivor is also eligible for 
DIC.
    Two years ago, surviving spouses of all servicemembers killed on 
active duty were made eligible to receive SBP. The amount of their 
annuity payment is calculated as if the servicemember was medically 
retired at 100 percent disability. The equation is the basic pay times 
75 percent times 55 percent. As seen in the examples included at the 
end of this testimony (pp. 9-12), the annuity varies greatly, depending 
on the servicemember's longevity of service. As the law is written 
presently, if the amount of SBP is less than $993, the surviving spouse 
receives only the DIC payment of $993 per month. If the amount of SBP 
is greater than $993, the surviving spouse receives the DIC payment of 
$993 per month (which is non-taxable) plus the difference between the 
DIC and the SBP. For example, if the SBP is $1500, the surviving spouse 
receives $993 from DIC (non-taxable) and $507 from SBP that is subject 
to tax each month. The DIC payment of $247 for each child is not 
offset.
    Surviving active duty spouses have the option of several benefit 
choices depending on their circumstances and the ages of their 
children. By law, the SBP benefit is awarded to the spouse. As can be 
seen in the examples, it is paid for the spouse's lifetime unless she 
remarries. Because SBP is offset by the DIC payment, the spouse whose 
SBP payment would be less than the amount of DIC may choose to waive 
her SBP benefit and select the ``child only'' option. In this scenario, 
the spouse would receive the DIC payment and her children would receive 
the full SBP amount until the last child turns 18 (23 if in college), 
as well as the individual child DIC until each child turns 18 (or 23 if 
in college). As shown in the examples, once the children have left the 
house, the spouse who has chosen this option will be left with an 
annual income of $11,916 (in 2005 dollars). If there are no dependent 
children, the surviving spouse whose SBP benefit is less than the $993 
DIC payment will experience this income decline just 6 months following 
the servicemember's death. In each case, this is a significant drop in 
income from what the family had been earning while on active duty. The 
percentage of income loss is even greater for survivors whose 
servicemembers had served longer on active duty. Those who give their 
lives for their country deserve fairer compensation for their surviving 
spouses.
    It has only been since the passage of the FY 2002 National Defense 
Authorization Act that surviving spouses of servicemembers who had not 
been retirement eligible and were killed on active duty have been 
entitled to receive the SPB benefit. This eligibility was made 
retroactive to 10 September 2001. A correction in P.L. 108-136 allows 
spouses to choose ``child only'' SBP benefits. This change, effective 
only for deaths after 24 November 2003, allows some families to recover 
the SBP benefits the spouse would lose because of the DIC offset, but 
only temporarily. When the children's eligibility ends because of age, 
the SBP benefit is lost to the family.
    As we have described, the interaction between SPB and DIC is a 
complex procedure to understand. Consider trying to make decisions 
about this payment distribution a month after losing your spouse, while 
still in a state of shock and denial.
    NMFA recommends that the DIC offset to SPB be eliminated. Doing so 
would recognize the length of commitment and service of the career 
servicemember and spouse and would relieve the spouse of making hasty 
financial decisions at a time when he or she is emotionally vulnerable.
    NMFA believes that the survivor benefits package, as outlined in 
Appendix 1, needs to be viewed as a whole and each individual benefit 
be studied in the context of the whole package. The recent emphasis on 
the death gratuity, for example, leads many of the uninformed to 
believe that it is the only compensation that the surviving family 
receives. The death gratuity, currently $12,420, is paid within 72 
hours to help the families meet immediate expenses related to the death 
of the servicemember. NMFA applauds recent increases to the death 
gratuity, including the indexing of the payment to increases in basic 
pay. As with these previous changes, any further increase should be 
applied equally for all active duty deaths.
    NMFA recommends that any increased funding for the death gratuity 
be applied to increase it across-the-board for all active duty deaths.
    The largest payment provided to surviving families soon after the 
servicemember's death is from the Servicemembers Group Life Insurance 
(SGLI). The maximum coverage is currently $250,000. NMFA believes the 
services must educate young servicemembers on the importance of signing 
up for maximum coverage under SGLI and especially on updating 
beneficiary data. Information provided to NMFA indicates that more than 
90 percent of active duty servicemembers sign up for the maximum 
amount. The opt-out system, wherein the servicemember needs to show why 
he or she does not require SGLI, goes a long way in ensuring this 
participation. We are, however, less sure that National Guard and 
Reserve members are signing up at the same high rate. The election of 
insurance is a family decision. Spouses should be included in the 
decisionmaking process and no servicemember should be allowed to opt-
out without the written consent of his or her spouse. We all have heard 
of a few unfortunate instances where the servicemember had opted out of 
SGLI when first offered it, then marries and does not sign up for it. 
There are also cases where the servicemember does not change 
beneficiary or primary next-of-kin on the paperwork when he or she 
marries. While beneficiary information is supposed to be reviewed 
periodically, in actuality some people fall through the cracks. NMFA 
proposes a trigger mechanism, perhaps tied to DEERS registration, which 
would prompt the servicemember to update survivor information when he 
or she has a change in marital status or adds a dependent.
    NMFA is aware that proposals to increase the amount of SGLI are 
currently under discussion. We believe it is paramount that any 
proposal to increase the maximum SGLI should be designed to create an 
incentive for the servicemember to take the maximum amount--for 
example, that an additional $100,000 in coverage would be premium-free 
at the back end, not front. The maximum coverage should also be 
available to all servicemembers.
    NMFA recommends that spouses be involved in the decision process if 
the servicemember elects to opt-out of SGLI. We also suggest a trigger 
mechanism to prompt the servicemember to update survivor information, 
i.e. designation of primary next-of-kin, election of SGLI or change of 
beneficiary, when family status changes. NMFA also recommends that 
proposals to increase coverage be designed to ensure that the 
servicemember take the maximum amount and that the maximum coverage be 
available to all servicemembers on active duty.
    Much of the benefit confusion experienced by surviving families 
could be corrected by educating the servicemember and spouse about the 
total survivor benefit package. While some commanders or family 
readiness group leaders are reluctant to talk about this with families 
because they feel it will induce added stress or concern, the opposite 
is true. If the families have an overview of what benefits are 
available in case of the death of the servicemember, this knowledge can 
help relieve the stress when they go over the ``what if'' scenarios 
during a deployment. NMFA has a concise overview of survivor benefits 
in fact sheet format available on its website. We feel, however, that 
DoD should provide a more in-depth overview or explanation, like the 
annually-updated VA benefits, to be made available in pamphlet form and 
on-line to educate servicemembers and their families. The DoD booklet 
should focus on the survivor benefits available from all Federal 
sources and not get caught up in the minutiae of individual service 
procedures.
    NMFA recommends that DoD create a handbook similar to the annual VA 
Benefits Handbook to provide easy access to survivor benefit 
information to servicemembers and spouses.
    The surviving family is presented with a large payment ($250,000 
SGLI plus the $12,420 death gratuity) when the servicemember dies. The 
management of that large sum of money is a huge responsibility, 
especially if young children are involved. The surviving spouse also 
needs to make decisions that impact the family for many years. The 
bereaved spouse may be especially vulnerable to unscrupulous or 
uninformed advisors, friends or family members who may try to take 
advantage and ``help'' the surviving spouse spend or invest the 
inheritance. The need for unbiased and fair financial counseling has 
never been greater. At the present time, the VA offers the free 
services of a financial counseling service ``Financial Point'' for 1 
year after the servicemember is killed. The access to a long term 
service to counsel the family members about what their options are 
without a financial stake in the outcome could help the surviving 
families establish an investment plan and make sound decisions about 
what they should do that is best for their family.
    NMFA believes that surviving spouses need long-term access to 
counsel and advice concerning the entire benefit package. The surviving 
family will have questions as the years go by and their benefits and 
their need for different benefits changes. The young widow with a 
toddler has too many immediate concerns to think about the child's 
college education 15 years from now. However, she will be looking one 
day for information about those benefits. Will she be able to access 
that information and advice in an easy manner with someone who is an 
expert in benefits for families? Or, will she be forced to walk into an 
office where the counselor is more familiar with VA health benefits for 
veterans than about education benefits for surviving children? The 
surviving spouse needs information unique to her family, not a cookie-
cutter, one-size-fits-all answer.
    Entities that provide this type of survivor-focused service do 
exist. For example, Armed Forces Services Corporation (AFSC) has 
supported the military community for years and is renowned for its 
expertise in Government and military survivor benefits and the 
survivorship services provided to their military members and families. 
AFSC's staff provide assistance in matters related to military 
benefits, Social Security, Veterans Affairs, and the military Survivor 
Benefit Plan, death gratuity, SGLI/VGLI, among others. The centerpiece 
of AFSC's services is their unique software program that provides a 
personalized projection of the family's integrated stream of Government 
and military survivor benefits, including changes to the benefit 
amounts throughout the surviving family's lifetime. A service such as 
this would help surviving families understand and coordinate their 
benefits in the years to come. Such a service is so valued that 
presently Army Emergency Relief and the Navy Marine Corps Relief 
Society present all surviving families of those killed on active duty 
with lifetime memberships in the Armed Forces Services Corporation to 
guarantee that they receive the counseling and advice they require.
    NMFA recommends the establishment of a Survivor Office within the 
VA to provide long-term information and support for surviving spouses 
and children and offer individualized information about each surviving 
family's benefit package. A significant element to that support should 
be access to professional financial counseling.
    To a child, the loss of a parent is a life-changing event. As he or 
she goes through the process of grieving for the parent some help may 
be required. The VA states that it offers grief counseling to families 
through its Vet Centers; however, NMFA is concerned about the 
Department's current capacity to provide that counseling for all who 
need it. NMFA hopes the VA and DoD will work together to identify the 
needs of surviving children and promote adequately-resourced programs 
and initiatives to support those needs.
    NMFA recommends that DoD and the VA identify the emotional needs of 
surviving spouses and children, especially in the area of grief 
counseling, and promote programs and initiatives to support those 
needs.
    The military Service Casualty Assistance Officer has received 
training to help the family through these difficult times. This 
assistance, however, is performed as an extra duty and the officer is 
not an expert in survivor issues or financial counseling. Understanding 
all the benefits and entitlements is a complex process. We have heard 
from surviving families that they greatly appreciated the help and 
support provided by the Casualty Assistance Officer in those first days 
as he or she served as a representative of their parent service. The 
presence of the Casualty Assistance Officer demonstrates to the family 
that ``we take care of our own'' and can be a great comfort to the 
family as they go through the military funeral and honors. Sometimes, 
however, training for this extra duty can be hurried or incomplete and 
may result in misinformation or a missed step in a procedure that is 
not discovered until months down the road with consequences that are 
irrevocable. Family readiness group leaders and other volunteer support 
could also benefit from specific training in the area of benefits and 
support services available for surviving family members.
    NMFA recommends improved and consistent training for the Casualty 
Assistance Officers and family support providers so they can better 
support families in their greatest time of need. Training and 
responsibilities of Casualty Assistance Officers vary by service. It is 
only fair to families that they have the best help available.
    NMFA has also identified some small fixes to legislation and policy 
that could help surviving families in their transition process. As we 
all know, it is often the small inconvenience that may be the straw 
that breaks the camel's back. Each surviving family has a unique 
situation. The policy as written now allows the surviving family to 
remain in Government housing for 6 months after the death of the 
servicemember. This date may come in the middle of a school semester or 
year. When a child has had to cope with the death of a parent, the 
consistency and support of their school is important. NMFA recommends 
that the 6 month limit for occupancy of Government quarters or military 
housing privatized by DoD be waived to allow the children to finish the 
school year if the family so chooses. Rent would be charged for the 
extra time.
    Guard and Reserve families may choose to keep their employer 
sponsored health and dental care when their servicemember is activated 
and deployed. The family's eligibility for this care may cease if the 
servicemember is killed on active duty. These families may need 
information and assistance in making the transition into the TRICARE 
health system, but they are eligible for the benefit just as if they 
had been using TRICARE when the servicemember died. However, in the 
case of the TRICARE Dental Program (TDP), the dental insurance for 
active duty families, legislative changes are needed to make these 
families eligible for the benefit available to other survivors. As the 
law is currently written, only those families enrolled in the TRICARE 
Dental Program (TDP) at the time of the servicemember's death are 
eligible to continue enrollment and receive premium-free dental 
insurance for 3 years. NMFA recommends that in cases where the family 
has employer sponsored dental insurance they be treated as if they had 
been enrolled in the TRICARE Dental Program at the time of the 
servicemember's death.
    NMFA thanks this Committee for your attention to the well-being of 
military families, especially for those who have lost a loved one in 
service to the Nation. Servicemembers killed on active duty have made 
the ultimate sacrifice. Their surviving families deserve the most 
comprehensive package of benefits that a grateful Nation can provide. 
This package should reflect the obligation of the Government to 
compensate the survivors of all servicemembers killed on active duty. 
It must meet families' short-term needs, provide for their long term 
financial stability, and recognize the commitment and service of the 
servicemember and family. With this focus, a grateful Nation can 
continue to fulfill the promise made to military families by President 
Lincoln.
                               appendix 1
    <bullet> Benefits paid by the Department of Defense (DoD):
    <bullet> Death gratuity--$12,420, indexed to increases in basic 
pay. This is paid to the designated next-of-kin and is not taxable. 
This is supposed to be paid within 24 hours of notification of death. 
The purpose of this payment is to help the survivors in their 
readjustment and to aid them in meeting immediate expenses.
    <bullet> Burial benefits--DoD will process, transport and inter 
remains. A casket, vault and headstone are provided or costs of up to 
$6,900 may be reimbursed if the family elects to make private 
arrangements. Transportation costs for the immediate family are 
reimbursed if they must travel for the funeral.
    <bullet> Military Health and Dental Care Benefits--All otherwise 
eligible spouses and children remain eligible for military health care 
coverage. For 3 years from the date of death, TRICARE benefits, 
including co-pays, remain the same as active duty family benefits. 
After 3 years, the cost of TRICARE and TRICARE co-pays rise to those of 
retirees. In most cases, the survivors receive dental insurance 
premium-free for 3 years, before becoming eligible for the premium-
based Retiree Dental Program. The spouse loses eligibility for medical 
and dental benefits upon remarriage and it may not be reinstated. 
Children have benefits until age 18 or 23 if enrolled in college.
    <bullet> Survivor Benefit Plan (SBP)--Surviving spouses of 
servicemembers who die on active duty are entitled to SBP benefits. SPB 
payments equal 55 percent of what the member's retired pay would have 
been had the member been retired at 100 percent disability, i.e. 75 
percent of the basic pay (Basic pay times 75 percent times 55 percent). 
SBP is automatically adjusted annually for cost of living increases. 
SPB payments are subject to Federal income taxes. The spouse may decide 
to waive their payment and have payment made to children only until the 
children reach age 18 or 23 if enrolled in school. If the spouse 
remarries before age 55, SPB payments cease. If the subsequent marriage 
ends in death, divorce or annulment, SPB may be reinstated. If the 
spouse remarries after age 55, the SBP payments continue. SBP payments 
are offset by Dependency and Indemnity Compensation (DIC) payments.
    <bullet> Housing benefit--Surviving families may occupy Government 
quarters or be paid housing allowances for 180 days. These allowances 
vary according to rank and geographic location. In addition, the family 
is eligible for one move at the cost of the Government.
    <bullet> Servicemember's Group Life Insurance (SGLI)--All 
servicemembers are automatically enrolled for $250,000 of coverage 
unless they explicitly decline the insurance or purchase lower levels 
of coverage. SGLI will be paid to the individual designated on the 
servicemember SGLI election and certificate form. If no beneficiary is 
elected by the servicemember, the proceeds are paid first to the 
surviving spouse; if none, the child(ren) (natural, adopted or 
illegitimate) in equal shares; if none, to the parents (natural or 
adopted).
    <bullet> Other DoD benefits--Spouses are eligible for Commissary, 
Exchange, and Morale, Welfare and Recreation activities privileges 
indefinitely unless they remarry. Children maintain eligibility until 
age 18 or 23, if still enrolled in college.
    <bullet> Benefits paid by the Department of Veterans Affairs (VA)
    <bullet> Transition Assistance--a monthly payment of $250 paid to 
surviving spouses with children for 2 years from the date of death of 
the servicemember to help with transition.
    <bullet> Dependency and Indemnity Compensation (DIC)--Surviving 
spouses and children (and some dependent parents) are eligible for DIC. 
The rate has been adjusted annually for cost-of-living increases. The 
2005 spouse DIC rate is $993 monthly. The DIC payment is non-taxable. 
Additional amounts, also adjusted annually, are authorized for a 
surviving spouse with minor children. The current monthly benefit is 
$247 for each child. Unmarried children are eligible for the benefit 
until they reach the age of 18 (19 if still in secondary school), 
between 18 and 23 if they are attending a VA approved institution of 
higher learning or for life if they are disabled while still eligible 
for the benefit. Children of a deceased member, who did not have a 
spouse at the time of death, receive a different monthly benefit. If 
the spouse remarries before age 57, payment of the spouse's DIC ends. 
The children's DIC payment continues as long as they are eligible. If 
the subsequent marriage ends in death, divorce or annulment, DIC will 
be reinstated.
    <bullet> Survivors' and Dependents' Educational Assistance 
Program--Surviving spouses and children are eligible for up to 45 
months of education benefits. Beginning 1 July 2005, the surviving 
spouse of a servicemember killed on active duty has an extended 
eligibility for education benefits of up to 20 years after the date of 
the member's death. Children are normally eligible to receive the 
educational benefits between their 18th and 26th birthdays. The current 
monthly benefit is $803 per month and increases to $824 on 1 October 
2005.
    <bullet> Home Loan Guarantees--An unremarried surviving spouse is 
eligible for GI home loans and retains eligibility if remarriage occurs 
after 57th birthday.
    <bullet> Benefits paid by the Social Security Administration:
    <bullet> Social Security monthly benefits are paid to a spouse or a 
divorced spouse regardless of age if the children of the deceased 
servicemember are under age 16 or are disabled and meet Social Security 
requirements. The amount paid can only be determined by the Social 
Security Administration.
    <bullet> Social Security Lump Sum Death Benefit--a payment of up to 
$255 is paid to the surviving spouse living with the member at the time 
of death or to the oldest surviving child if there is no spouse.
    Some States also pay death benefits or provide other support, 
especially to the survivors of National Guard or Reserve members killed 
on active duty. The scope of these benefits and eligibility for them 
varies by State.
                               example 1
Servicemember, E-4 over 2 years, age 23, 10th Mountain Division, Fort 
Drum, NY

    Monthly pay and allowances:
    Basic Pay, $1,695
    Imminent Danger Pay, $225
    Family Separation Allowance, $250
    Basic Allowance for Housing, $735
    Basic Allowance for Subsistence, $267
    Total Pay and Allowances, $3,172;
    $38,064 (annual).
    Killed in Line of Duty in Iraq

Spouse, 22 years old, 2 children ages 1 and 3
    Benefits
    Lump Sum payment: Death Gratuity ($12,420); SGLI ($250,000); and 
Social Security Death Benefit ($255); Total: $262,675
    Education Benefits
    Spouse--45 months at $803 per month--eligible for 20 years
    Children--45 months each at $803 per month--between ages of 18 and 
26.

    Monthly benefits (under current laws, for first 6 months after 
servicemember's death)
    DIC for spouse, $993
    DIC for children, $247 each, $494
    SBP for spouse and children, 10 \1\
---------------------------------------------------------------------------
    \1\ SPB spouse annuity payment is $700 per month but is offset by 
DIC under current law. The family could choose to receive the $700, if 
the chooses the ``Child-only SBP'' option.
---------------------------------------------------------------------------
    Social Security, $1,630, (determined by calculator at www.ssa.gov, 
based on servicemember's income)
    VA Transition Payment, $250
    BAH (for Fort Drum), $735
    Total of monthly benefits, $4,102 ($4802, if choosing ``child-
only'' SBP option)

                                        Changes in Total Annual Benefits
                                                [In 2005 dollars]
----------------------------------------------------------------------------------------------------------------
                                                                             With DIC                   If DIC
                                                                            offset to      Spouse     offset to
     Years since servicemember's death         Event Triggering Benefit     spouse SBP    chooses     spouse SBP
                                                        Change               (current    Child-only    would be
                                                                               law)         SBP       eliminated
----------------------------------------------------------------------------------------------------------------
Immediately...............................  First 6 months (at annual          $49,224      $57,624      $57,624
                                             rate), includes Basic
                                             Allowance for Housing (BAH).
6 months..................................  End of 1st 6 months (at            $40,404      $48,804      $48,804
                                             annual rate): BAH stops.
2 years...................................  Beginning of year 3: VA            $37,404      $45,804      $45,804
                                             transition payment stops.
15 years..................................  Oldest child turns 18, but in      $34,152      $42,552      $42,552
                                             college: 30 percent of
                                             Social Security ends.
15 years..................................  Youngest child turns 16:           $26,004      $34,404      $34,404
                                             Mother's Social Security
                                             ends 75%.
17 years..................................  Youngest child turns 18 but        $17,844      $26,244      $26,244
                                             in college: Social Security
                                             ends.
19 years..................................  Oldest child turns 23: DIC of      $14,880      $23,280      $23,280
                                             $247 ends.
21 years Spouse aged 43...................  Youngest child turns 23:           $11,916      $11,916      $20,316
                                             child DIC and SBP for child-
                                             only ends.
----------------------------------------------------------------------------------------------------------------

                               example 2
Servicemember, E-4 over 2 years, age 23, activated Guard from Topeka, 
KS

    Monthly pay and allowances
    Basic Pay, $1,695
    Imminent Danger Pay, $225
    Family Separation Allowance, $250
    Basic Allowance for Housing, $701
    Basic Allowance for Subsistence, $267
    Total Pay and Allowances, $3,172; $37,656 (annual).
    This does not take into account what the servicemember might have 
been making at his civilian job and how this affects the family income.
    Killed in Line of Duty in Iraq.

Spouse, 22 years old, no children
    Benefits
    Lump Sum payment: Death Gratuity ($12,420); and SGLI ($250,000)--
Total: $262,420
    Education Benefit
    Spouse--45 months at $803 per month--eligible for 20 years.
    Monthly benefits (under current laws, for first 6 months after 
servicemember's death
    DIC for spouse, $993
    SBP 0 \2\
---------------------------------------------------------------------------
    \2\ SBP annuity payment is $700 per month but is offset by DIC 
under current law.
---------------------------------------------------------------------------
    BAH (for Topeka, KS), $701
    Total of monthly benefits, $4,102.

                    Changes in Total Annual Benefits
                            [In 2005 dollars]
------------------------------------------------------------------------
                                                  With DIC      If DIC
                                    Event        offset to    offset to
 Years since servicemember's      Triggering     spouse SBP   spouse SBP
            death               Benefit Change    (current     would be
                                                    law)      eliminated
------------------------------------------------------------------------
Immediately..................  First 6 months       $20,328      $28,728
                                (at annual
                                rate) (With
                                BAH).
6 months Spouse aged 23......  End of 1st 6         $11,916      $20,316
                                months (BAH
                                stops).
------------------------------------------------------------------------

                               example 3
Servicemember, E-7 over 14 years, age 34, II Marine Expeditionary 
Force, Camp Lejuene, NC

    Monthly pay and allowances
    Basic Pay, $3,249
    Imminent Danger Pay, $225
    Family Separation Allowance, $250
    Basic Allowance for Housing, $974
    Basic Allowance for Subsistence, $267
    Total Pay and Allowances, $4,965; $59,580 (annual).
    Killed in Line of Duty in Iraq.

    Spouse, 33 years old, 2 children ages 11 and 13
    Benefits
    Lump Sum payment: Death Gratuity ($12,420), SGLI ($250,000), and 
Social Security Death Benefit ($255)--Total: $262,675

    Education Benefits
    Spouse--45 months at $803 per month--eligible for 20 years
    Children--45 months each at $803 per month--between ages of 18 and 
26
    Monthly benefits (under current laws, for first 6 months after 
servicemember's death)
    DIC for spouse, $993
    DIC for children, $247 each; $494
    Spouse SBP, $347 \3\
---------------------------------------------------------------------------
    \3\ SBP annuity payment is $1,340 per month but is offset by DIC 
under current law.
---------------------------------------------------------------------------
    Social Security, $3,144
    VA Transition Payment, $250
    BAH (for Camp LeJeune, NC), $974
    Total monthly benefits, $6,202.

                                         Change in Total Annual Benefits
                                                [In 2005 dollars]
----------------------------------------------------------------------------------------------------------------
                                                                             With DIC                   If DIC
                                                                            offset to      Spouse     offset to
     Years since servicemember's death         Event Triggering Benefit     spouse SBP    chooses     spouse SBP
                                                        Change               (current    Child-only    would be
                                                                               law)         SBP       eliminated
----------------------------------------------------------------------------------------------------------------
Immediately...............................  First 6 months (at annual          $74,424      $86,340      $86,340
                                             rate) with BAH.
6 months..................................  End of 1st 6 months (at            $62,736       $74652      $74,652
                                             annual rate): BAH stops.
2 years...................................  Beginning of year 3: VA            $59,736      $71,652      $71,652
                                             transition pay stops.
5 years...................................  Oldest child turns 18 but in       $53,448      $65,364      $65,364
                                             college: 30 percent of
                                             Social Security ends.
5 years...................................  Youngest child turns 16:           $37,728      $49,644      $49,644
                                             Mother's Social Security
                                             ends, 75%.
7 years...................................  Youngest child turns 18 but        $22,008      $33,924      $33,924
                                             in college: Social Security
                                             ends.
9 years...................................  Oldest child turns 23: DIC         $19,044      $30,960      $30,960
                                             for that child ends.
11 years Spouse aged 44...................  Youngest child turns 23: DIC       $16,080      $11,916      $27,996
                                             & SBP for child only ends.
----------------------------------------------------------------------------------------------------------------

                               example 4
Servicemember, O-5 over 22 years, age 44, 82nd ABN, Fort Bragg, NC

    Monthly pay and allowances
    Basic Pay, $6,997
    Imminent Danger Pay, $225
    Family Separation Allowance, $250
    Jump Pay, $150
    Basic Allowance for Housing, $1,399
    Basic Allowance for Subsistence, $175
    Total Pay and Allowances, $9,196; $110,352 (annual).
    Killed in Line of Duty in Iraq.

    Spouse, 42 years old, 2 children ages 17 and 18
    Benefits
    Lump Sum payment: Death Gratuity ($12,420), SGLI ($250,000) and 
Social Security Death Benefit ($255)--Total: $262,675
    Education Benefits
    Spouse--45 months at $803 per month--eligible for 20 years
    Children--45 months each at $803 per month--between ages of 18 and 
26
    Monthly benefits (under current laws, for first 6 months after 
servicemember's death)
    DIC for spouse $993
    DIC for child under 18 $247
    SBP $2,800 \4\
---------------------------------------------------------------------------
    \4\ SBP annuity payment is $3,793 per month but is offset by DIC 
under current law
---------------------------------------------------------------------------
    Social Security $1,494
    VA Transition Payment $250
    BAH (for Fort Bragg) $1,399
    Total monthly benefits $7,183

                                        Changes in Total Annual Benefits
                                                [In 2005 dollars]
----------------------------------------------------------------------------------------------------------------
                                                                             With DIC
                                                                            offset to      Spouse      With DIC
     Years after servicemember's death         Event Triggering Change      spouse SBP    chooses     offset to
                                                                             (current    Child only   Spouse SBP
                                                                               law)         SBP       eliminated
----------------------------------------------------------------------------------------------------------------
Immediately...............................  First 6 months (at annual          $86,196      $98,112      $98,112
                                             rate) with BAH.
6 months..................................  End of 1st 6 months (at            $69,408      $81,324      $81,324
                                             annual rate): BAH stops.
1 year....................................  Youngest child turns 18 but        $51,480      $63,396      $63,396
                                             in college: Social Security
                                             ends.
2 years...................................  Beginning of year 3: VA            $48,480      $60,396      $60,396
                                             transition pay ends.
5 years--Spouse is 47 years old...........  Youngest child turns 23: DIC       $45,516      $11,916      $57,432
                                             & SBP for youngest child
                                             ends.
----------------------------------------------------------------------------------------------------------------

    Chairman Craig. We will go to five-minute rounds and I will 
call upon my colleagues in the order in which they came to the 
Committee.
    Let me turn to both you, Tiffany and Jennifer. You have 
talked about some of your frustrations and problems that you 
have experienced with the loss of your husbands. As you look at 
the universe of the situation now, what would have helped you 
better understand the benefits available at the time of the 
notification that you received of the loss of your husband?
    Mrs. McCollum.  I think to acknowledge that, at the very 
least, the new widow is in a state of fog. So to inundate him 
or her with all this information, it won't stay. The fact that 
we are given that onslaught of information in the very first 
week, it doesn't retain and then we lose our Casualty 
Assistance Officer. Some women have moved away, so therefore 
they are out of touch even with the military community. Three 
years later, they say, ``What is going on?''
    So I think there needs to be a consistency that is present, 
and I also think that there should be one person assigned, and 
if that person is to transition--well, first of all, I think 
measures need to be taken that that person does not transition 
out of that widow's life for the first 3 years. If the active 
duty status is to remain for 3 years, then that person--the 
widow needs somebody to be able to access immediately.
    Chairman Craig. Tiffany, any additional comment on that?
    Mrs. Petty. I do feel a lot of the same way as Jennifer, 
but also at the same time, she is right. As soon as you get the 
death of your loved one, the news of the death, they just throw 
everything at you all at once. You get no time to think about 
what is next, you know. First, you are trying to think of where 
am I going to bury my loved one? How am I going to pay for all 
of it? What am I going to do with the children? What am I going 
to do from now for the next 5 or 10 years with raising the 
children?
    I think they need to take a little bit more time on talking 
to you, getting you first through the first couple of weeks, 
and then after that, sit down with you. Instead of giving you a 
little pamphlet saying this is what you are entitled to, 
sitting down and saying, okay, what are your questions? What 
would you like to know? Here is the information that I have for 
you.
    I think it is really important that they do stick with one 
person for an extended amount of time rather than switching 
from one person to another. It is understandable that they 
might assign somebody that is going to end up going overseas. 
We don't have any bad feelings towards them. That is not their 
fault or our fault. We just need to know that if somebody is 
going to be assigned to us, that they are going to stick with 
us, we are not going to end up in a big cloud of fog again. 
When we want a question answered, we would like to get it 
answered.
    Chairman Craig. I don't want to put words in your mouth, 
but I am sensing from both of you that you did not find what is 
currently provided, a single comprehensive source of all the 
programs that you are eligible for and the timely manner in 
which they might come to you and how you access them.
    Mrs. McCollum.  No, sir. If I may, a good example is, like 
I mentioned in my testimony, that I just exited that 3-year 
active duty status. As I was preparing my testimony, I kind of 
approached it as, okay, these are problems that I have already 
experienced and I want to help the women that are coming behind 
me. And then the next turn I take is, boom, I am still 
experiencing them with TRICARE saying that, oh, the rules have 
changed.
    So that is, again, the consistency, and with a concise one 
resource that we can rely on rather than--you know, I look up 
and I see all the colors on the board behind you. Truthfully, 
that is the first time I have seen it outlined that concisely. 
I didn't understand it to be the bottom line, which is 
questionable for me, because some of those things I don't know 
about, like the VA $250 a month for the 24 months. I am unaware 
of that. It is new news.
    Chairman Craig. That is what we are beginning to find out 
and that is why this hearing is being held, to try to get our 
arms around total package, total benefits, what is available, 
how is it coordinated, along with what we are looking at today 
as additional death gratuity benefits. So your testimony is 
extremely valuable to all of us as we look at this.
    Let me turn to my colleague and Ranking Member, Senator 
Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to again express my thanks to you, Mrs. Petty and 
Mrs. McCollum, for your testimonies. As you can tell, we are 
trying to get at how we can better serve you and others in 
getting the proper information to you in a timely manner. You 
mentioned during the first 2 weeks it is important for you to 
get the kind of financial and benefit information that is 
needed to help you and your families.
    We also are looking at the Department of Defense and VA 
working together. DoD works with servicemembers while they are 
in active service and VA after they leave the service. We want 
this transition to be seamless so there will be a continuous 
kind of counseling and service. So the question that was asked 
by the Chairman is really helpful and I want to thank you for 
your testimony.
    I want to thank the Gold Star Wives for their advocacy and 
support of thousands of military spouses over the years who 
have lost their husbands. Mrs. Smith, your written testimony 
mentions letters of frustration from widows about the present 
system of casualty assistance. What are some of the complaints? 
In your opinion, what can be done to fix the casualty 
assistance system?
    Mrs. Smith.  I will mention a letter I got last night at 
the last minute because it is fresh in my memory. The Casualty 
Assistance Officer did not tell the young widow--apparently, 
she has the Service Family Members, SGLI. She had 120 days to 
convert. She wasn't informed, didn't convert, and now she has 
no life insurance for her child. There is a financial 
consequence where she relied on information from the Government 
and the Government did not--I don't want that to reflect on the 
Casualty Assistance Officer, either, because he probably wasn't 
told. I am finding that the Casualty Assistance Officers are 
often young men who have no--I didn't have any experience with 
affairs--I mean, my husband passed away. That was a little 
simpler. And then when my mother passed away, it was a whole 
different world in the past few years.
    So that is one thing, where she had serious financial 
consequences and I hope we can somehow maybe find a way to 
waiver that. I have only had the one letter.
    But I think that the program for the Armed Forces Services 
Corporation is unique and it would provide accurate 
information, updated. I belong to it and I can rely on them to 
follow my benefit changes.
    Senator Akaka. Thank you.
    Mrs. Moakler, I have long been a proponent of financial 
literacy. I was interested in your recommendation regarding 
financial counseling. Is this an area that you have heard a lot 
about in terms of need from surviving spouses?
    Mrs. Moakler. Anecdotally, yes, we have. Surviving spouses 
are vulnerable at that time, right after the loss of a loved 
one, and the spouse receives a large lump-sum payment right 
away. They may be swayed by the advice of well-meaning but ill-
informed relatives or other advisors who may not have their 
best interests at heart.
    An unbiased counseling service is objective with no 
products to sell. At this time, survivors who receive SGLI can 
take advantage of free professional financial counseling for 1 
year through the VA Beneficiary Financial Counseling Service. 
We applaud this program, but we have heard that the usage is 
low and would like to see it better publicized so that 
survivors can avail themselves of this service. And we also 
believe that we might want to extend that counseling for 
several years.
    Senator Akaka. Thank you.
    Mrs. Bonnie Carroll, many in our audience and in Congress 
are not familiar with your program. Can you tell us which 
services are most utilized by surviving spouses and their 
families, and which of these services do you think the 
Government should be providing but is not currently providing?
    Mrs. Carroll. Thank you. TAPS is a wonderful national peer 
support program where families can come together and help each 
other find hope and healing, but I would like to just really 
stress to you the importance of this program offered by the 
Armed Forces Services Corporation.
    TAPS was present in the Pentagon Family Assistance Center 
on 9/11 and it was the Armed Forces Services Corporation model. 
If you could turn that board around, someone right there, this 
gives you an example of exactly what Jennifer and Tiffany are 
talking about wanting so desperately, a single-page printout 
that would be provided on the day, even on the day of the 
death, that would show exactly the benefits from across all of 
the different agencies and sources. This is a tremendous tool. 
It is available right now by membership. I pay for my 
membership in this program so that my survivor benefits are 
monitored on a regular basis and any changes that occur, I am 
immediately made aware of. This is absolutely invaluable.
    When I was out in Fort Lewis at the request of the 
commanding general, working with the surviving families there 
after soldiers were killed, one of the Casualty Officers 
helping two of the families was doing the very best that he 
could, but really struggling to put it all together. We got him 
on the phone with the Armed Forces Services folks. Within 30 
minutes on Christmas Day, he had copies of this for each of 
their families and this man literally broke down in tears, he 
was so relieved to have this in one snapshot.
    They do a beautiful job. My colleagues at DoD and VA have 
done extraordinary things, as well. But for the Casualty 
Officer to go to the home of the family with this printout, 
with accurate, up-to-date benefits information, would be 
absolutely extraordinary and just so much appreciated. I can't 
emphasize that enough. Thank you.
    Senator Akaka. Thank you very much, Mrs. Carroll.
    Are all of you aware that VA provides free professional 
financial planning services for recipients of SGLI? Were you 
offered financial counseling to help you plan your income and 
expenses? I see you all nodding no. Well, thank you. That is my 
answer.
    Thank you very much, Mr. Chairman.
    Chairman Craig. Thank you very much.
    Now let us turn to Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    I think it is important that one thing I want to do, I 
understand that there is confusion in compensation issues and I 
don't want to add to the confusion by over-promising. I have 
actually been a Casualty Assistance Officer at one time and it 
was confusing and it was hard. Looking back, I hope I didn't 
screw up.
    Are most of your Casualty Assistance Officers active duty 
people? Then I think it is important not to over-promise, 
because people are going to go PCS. People are going to go to 
professional military education programs where they are gone 
for 6 months in a year.
    Mr. Chairman, I have thought about this a lot. I think it 
is probably time for us to look at making this job probably a 
civilian GS person, somebody----
    [Applause.]
    Senator Graham. That is somebody who wants the job.
    [Laughter.]
    Senator Graham. I think it would provide continuity. But we 
do not need to detach the military from the grieving process. 
So what I would look at as a proposal for the Committee is to 
make this a GS function, so you will have continuity, somebody 
who is trained, and make sure that we have a casualty team. 
Have any of you been approached by the JAG officers or used any 
of their legal services upon death? What about the chaplain?
    Mrs. McCollum.  I was approached in the commissary about 2 
years after my husband died by the chaplain.
    [Laughter.]
    Senator Graham. Anything short of that?
    [Laughter.]
    Senator Graham. So what I think we might look at, Mr. 
Chairman, is having a team to assist a GS-type person, a 
military team, someone from the line who knows what your 
spouses did and can tell you how well they did it, assigned 
chaplains who understand military families better than any 
other group of people. Have the JAGs involved, somebody you can 
go to when these legal questions pop up, social actions people 
to help you with the children.
    One thing I have learned from listening to this testimony 
is that the confusion is going to be chronic if you rely on one 
person who is an active duty military person who has their own 
career.
    Now, when it comes to these offsets, I thought I understood 
this pretty well until I came here. It is a very complicated 
formula that we have and there are budgetary impacts that I 
think need to be addressed.
    I have been a big advocate of providing TRICARE for Guard 
and Reserve members so they would have continuity of health 
care, because the Guard and Reserve families do not have access 
to military health care unless they are activated. So put 
yourself in their shoes. You are in this health care network in 
the civilian community, if you have it at all. You are called 
to active duty. You change your doctors and your hospitals. You 
go back into the civilian world and you bounce around from one 
set of doctors and hospitals to another. It is just not good 
for families. It does not make you ready for the fight. TRICARE 
is a growing program that needs to be dealt with more 
effectively, but I think it is a good program.
    Jennifer, when you were told about TRICARE eligibility, who 
told you that, what the rules were?
    Mrs. McCollum.  I was never told the rules. My father is a 
retired Army officer and I witnessed the difficulties that my 
family had as retired status, trying to process claims. That 
observation had a large part in my decision on where to move in 
that I wanted to stay near a military base to continue to 
receive services at that base after my husband--3 years after 
the death.
    The initial communication with TRICARE started when I first 
relocated. I had approximately a year left on active duty 
status and I went into the TRICARE office----
    Senator Graham. And you get 3 years, right?
    Mrs. McCollum.  That is correct.
    Senator Graham. You get 3 years, and after that, you pay a 
premium like a retiree would pay, is that correct?
    Mrs. McCollum.  That is correct. I was not informed that, 
although it didn't surprise me when I learned about it.
    What I thought is that basically what retired status meant 
was that I was going to move to the back of the line, that my 
priority wasn't as high as it was with an active duty status.
    Senator Graham. Right.
    Mrs. McCollum.  So when I went to the TRICARE office to 
transfer, this TRICARE representative basically--ultimately 
just didn't know the facts, so I had to share them with her and 
she researched them and, in fact, okay, I had a year left.
    Well, then I got a phone call, as the third anniversary 
came about, I got a phone call from the other pilot that was in 
the plane--his wife, his widow, and she said that she had a 
problem and that abruptly she was told that she didn't have 
coverage to go to the military base anymore and didn't really 
know what to do. So I called the 1-800 number and my first 
wonderful experience with a TRICARE representative, she helped 
me guide through it. I will be very honest with you. It shook 
me to the core and I was a heap of tears. She was very patient 
with me and explained things to the best of her knowledge.
    It was at that point she told me I was ineligible to 
receive care at the local military base and that I was also----
    Senator Graham. For what reason?
    Mrs. McCollum.  As of August 26 of 2004, which was after I 
moved to Jacksonville, they were no longer--they, being the 
military treatment facility--it was no longer accepting anyone 
other than active duty. I had been able to establish a 
relationship with a family practice----
    Senator Graham. Was that driven by just demand problems?
    Mrs. McCollum.  I have no idea.
    Senator Graham. Okay.
    Mrs. McCollum.  I had participated in the family practice 
program there at the hospital and had been seeing the same 
doctor, for the exception of referrals to others, so I was very 
comfortable working in that system. I was really hoping to kind 
of be grandfathered in, so to speak, once I hit the retirement 
status.
    So then when I found out the information that I wasn't able 
to receive care and then I was told that I was also downgraded 
from TRICARE Prime to TRICARE Standard and that I still have 
yet to fully grasp what that means and to make a decision----
    Senator Graham. Are you paying a premium now?
    Mrs. McCollum.  I have until the 20th of the month, I have 
been told, to enroll, and then it doesn't kick in for another, 
I have been told----
    Senator Graham. Well, don't let that date pass.
    Mrs. McCollum.  Okay. The other thing was that I called the 
local TRICARE office. It took a few days to get in touch with 
them and then they said that--the woman I spoke with said, 
well, your premium is actually a little over $4,000 a year, and 
I mention that to highlight just the lack of knowledge.
    Senator Graham. That is not even remotely true.
    Mrs. McCollum.  No. So, of course, that sent me into an 
initial, what? And she said----
    Senator Graham. That is ridiculous.
    Mrs. McCollum.  When I asked her about the retired status, 
she confirmed----
    Senator Graham. Mr. Chairman, I know I have gone over. One 
last thing. They mentioned small things go a long way to 
families. Space available flights would be a huge benefit, and 
they are very easily offered. In other words, if there is a 
flight leaving somewhere, I could go as a Guard or Reservist. I 
could go as a retired member to travel on that military 
airplane. I think it would be very easy to fix and change the 
eligibility to allow these folks to travel, and that would mean 
a lot, wouldn't it? It would allow you to get around the 
country and see your family?
    Mrs. McCollum.  If I may highlight on that, it would allow 
us to travel the country to see our family, allow us to travel 
the country to see our husbands' families and also the very 
close military members that we have become enmeshed with who 
have also suffered the loss of our loved one.
    Senator Graham. Mr. Chairman, you are doing a great job 
with this hearing. I think we are going to do some good for 
these families. Thank you very much.
    Chairman Craig. Senator Graham, thank you, and thank you 
for those cogent observations and questions that you have 
brought.
    Now let me turn to Senator Obama.
    Senator.
    Senator Obama. Thank you very much, Mr. Chairman.
    Thanks again to all of you for your testimony. We are very 
grateful for it.
    Senator Graham's questions and observations were so cogent 
that I don't have that many left.
    [Laughter.]
    Senator Obama. But I think what I would like to underscore 
and just confirm with all of you is that we really have two 
issues here. One is the manner in which information is provided 
to surviving families. I think, as I was listening, I shared 
Senator Graham's basic view that we have to have a corps of 
people who are full-time responsible for working with surviving 
families on the benefits issue. It sounds like you have got 
some terrific active duty people who are doing their absolute 
very best, but it is not their primary job, which means that 
their training is going to be limited. It means that their 
availability is going to be sporadic and at any moment, they 
may end up being deployed overseas or in some other area that 
does not allow them to interact with you.
    So if I am correct about that, and it seems that people are 
nodding, it seems to me that Senator Graham's basic 
recommendation that while we still have active duty personnel 
involved in the grieving process, it sounds that Jennifer and 
Tiffany both felt that that was very helpful, just having 
people who knew your husbands and had worked with them and that 
those people who were on active duty should participate in that 
process. But when it comes to just sorting through the 
mechanics of putting your lives back together again, you have 
got to have somebody in there who knows all the information and 
can gather it for you in a timely, patient way, and also at 
your own pace, because part of the problem is that you should 
not be in a situation--everybody is going to adjust differently 
to these things and there may just be weeks, I am assuming, 
where the last thing you want to do is sit there and think 
about health care insurance.
    So it seems to me that there is a second point that was 
raised by Mrs. Smith and Mrs. Moakler and Mrs. Carroll, as 
well, and that is it appears that there is a lack of 
consistency in terms of the actual benefits that are available, 
that different families in different situations seem to be 
getting different information about what is available to them, 
whether they are technically killed in the line of duty, were 
they not, how is marriage or remarriage handled, and that 
involves a whole host of technical questions. Like any large 
Government system, it can get complicated.
    But it does seem to me that we have to be consistent and 
fair to all families whose spouses have offered themselves up 
for service, and that some of the distinctions that we are 
making between these families or the status of those who have 
fallen doesn't make sense. Is that an accurate assessment of 
some of the concerns that many of you have?
    I would just suggest and urge that we examine that 
carefully and that we then try to level up and bring everybody 
up to a certain standard and not try to pinch pennies on this. 
I recognize that we are in a budgetary constraint situation, 
but it strikes me that the levels of benefits that we are 
offering to these families is not overly generous at the 
moment. We can do better. I know there is a bipartisan 
commitment to do better. I am looking forward to being a part 
of doing better.
    Chairman Craig. Thank you very much, Senator Obama.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman, and I would echo 
many of those same sentiments and again say thank you to you. I 
think this is a very appropriate topic for this hearing at a 
very appropriate time, and that is whether or not we are 
fulfilling Lincoln's charge to care for him who shall have 
borne the battle, and for his widow and his orphan.
    It seems to me, too, from listening, and thank you so much 
for your very insightful and very poignant testimony. It means 
a lot for us to hear your perspective from a first-hand 
experience as well as the service organizations represented. 
Thank you all for your sacrifice and for the tragedy that you 
have had to endure and for the adversity that has come since 
that time.
    I guess the point of all this is to figure out how do we 
deal not only with the quality of the benefits that are 
available out there, and I am looking at the array of things, 
too, and thinking I had until this point not seen it laid out 
like that. It seems to me that, one, there is the substance of 
those benefits and making sure that we don't have programs 
where these offsets are disqualifying or excluding eligibility 
for another benefit, but secondly, just the complexity of it 
and how we go about dealing with that.
    So I would hope that, Mr. Chairman, as this process moves 
forward that we would be able to find some ways to streamline 
and make more understandable these programs and these benefits 
and also to take a hard look at the substance and the quality 
of those benefits and are we really providing the assistance to 
these people and spouses and family members and dependents of 
those who have given their lives in the line of duty. There is 
no higher calling, and the least we can do for the brave people 
who have fallen defending freedom in this country is to see 
that their spouses and dependents and loved ones are cared for 
in an appropriate way.
    I have a couple of just very brief questions as follow-up.
    Tiffany, you had mentioned in your testimony some questions 
about being able to know the circumstances surrounding your 
husband's death. I guess I am curious to know, and this would 
apply, as well, to Jennifer, the questions that were asked, did 
you feel like there was information that was being withheld 
from you? Did you feel like you were being given straight and 
honest and direct answers to your questions? I certainly would 
understand the need for closure and you would want to know the 
answers to some of these questions. Did you feel like that 
information was forthcoming? Was there information that was 
withheld by the Casualty Assistance Officer?
    Mrs. Petty. Well, I felt as though the Casualty Assistance 
Officer was trying to give me what information--what little 
information he had to me without trying to hurt my feelings. I 
wanted to know that my husband was not alone, that really, I 
didn't want to know that he suffered. I wanted to know that he 
wasn't alone and that he--just everything surrounding his 
death, as much as I could know to know that he was okay.
    I was told that he was killed almost instantly. But then 
later I found out from the soldiers he was with that that was 
not at all true. What happened was he was shot once and he 
fought for his life for two hours and he was awake and he was 
able to communicate with the soldiers that he was with. He did 
squeeze their hand. He did moan because of the pain. And so 
they were able to get him out of the pain.
    He did fight. I needed to know that he wasn't alone 
fighting, and I was pretty upset that I was told that--what 
felt like a lie, that he was killed instantly when in all 
actuality he was not. He did fight, and I needed to know that.
    Senator Thune. Were they in your questions and response?
    Mrs. McCollum.  I wanted to say thank you for acknowledging 
that that is part of the survivor benefit, is that we do have 
questions and it goes beyond financially what is tomorrow going 
to say in my checking account. It is deeper than that.
    I had a difficult time getting information about basically 
personal effects. That was something that it took me a year, 
and then I am the one that had to end up researching it. I 
can't tell you why somebody else couldn't do that for me. I had 
to contact a friend who also was Air Force, obviously outside 
of the Marine Corps, to contact Dover Air Force Base Mortuary 
Services myself, and was able to talk with a mortician who gave 
me more detail than I had previously. It didn't answer all the 
questions I had, but it certainly was a step forward to 
closure.
    As far as the questions that we may have had about 
benefits, I am not sure that there was anything being withheld. 
I think that, if anything, there was a resistance in that they 
didn't really know all this information. That is tough for a 
Marine Corps officer to say, I don't know.
    Senator Thune. I would say, Mr. Chairman, it seems to me 
that that sort of information would be very pertinent in a 
situation where you are a survivor, and I don't know what the 
practice of the military is, but I would think from these 
ladies' standpoint, I would certainly hope that the Casualty 
Assistance Officer is giving them all the information that they 
request with respect to the very issues and the questions that 
you raise in your testimony. I think that is important from a 
closure standpoint.
    My time is expired, too, but I would also appreciate, I 
guess, knowing for the record from these ladies about whether 
or not when it comes to the explanation of the array of 
benefits and things that are out there, would more visits--is 
it the amount of time that was spent? Was it just not having 
the knowledge or dealing with the way that the benefits were 
explained, the quality of the information, quality of the 
explanation, that sort of thing? If there is additional 
information that you could shed on that, that would be very 
useful.
    Mrs. McCollum.  I think Senator Obama had a very good point 
in that we all go through it differently. I mean, it is the 
same road. It is the same uncharted territory. But there is a 
different time line for each one of us and we all have initial 
reactions. I know I stayed in the local area for 2 years. 
Another widow whose husband died alongside mine left 
immediately, and 3 years later, she is surfacing, if I may, to 
ask questions--what is survivor benefit plan and how come I am 
not getting it? That shouldn't be happening. Granted, she moved 
away from the military installation so she didn't have a direct 
point of contact, but she didn't even have a phone number.
    We learned so much through the widows, other widows that we 
talked with. Oh, by the way, have you heard about this? Hey, I 
just--my neighbor told me that she heard a news report that, 
for example, the Veterans Administration was giving $250 a 
month for the next 24 months if you have a child. Do we want to 
hear it through neighbors? No.
    Senator Thune. Right.
    Mrs. McCollum.  We kind of want to be the first person to 
know what our bank account is going to look like, I guess.
    Senator Thune. Thank you.
    Thank you, Mr. Chairman.
    Chairman Craig. Senator, thank you.
    Now let me turn to Senator Ken Salazar, who has joined us. 
Senator, welcome.

                STATEMENT OF HON. KEN SALAZAR, 
                   U.S. SENATOR FROM COLORADO

    Senator Salazar. Thank you very much, Chairman Craig and 
Ranking Member Akaka. I do think that we are in some very 
important times in our country where we have an opportunity to 
fix many of the issues that you have been talking about. I 
commend you, Chairman Craig and Senator Akaka, for helping us 
focus on these veterans' issues.
    I have a longer statement as an opening statement, but 
without objection, I would just submit that for the record.
    Chairman Craig. Without objection, it will become a full 
part of the record. Thank you, Senator.
    Senator Salazar. Thank you, Senator.
    [The prepared statement of Senator Salazar follows:]
                Prepared Statement of Hon. Ken Salazar, 
                       U.S. Senator from Colorado
    Thank you, Mr. Chairman, for calling this hearing on such an 
important issue. Thanks to you, Senator Akaka, and others on this 
Committee who have tirelessly brought the challenges that military 
survivors face to the forefront. Because of your work, the aid that 
military survivors receive have been increased incrementally over the 
years. And thanks to your work, and the work of the family members we 
will hear from today, we are now in the position to significantly 
increase the aid that the wives, husbands, and children of fallen 
servicemembers receive.
    This week, Colorado laid to rest one of our own. 27-year-old Pfc. 
George Geer, who grew up in the Dolores and Cortez area, was killed 
Jan. 17 by a car bomb in Ar Ramadi, Iraq. Pfc. Geer is one of the 
nearly 1,500 brave men and women who have died in Iraq and in Operation 
Enduring Freedom.
    To us, he is a reminder of the price of freedom, but to his family, 
his death creates a huge hole that cannot ever be filled. When a 
soldier dies, his or her family is left behind to face not only their 
grief, but also major financial hurdles.
    No amount of money can replace the loss of a loved one, but 
survivor aid can help families overcome the economic difficulties they 
face. For far too long, we have shortchanged not only our heroes in 
uniform, but also the heroes who wait for them back home.
    Now we have an historic opportunity to raise the so-called death 
gratuity from $12,420 to $100,000 and to provide an extra $150,000 in 
life insurance payouts. We also have an opportunity to allow full 
concurrent receipt of the DoD's Survivor Benefit Plan and the VA's 
Dependency & Indemnity Compensation. We also have the opportunity to 
improve the help that military survivors get in navigating the 
bureaucracies of the VA and the DoD to get the benefits they deserve. 
And finally we have the opportunity to protect military families from 
predatory life insurance companies. All of these reforms are needed, 
and all are within our reach this year.
    As we prepare to increase survivor benefits, we have to be careful 
not to foster distinctions between combat zone deaths and other deaths 
The Pentagon has long treated all deaths the same. That is the right 
approach. As the panelists and family members will testify, no matter 
where it happens, a military death impacts families the same way. I 
hope that we can work together to make sure that we increase survivor 
benefits, and increase them for all members of the military, no matter 
where they serve.
    While there are some important differences between the proposals to 
achieve these goals, I am encouraged by the tremendous amount of 
bipartisan cooperation I have seen. I am proud to have cosponsored two 
bills to improve military survivor benefits, including one with my good 
friend Senator Chuck Hagel from Nebraska. Everyone on this Committee 
agrees that we need to do more for our veterans. I am confident that we 
can.
    I look forward to hearing from the family members, activists and 
administration officials today about the challenges they face and their 
ideas about what we can do to do right by our military families.

    Senator Salazar. I do have two questions and I will just 
direct them to whoever from the panel wants to respond to the 
two questions. One of them is on peer assistance and peer group 
counseling, and second of all, the major policy debate in terms 
of some of the bills that I have seen has to do with whether or 
not the benefits are paid to those who die in combat zones 
versus those who do not die in combat zones.
    Let me ask on the first question, peer assistance 
counseling and other circumstances where I have worked with 
victims' groups, it seems to me that that is a significant part 
of the grieving process and helping people get along the way. 
My question to all of you, what is it that the VA, the 
Department of Defense, we can do to help in those efforts, and 
if you can be specific on that, I would appreciate it.
    And then, secondly, your comments on the question of 
whether or not the limitation that has been put forward in the 
administration's proposal with respect to veterans, the 
survivor benefit only being limited to those who die in combat 
zones. If you would comment on those two questions, I really 
would appreciate it.
    Mrs. Carroll. In regard to peer support, TAPS is a national 
peer support program for all those who have been affected by 
the death of a loved one serving in the Armed Forces. We not 
only partner, for example, widows with other widows with 
similar family dynamics, but also children with children and 
siblings, brothers talking to brothers, and it has been 
tremendously powerful.
    After the Mosul dining hall attack when I was, as I 
mentioned, out at Fort Lewis, one of the surviving widows, they 
had a 12-year-old child on that day. We were able to get that 
12-year-old girl on the phone with another surviving 12-year-
old girl whose loss was a few years out, and together, they 
could talk about what it was like to go back to school, what it 
would be like. It was very healing. So that is in place through 
our veterans' service organization.
    The Department of Veterans Affairs Readjustment Counseling 
Service has a similar model in the veterans' center program in 
that their therapists are not only counselors, they are also, 
for the most part, combat veterans themselves. When they speak 
to a family, they speak as a therapist, but they also speak for 
the military experience. And speaking with that peer 
relationship has been so healing and so validating for our 
families.
    Senator Salazar. Bonnie, let me just ask, is there anything 
that we could do to improve the system or is it working the way 
that it ought to work?
    Mrs. Carroll. It is absolutely working beautifully. I would 
really encourage you to support the veterans' center program 
and ensure that they have the counselors that they need. It is 
working well. They have not been overtaxed at the current rate 
and I just thank you so much for your support of that important 
program. It has been tremendously successful.
    Mrs. McCollum. And again, the important part of that is 
getting the word out to the surviving families that that is 
available to them. That is an important part of the package.
    In answer to your second question, while the servicemember 
is on active duty, there are distinctions in pay. If they are 
in a combat zone, they might get imminent danger pay or jump 
pay or bonuses for special skill areas. However, when a 
servicemember is killed on active duty, the compensation that 
the families receive should not be differentiated because of 
where the death occurs. Through their oath, each 
servicemember's commitment is the same. The survivor benefit 
package should not create inequities by awarding different 
benefits to families who lose a servicemember in a hostile zone 
versus those who lose their loved one in a training mission 
preparing for service in a hostile zone. To the family, the 
loss is the same.
    Senator Salazar. Are all of you in agreement on that point?
    Mrs. Smith.  All of our families are the same and we have 
concerns about some of the proposed legislation that groups 
surviving families by definition of hostile fire instead of 
dependent and non-dependent survivors. So we would be providing 
money with some of the legislation that would be going to 
survivors who were previously not dependent on that soldier, 
and that is fine to do that, but at the same time, don't leave 
out the families who were not in the hostile fire area whose 
husbands, maybe like Jennifer's, died in a mission that didn't 
happen to be in that location. But all of our husbands are 
supposed to be ready for duty anywhere, any place, and any 
time, and I think that should be remembered.
    Senator Salazar. Thank you very much.
    Chairman Craig. Ken, thank you very much.
    Now let me turn to Senator Burr. Richard.
    Senator Burr. Thank you, Mr. Chairman, and once again to 
each of you, our sincere gratitude for the sacrifices.
    I am curious, Tiffany and Jennifer, is there a process when 
you enter the military where there is an educational package or 
program for the entire family on the host of benefits? I sort 
of sense the reluctance of having something up front that would 
talk about a process if there were a death, but is there 
something that encompasses the whole world that is available 
for the military family?
    Mrs. Petty. Personally, I didn't get any education 
whatsoever. When we got into the Army, my husband was given a 
few papers and he was told, sign this and when you die your 
wife will get some money. We did not know much more than that. 
It would be very helpful if somebody would sit down with the 
soldiers and their families before they are deployed or sent 
out on any kind of mission or training, sit down with them and 
tell them what is available to them if something does happen. 
It is important to know that. I know it is hard to think about 
that kind of situation, but it is important to know it.
    Mrs. McCollum.  As far as the Marine Corps goes, I know 
that there is a LINKS program, and I am sorry, I don't remember 
what that acronym stands for, but I believe it is for families 
adjusting to the military life. I never attended a LINKS 
seminar. If they had them, it was during the weekday while I 
was working.
    Secondary to that, we were required to attend a deployment 
briefing as the families and we talked specifically information 
on the deployment, when our husbands were expected to leave, 
resources available to us such as the chaplain's services as 
the member was deployed prior to their return. The interesting 
thing to highlight here is that I was aware of the chaplain 
when he came to my office to tell me about my husband's death 
because I had seen him at the pre-deployment brief, that I had 
familiarity with him there.
    Senator Burr. Jennifer, you had the instance of seeking 
medical care and, I think, at that time being notified that 
your insurance was no longer recognized as active duty.
    Mrs. McCollum.  Correct.
    Senator Burr. I take for granted that there was a 
clarification that somebody came to, they understood that they 
had made a mistake. Am I correct on that?
    Mrs. McCollum.  You are.
    Senator Burr. Was that just misinformation on the insurance 
side?
    Mrs. McCollum.  On the representative, the lady who was 
showing me what paperwork to fill out to transfer from San 
Diego, California, to Jacksonville, Florida.
    Senator Burr. Had you not questioned it, what would have 
happened?
    Mrs. McCollum.  I would have been enrolled into the retired 
program.
    Senator Burr. How many people do you think that happens to, 
who enrolled in the retired program?
    Mrs. McCollum.  Unfortunately, countless.
    Senator Burr. Let me ask both of you for your comments as 
it relates to outside of the Casualty Assistance Officers that 
are assigned to you and may be transitioned. Is there any type 
of redundancy in the information that they are there to provide 
for you via phone, the Internet, where you could go and if they 
didn't have the answer or they weren't available, 24 hours a 
day as these questions came up to you, that you could go and 
search out the information about benefits or where you turn or 
who you call?
    Mrs. McCollum.  Senator Burr, I wish I could use the word 
redundancy. That would be a welcome word.
    [Laughter.]
    Mrs. McCollum.  It is more of desperately seeking. When you 
don't know where to look or who to ask, it is not on your radar 
screen. If you are a young woman who has a little baby, you are 
just trying to make ends meet, and trying to figure out heads 
or tails of benefits and what they say you are owed, and then 
you get resistance such as I received from TRICARE and you 
don't have the energy to fight back, you won't. You kind of 
roll over and roll with the punches as if you have been dealt 
the biggest fell swoop of your life.
    Senator Burr. Tiffany, anything to add?
    Mrs. Petty. I feel the same as Jennifer. If there was a way 
that we could really get the answers that we needed without 
having to really search them out, that would just be a godsend. 
If we could get online and type in ``help'' and get an answer, 
that would help, but that is not there. That is not possible. 
We do have to search. We do have to make phone call after phone 
call after phone call to find one person that could maybe give 
us a part of what answer we are looking for.
    Senator Burr. Thank you.
    Thank you, Mr. Chairman.
    Chairman Craig. Senator, thank you very much.
    Senator Isakson, any comment and/or questions?
    Senator Isakson. Thank you, Mr. Chairman. I will make a 
comment. I apologize to you and the Ranking Member and 
especially to the ladies testifying today for being late, but I 
had to be on the floor. I thank you, as the other Senators 
have, for your service, for your sacrifice for our country, and 
I thank you for being here today.
    I could in no way put myself in your place, but having lost 
two very close friends, one in combat in Vietnam and another in 
a non-combat-related but military training-related issue, I 
want to echo the comments of Mrs. Smith and the others in terms 
of the seamless treatment of our veterans.
    I think also I want to say, Mr. Chairman, that I really 
appreciate the initiative that you are taking, because in just 
the testimony I have heard, and having read part of Tiffany's 
statement as I was listening out of the other ear to the 
questions, seamless is the word. Also we need to provide 
information and access to information on behalf of these widows 
and family members. Knowledge is a powerful thing, and for a 
young mother in search of the benefits that are rightly hers, 
communication can make a world of difference, both in the 
family on that day as well as in their feelings about the way 
in which they are treated.
    So I look forward to working with you on that very end and 
I thank you again for your service and your commitment and your 
willingness to be here today, and I yield back.
    Chairman Craig. Senator, thank you.
    We have a second panel, but my colleague here has an 
additional question and we will go to Senator Akaka before we 
get to our next panel.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to ask a question to Tiffany and Jennifer as a 
follow-up. Can I ask, how long did it take for you to receive 
your SGLI payment, that is the Servicemembers' Group Life 
Insurance?
    Mrs. Petty. It was only a few months for me. I do have one 
military member that is a brigadier general and he was able to 
help getting some of the things that I needed and that was one 
of them.
    Mrs. McCollum. There was a little more complexity in my 
situation. I wonder how much of it had to do with the fact that 
my husband was one of the first killed in Operation Enduring 
Freedom. So it was kind of a system that really needed, I 
guess, to get on par with the fact that we were at war.
    My husband had filled out a request to have the lump sum 
distributed, but it was in his desk drawer and that needed to 
be resubmitted. So I think for my situation, it was a little 
bit more stagnant than other cases. It wasn't too terribly 
long.
    Senator Akaka. Thank you
    Mr. Chairman, My comment is, after hearing this panel, I 
think it is critical that we also focus on challenges faced by 
surviving spouses of members of the National Guard and 
Reservists as we continue to examine how to improve casualty 
assistance and information as we are trying to do here. Thank 
you, Mr. Chairman.
    Chairman Craig. Thank you.
    To all of you, thank you very, very much. You have been an 
extremely valuable panel, bringing out a variety of concerns 
and recognitions of problems that exist within the current 
system that we will tackle as a Committee and as a Congress to 
resolve and work in a much more coordinated fashion. So thank 
you all very much for being here. We will retain you as a 
valuable resource. How is that? Thank you all.
    [Applause.]
    Chairman Craig. Now let me call our second panel forward, 
please. Thank you very much, panelists. I will introduce our 
primary presenters and they can certainly introduce their 
colleagues who have joined with them if they wish.
    The Honorable Daniel Cooper, Under Secretary of Benefits, 
Department of Veterans Affairs; Mr. Mark Ward, Senior Policy 
Advisor, Casualty, Mortuary and Funeral Affairs Honors, Office 
of the Deputy Under Secretary of Defense; and Frederick 
Streckewald, Assistant Deputy Commissioner for Disability and 
Income Security Programs, Social Security Administration.
    Dan, we will start with you first, please.

    STATEMENT OF HON. DANIEL L. COOPER, UNDER SECRETARY FOR 
         BENEFITS, VETERANS' BENEFITS ADMINISTRATION, 
DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY ROBERT J. EPLEY, 
    ASSOCIATE DEPUTY UNDER SECRETARY FOR POLICY AND PROGRAM 
   MANAGEMENT, DEPARTMENT OF VETERANS AFFAIRS; AND THOMAS M. 
                           LASTOWKA, 
       DIRECTOR, VA REGIONAL OFFICE AND INSURANCE CENTER

    Mr. Cooper. Thank you, Mr. Chairman. Mr. Chairman and 
Members of the Committee, thank you for the opportunity to 
testify today on the very important issue of survivors' 
benefits. Providing benefits to surviving family members of our 
veterans is one of the core responsibilities of the Department 
of Veterans Affairs.
    I am joined this morning by Mr. Robert Epley, our Assistant 
Deputy Under Secretary for Policy and Programs, and Mr. Tom 
Lastowka, the Director of our Insurance Program.
    Mr. Chairman, I respectfully request that my full statement 
be entered into the record.
    Chairman Craig. Without objection, it will be. Thank you.
    Mr. Cooper. I would like to start out for a second, sir, to 
say that I was extremely moved this morning by the first panel, 
and it is in that sense, then, that I go down the various 
benefits that we administer in the VA.
    The VA provides a wide range of benefits, such as for a 
surviving spouse, dependent children, and dependent parents of 
deceased service personnel and veterans. The primary benefits 
that we provide include Dependency and Indemnity Compensation, 
or DIC, death pension, dependents' education assistance, 
insurance benefits and financial counseling, health care 
benefits under CHAMPVA, and several lesser known but 
individually meaningful benefits. In addition, we have 
experienced counselors who stand ready to assist survivors in 
filing claims and helping them understand the types of benefits 
to which they may be entitled, particularly from the VA.
    I would first like to briefly summarize several of these 
benefits for you and then discuss our outreach program.
    One of the VA's largest survivor programs is Dependency and 
Indemnity Compensation, or DIC. DIC pays a monthly benefit to 
the surviving spouse, dependent children, and/or dependent 
parents of a veteran who died in service or who died as a 
result of a service-related disability. Surviving spouses of 
veterans receive $993 a month, with additional amounts for 
dependent children. Last session, Congress enacted legislation 
that provides for a transitional benefit of $250 per month for 
2 years, payable to a surviving spouse who has a minor child or 
children. The VA also pays DIC to parents of deceased veterans, 
dependent upon their income.
    Eligibility for death pension is based on financial need. 
The general requirement for this benefit is that the veteran 
has served at least 90 days on active duty and with at least 
one of those days during a period of war, and VA currently pays 
this benefit to survivors of 200,000 veterans.
    The dependents' educational assistance, these benefits are 
available for surviving spouses and children. The survivor may 
use these benefits to pay for college, business, technical, or 
vocational schooling, or for apprenticeships and on-the-job 
training. Currently, VA pays $803 a month for up to 45 months 
of full-time education or training, with lesser amounts for 
part-time training. While a surviving spouse ordinarily must 
use this benefit within 10 years from the date of the veterans' 
death, recent legislation granted an extension for usage up to 
20 years for the surviving spouse of an individual who died 
while on active duty.
    In Insurance, Servicemen's Group Life Insurance, or SGLI, 
provides low-cost term insurance protection to servicemembers. 
For this, we use a group policy purchased by VA from Prudential 
Life Insurance Company of America. Basic SGLI coverage is 
automatically provided to those members on active duty, as well 
as for Reservists and National Guard. However, a serviceman or 
woman can elect to have less insurance or none at all. Costs of 
the program are covered by premiums deducted from the insured 
servicemember's pay. The participation rate at the end of the 
2004 policy year was 98 percent for active duty, including 
those Reservists called to active duty, and 93 percent for the 
Ready Reserve.
    In 1965, the maximum SGLI coverage started at $10,000. It 
has increased seven times over the years and it now stands at 
$250,000. Similarly, the premiums have steadily declined over 
the years. In 1965, the premium rate was 20 cents per $1,000 of 
coverage. It has been reduced eight times, and today, it is 6.5 
cents for each $1,000 of coverage.
    The Veterans' Survivors Benefits Improvement Act of 2001 
extended life insurance coverage to families of SGLI members. 
This new coverage is available to spouses of active duty 
servicemembers and members of the Ready Reserve. Up to $100,000 
of coverage can be purchased by the member for his or her 
spouse, and the maximum coverage for a child is $10,000. I 
might add, the coverage for a child is free, while the coverage 
for a spouse is age dependent.
    Financial counseling--beneficiary financial counseling 
services are one-on-one, free, objective financial counseling 
for SGLI beneficiaries. It includes estate planning, investment 
planning, budgeting, and income tax planning. This counseling 
was started in 1999 as an experiment. It has now been adopted 
as a permanent feature of the SGLI program of benefits.
    CHAMPVA, the Civilian Health and Medical Program for the 
Department of Veterans Affairs, and this is for some family 
members--CHAMPVA was established in 1973. It provides health 
care to spouses and dependents of veterans who are permanently 
and totally disabled due to service-connected disability or 
veterans who have died from a service-connected disability. It 
is a comprehensive health care plan that covers every aspect of 
beneficiaries' medical needs, with a few exceptions.
    Spouses are covered for the remainder of their lives unless 
they divorce the sponsoring veteran, or if widowed, remarry 
before their 55th birthday. However, an individual who is 
eligible for TRICARE is not eligible for CHAMPVA.
    The most important facet of VA's responsibility is our 
comprehensive outreach program. Most recently, VA and DoD 
collaborated on a joint Casualty Assistance Program. Under this 
program, VA has streamlined all the in-service death claims 
processing for surviving family members of servicemembers 
killed on active duty. Our goal is to process the claims within 
48 hours of receipt of the paperwork from the service and we 
are meeting this goal. We are doing these within 2 days of 
receiving that information.
    VA Casualty Assistance Officers are positioned at each 
regional office. They work closely with the military Casualty 
Assistance Officers. At the appropriate time for the family, 
the military officer will call the VA Casualty Assistance 
Officers to visit survivors to provide benefits information and 
assistance, including the availability of bereavement 
counseling that Mrs. Carroll mentioned earlier. We publish a 
special packet brochure for these survivors and briefly explain 
all potential VA benefits and services. It is this pamphlet 
right here, and it briefly touches on all the benefits that we 
have--not to a great detail, but at least discusses them and 
does give telephone numbers that can be used.
    We follow up then 6 months later with the beneficiaries to 
further explain potential benefits available, such as the 
education benefits, vocational counseling services, financial 
counseling services, and loan guarantee if they want to then 
buy a house.
    Through our strong working relationship with the Department 
of Defense, we are able to get information out quickly via e-
mail to all military Casualty Assistance Officers to advise 
them of such things as legislative changes, changes in VA 
claims procedures. This ensures the military Casualty 
Assistance Officers are kept up to date about the VA benefits 
and services.
    Mr. Chairman, I want to assure you that VA works diligently 
not only to provide benefits in a timely manner to the 
survivors, but also to ensure that our people are mindful of 
the need for understanding and compassion during a very 
difficult period in the lives of those we serve.
    This concludes my testimony and I will be more than happy 
to answer any questions.
    Chairman Craig. Admiral, thank you very much.
    [The prepared statement of Mr. Cooper follows:]

Prepared Statement of Hon. Daniel Cooper, Under Secretary for Benefits, 
    Veterans Benefits Administration, Department of Veterans Affairs
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to testify today on the important issue of survivors' 
benefits. Providing benefits for the surviving family members of our 
veterans is one of the core responsibilities of the Department of 
Veterans Affairs (VA).
    VA provides a wide range of benefits to the surviving spouse, 
dependent children, and dependent parents of deceased veterans. In 
addition, we have experienced counselors who stand ready to assist 
survivors in filing claims, and to help them understand the types of 
benefits to which they may be entitled. It should be noted that these 
are not the only death benefits a surviving spouse and children are 
entitled to. They are also entitled to an array of Defense and Social 
Security benefits that both complement and in some cases offset each 
other. As we examine the adequacy of these benefits, we must do so in a 
holistic manner.
    VA supports the Administration's proposals on survivors' benefits 
as discussed by the Department of Defense representatives. I would like 
to summarize VA's benefits for you and discuss our most recent efforts 
focused on the survivors of servicemembers who have died in service to 
this country in Operation Iraqi Freedom and Operation Enduring Freedom.
                 dependency and indemnity compensation
    One of VA's largest survivor programs is the Dependency and 
Indemnity Compensation (DIC) program. DIC is a monthly benefit for the 
surviving spouse, dependent children, and dependent parents of a 
veteran who died on active duty or after service as the result of a 
service-connected or compensable disability. Under certain 
circumstances DIC is also paid to the survivors of former POWs and 
other veterans who were 100 percent disabled, regardless of the cause 
of death. We are currently paying this benefit to survivors of 318,000 
veterans.
    Surviving spouses of veterans currently receive $993 a month with 
additional amounts for dependent children. Last session, Congress 
enacted legislation that provides for a transitional benefit of $250 
per month payable to a surviving spouse who has a minor child or 
children and receives DIC. The surviving spouse receives this 
additional benefit for 2 years after entitlement to DIC begins or until 
all of the surviving spouse's children have reached 18 years of age. 
This benefit is payable for all original DIC awards beginning on or 
after January 1, 2005.
    VA also pays DIC to dependent parents of deceased veterans if their 
income is below a certain amount. The maximum rate currently payable to 
a sole surviving dependent parent is $487 per month.
                             death pension
    Even if a veteran's survivors do not qualify for DIC because the 
veteran did not die on active duty or after service as the result of a 
service-connected or compensable disability, they may still be entitled 
to death pension. Eligibility for pension is based on financial need. 
The general requirement for this benefit is that the veteran had served 
at least 90 days on active duty with at least one of those days 
occurring during a period of war. The maximum death pension benefit is 
currently $6,814 per year for a surviving spouse with no dependents, 
and $1,734 for a surviving child not in the custody of a surviving 
spouse. VA currently pays this benefit to the survivors of over 212,000 
veterans.
                    dependents' education assistance
    Dependents' Education Assistance benefits are available for 
surviving spouses and children. Generally, these benefits are available 
to spouses who have not remarried and to children of persons who died 
on active duty or as a result of a service-connected disability, or who 
are permanently and totally disabled due to a service-connected 
disability. The survivor may use these benefits to pay for college, 
business, technical or vocational schools, apprenticeships, and on-the 
job training programs. Currently, VA pays $803 per month for up to 45 
months of full-time education or training with lesser amounts for part-
time training. Last year, VA paid educational assistance to nearly 
16,000 survivors. While a surviving spouse ordinarily must use this 
benefit within 10 years from the date of the veteran's death, recent 
legislation granted an extension for up to 20 years for the surviving 
spouse of a servicemember who died while on active duty.
                       montgomery gi bill refund
    In the event of the service-connected death of a servicemember 
while on active duty or within 1 year of discharge or release, VA will 
refund to a designated survivor an amount equal to the servicemember's 
contribution for participation in the Montgomery GI Bill program, less 
any education benefits paid.
                        guaranteed housing loans
    Surviving spouses of servicemembers who died on active duty or who 
died after service from a service-connected disability are granted VA 
housing loan benefits. This allows surviving spouses to obtain home 
loans on favorable terms without the need to make a down payment.
                               insurance
    VA is currently the third largest life insurance provider in this 
country. Servicemembers' Group Life Insurance (SGLI), first established 
in 1965, provides automatic low-cost term insurance protection to 
servicemembers through a group policy purchased by VA from Prudential 
Life Insurance Company of America. The Government pays the claim costs 
resulting from the extra hazards of service. All other costs of the 
program are covered by premiums deducted from the insured 
servicemember's pay.
    When SGLI was first established the maximum amount of coverage 
available was $10,000. There have been seven coverage increases since 
the program's inception. In 2001, coverage was increased to the current 
maximum of $250,000. One feature of this insurance coverage is that all 
insureds pay the same premium rates, regardless of their age or 
military occupational specialty. Since Vietnam through 2002, the 
program has paid for itself through premiums paid by the insureds. In 
2003, premiums were reduced from $20 per month for the maximum $250,000 
coverage to $16.25 per month.
    Unless they decline to participate, basic SGLI coverage is 
automatically provided to those members on active duty in the Army, 
Navy, Air Force, Marine Corps, and Coast Guard, as well as ROTC 
members, and uniformed members of the Public Health Service and 
National Oceanic and Atmospheric Administration. The Ready Reserve is 
also insured by SGLI, including reservists and members of the National 
Guard. The participation rate at the end of the 2004 policy year was 98 
percent for active duty (including reservists called to active duty) 
and 93 percent for the Ready Reserve.
    As of January 2005, the Office of Servicemembers' Group Life 
Insurance has issued over 1,900 payments to beneficiaries as a result 
of 1,512 deaths certified by the branches of service in Operations 
Enduring Freedom and Iraqi Freedom. Claims paid to survivors of these 
servicemembers total nearly $342 million.
    The Veterans' Survivors Benefits Improvement Act of 2001 extended 
life insurance coverage to spouses and children of members insured 
under the SGLI program, effective November 1, 2001. This new coverage 
is available to the spouses of active duty servicemembers and members 
of the Ready Reserve of a uniformed service. Up to $100,000 of coverage 
can be purchased by the member for a spouse, in increments of $10,000. 
The maximum coverage for a child is $10,000.
                          financial counseling
    Beneficiary Financial Counseling Services is one-on-one, free, 
objective financial counseling for SGLI beneficiaries of deceased 
servicemembers. Services include estate settlement and planning, 
investment planning, budgeting, and income tax planning. This 
counseling was started as a pilot project in 1999, and has now been 
adopted as a permanent feature of the SGLI program of benefits.
   champva (civilian health and medical program of the department of 
               veterans affairs) for some family members
    Spouses and dependents of veterans also have access to health care 
benefits.
    The Civilian Health and Medical Program of the Department of 
Veterans Affairs (CHAMPVA) was established in 1973 to provide health 
care to spouses and dependents of veterans whom VA has determined to be 
permanently and totally disabled due to service-connected disability or 
who have died from a service connected disability.
    Children may be cared for under the CHAMPVA program until they 
reach the age of 18, or until the age of 23 if they are enrolled full 
time in an accredited learning institution. Spouses are covered for the 
remainder of their lives unless they divorce the sponsoring veteran or, 
if widowed, remarry before their 55th birthday. In those cases they 
lose the benefit. For widows/widowers, termination of the second 
marriage can mean reinstatement. Widows/widowers who remarry after 
their 55th birthday may keep the benefit. An individual who is eligible 
for TRICARE is not eligible for CHAMPVA.
    The CHAMPVA program is a comprehensive health care plan that covers 
every aspect of a beneficiary's medical needs with few exceptions. 
Certain types of care/services require preauthorization, such as dental 
care, hospice service, and transplants, among others. Beneficiaries are 
allowed to find their own medical care provider and with very few 
exceptions, CHAMPVA will pay 75 percent of the allowed amount for 
covered benefits. As of the end of January 2005, there were over 
236,000 beneficiaries enrolled in the CHAMPVA program, of which nearly 
150,000 regularly used the program. A total of 5.4 million CHAMPVA 
claims were received last year at a cost of $420.5 million.
    VA provides other survivor benefits as well, including educational 
and vocational counseling services. To the extent that the Department 
of Defense (DoD) does not pay the full amount of funeral expenses, VA 
is authorized to pay up to $2,000 to cover burial and funeral expenses 
in cases of service-connected deaths. In addition, VA provides burial 
in national cemeteries and also provides burial flags and markers for 
the graves of deceased servicemembers.
    All of these benefits are explained in our booklet entitled Federal 
Benefits for Veterans and Their Dependents. We also publish plain 
language pamphlets on each of the available benefits.
                                outreach
    A most important facet of VA's responsibilities is our outreach 
program. The outreach efforts we have developed to explain these 
benefits to survivors, particularly survivors of servicemembers killed 
on active duty, are comprehensive. However, our outreach efforts to 
survivors of servicemembers killed on active duty are designed to 
supplement the outreach efforts of DoD's Casualty Assistance Officers.
    Most recently, VA and DoD have collaborated on a joint Casualty 
Assistance Program. During peacetime, about 700 servicemembers die on 
active duty each year. Of course, these numbers have increased 
significantly in the last few years and with the onset of Operation 
Enduring Freedom and Operation Iraqi Freedom.
    Under this program, VA has streamlined all claims processing for 
survivors of servicemembers who die on active duty. In 2002, all DIC 
claims filed by such survivors were centralized in the Philadelphia 
Regional Office for processing. Our goal is to process these claims 
within 48 hours of receipt, and we are meeting this goal except in 
instances where additional information is required, such as when a 
fiduciary/guardian must be appointed for a dependent child. Emphasis 
has also been placed on expeditious processing of Dependents' Education 
Assistance claims and on the refund of the servicemembers' 
contributions under the Montgomery GI Bill and Post Vietnam Era 
Veterans' Educational Assistance programs. Veterans Benefits 
Administration (VBA) casualty assistance officers, positioned at each 
VA regional office, work closely with military casualty assistance 
officers. At a time appropriate for the family, they visit survivors to 
provide information about VA benefits, such as education benefits, 
vocational counseling services, financial counseling services, loan 
guaranty, etc., and the availability of bereavement counseling provided 
by the Veterans Health Administration. A special tri-fold pocket 
brochure, ``Benefits for Survivors of Servicemembers Who Die on Active 
Duty'' was published as part of this outreach program and is given to 
these survivors. The brochure contains brief information on all 
potential VA benefits and services. These casualty assistance officers 
can advise the surviving spouse of the potential impact of choosing one 
Federal benefit over another, such as the need to waive DoD's Survivor 
Benefit Plan benefits in order to receive DIC, or the choices of health 
care available to them.
    We, however, realize that surviving spouses are in an acute stage 
of grief at the time of our first outreach contact. Therefore, we have 
implemented a 6-month follow-up contact with surviving spouses. If 
requested, a second outreach visit is made to assist with filing claims 
or to provide more detailed benefits information.
                                training
    To ensure consistent delivery of services, VBA representatives at 
both the national and local level provide training to newly assigned 
military casualty assistance officers. We must ensure accurate 
information about VA benefits is available to survivors in the normal 
event when VBA is not present at the initial family briefing.
    VBA has received accolades from the DoD Office of Family Policy and 
from the Casualty Assistance Program Managers of the military services 
for our efforts in this program. Since implementation of the 
streamlined Casualty Assistance Program in July 2002, VBA has received 
and processed 2,457 DIC awards.
    In addition, VA is a full-fledged member of a Casualty Advisory 
Board along with members from DoD as well the various military service 
departments. Through this strong working relationship, we are able to 
get information out quickly via e-mail to all military casualty 
assistance officers to advise them of changes in VA laws and 
procedures. This ensures that military casualty assistance officers are 
kept up to date about VA benefits and services.
    Mr. Chairman and Members of the Committee, we assure you that VA 
not only provides benefits in a timely manner to the survivors of 
servicemembers, but also that our people are mindful of the need for 
understanding and compassion during a very sorrowful time in the lives 
of those we serve.
    This concludes my testimony. I would be pleased to answer any 
questions that Members of the Committee might have.
                                 ______
                                 
Responses to Written Questions for Hon. Daniel Cooper, Senate Veterans 
           Affairs Committee, Committee on Veterans' Affairs
                   senator larry e. craig, chairman.
    Question 1: One idea to enhance survivor benefits is to increase 
the amount of insurance coverage available. To what level could 
Servicemembers' Group Life Insurance (SGLI) coverage be increased 
without affecting premium rates paid by all servicemembers? Where do 
servicemembers turn to now if they are interested in purchasing 
additional amounts of insurance?
    Response: The SGLI premium rate is currently set at $.065 per month 
per $1,000. For the current maximum coverage of $250,000, a 
servicemember pays a monthly premium of $16.25. If the maximum amount 
of SGLI coverage were raised to $300,000, we would not expect a premium 
rate increase to be necessary until 2008. If the maximum amount were 
raised to $400,000, we expect that a premium rate increase to $.075 per 
month per $1,000 would be necessary in 2006. The premium for the 
$400,000 coverage would then be $30.00 each month. The following table 
shows the timing of premium rate increases depending on maximum 
coverage amounts.


----------------------------------------------------------------------------------------------------------------
                                                                      Current        Expected
                          SGLI Coverage                            Premium Rate    Premium Rate       Year of
                                                                     per $1000       per $1000       Increase
----------------------------------------------------------------------------------------------------------------
$250,000........................................................          $0.065          $0.075            2010
$300,000........................................................          $0.065          $0.075            2008
$400,000........................................................          $0.065          $0.075            2006
----------------------------------------------------------------------------------------------------------------

    For servicemembers interested in purchasing additional insurance, 
there are several fraternal organizations (also called military benefit 
associations) in existence that provide a variety of benefits and 
services to military personnel. In addition, some onbase credit unions 
and banks also offer insurance products to their members. Five of the 
major military benefit organizations are: the Military Benefit 
Association (MBA), the Army and Air Force Mutual Aid Association 
(AAFMAA), the Armed Forces Benefit Association (AFBA), the Navy Mutual 
Aid Association (NMAA) and the Uniformed Services Benefit Association 
(USB).
    These associations primarily offer group term life insurance, 
similar to SGLI coverage. One distinction between the SGLI program and 
the benefit associations is that the benefit associations underwrite 
based on such factors as health, tobacco use, and age, while SGLI 
charges the same premium rate for all members. The maximum amounts of 
coverage available for the member are shown below.

                        Maximum Coverage Amounts of Benefit Association on Member's Life
----------------------------------------------------------------------------------------------------------------
              SGLI                    AAFMAA           NMAA             MBA            AFBA            USBA
----------------------------------------------------------------------------------------------------------------
$250,000........................        $500,000        $750,000        $250,000        $500,000        $250,000
----------------------------------------------------------------------------------------------------------------


    The table below shows a comparison between the premiums rates of 
these five associations and SGLI:


                                                Comparison of SGLI and Benefit Association Premium Rates
                                                       [Monthly Premiums for $250,000 of Insurance
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                        Current     SGLI**               MBA Non-     MBA     AFBA Non-     AFBA    USBA Non-     USBA
                      Age Group                           SGLI     Premium     AAFMAA     Smoker     Smoker     Smoker     Smoker     Smoker     Smoker
                                                        Premium     @$.075    Premium    Premium    Premium    Premium    Premium    Premium    Premium
--------------------------------------------------------------------------------------------------------------------------------------------------------
Under 25.............................................     $16.25     $18.75     $13.00     $18.75     $33.75     $16.25     $32.50     $20.00     $22.50
25-29................................................     $16.25     $18.75     $13.00     $18.75     $33.75     $16.25     $32.50     $22.50     $27.50
30-34................................................     $16.25     $18.75     $13.00     $18.75     $33.75     $16.25     $32.50     $25.00     $35.00
35-39................................................     $16.25     $18.75     $13.00     $18.75     $33.75     $16.25     $32.50     $30.00     $47.50
40-44................................................     $16.25     $18.75    $13.00*     $18.75     $33.75     $18.30     $36.60     $42.50     $70.00
45-49................................................     $16.25     $18.75    $13.00*     $18.75     $33.75     $18.30     $36.60     $62.50    $107.50
50-54................................................     $16.25     $18.75        N/A     $87.50    $167.50     $86.00    $172.00     $95.00    $165.00
55-59................................................     $16.25     $18.75        N/A     $87.50    $167.50     $86.00    $172.00    $150.00    $267.50
--------------------------------------------------------------------------------------------------------------------------------------------------------
* Smokers over age 40 are not eligible: coverage terminates at age 50 for all.
** This would be the monthly SGLI premium if the rate per $1000 were increased to $.075.


    Question 2: On February 1, 2005, the Administration announced its 
proposal to increase death gratuity payments to $100,000. I am 
concerned about the impact increasing the gratuity might have on a 
young, single servicemember's willingness to remain in the government's 
group insurance plan. If young, healthy servicemembers decline 
coverage, what would be the impact on premiums? Have the potential 
``unintended consequences'' of these proposals been thoroughly 
examined?
    Response: Servicemembers are automatically insured under the SGLI 
program for $250,000 coverage each time they enter into a period of 
active duty or reserve status. If they desire to decline or reduce 
coverage, they must do so in writing each time their duty status 
changes. (For example, reservists called to active duty are 
automatically insured for $250,000 regardless of whether they had 
previously declined coverage or elected a lesser amount of coverage.)
    Because of this automatic enrollment feature, participation in the 
program is very high. The participation rate for fiscal year 2004 was 
98.3 percent for active duty (including reservists called to active 
duty) and 93.2 percent for ready reservists. Of those who participate 
in the SGLI program, 91 percent are covered for the $250,000 maximum 
amount.
    In order to be financially viable, group life insurance programs 
require a high degree of participation. This is because no evidence of 
insurability is usually required and benefit levels can be substantial. 
Generally speaking, participation should be at least 75 percent.
    However, in the case of the SGLI program high participation is 
especially important due to the additional benefits provided, such as:
    <bullet> Free 120 days of coverage following separation
    <bullet> Free one year of coverage following separation if totally 
disabled
    <bullet> Free, automatic $10,000 coverage on all dependent children
    <bullet> Free professional Beneficiary Financial Counseling
    <bullet> Guaranteed post-separation conversion to VGLI or a 
commercial policy
    It is difficult to predict whether the proposed increase in the 
death gratuity would have a significant adverse impact on participation 
in the SGLI program. If such an increase were coupled with government-
paid premiums for $150,000 of SGLI in designated zones as some have 
proposed, members would in essence have $250,000 of ``free'' survivor 
benefits and it is conceivable that many would believe they do not need 
the additional $250,000 of SGLI coverage that would be available. If 
participation among younger servicemembers were to decline 
substantially, it is possible that premium revenue would not be 
sufficient to cover program costs. This could result in an increase in 
the SGLI premium rate, or having to charge age-based premium rates in 
place of the current single rate for all members.
    Question 3: Mrs. Smith testified about a constituency I am very 
sensitive to: the survivors of servicemembers who die after service due 
to severely disabling wounds sustained in service. I understand that 
there is a 1-year period after discharge from service during which 
veterans with severely disabling conditions can convert their life 
insurance coverage to a VA-run insurance program. In your estimation, 
is one year adequate?
    Response: Current law provides up to a one-year free extension of 
SGLI for individuals who are totally disabled at the time of separation 
from service. The individual then has that full year to apply for 
Veterans' Group Life Insurance (VGLI) with no health requirements, as 
opposed to the normal 120-day period. Since June 2001, as part of a 
specifically targeted outreach effort, the VA Insurance Service has 
been contacting recently separated veterans who have received a 
disability rating of 50 percent or higher from their branch of service 
and have not converted their SGLI to VGLI. The outreach consists 
primarily of a personal phone call and mailings that provide 
information regarding the SGLI Disability Extension and VGLI. The 
information obtained from this group reveals that many severely 
disabled veterans are not enrolling in VGLI. Some severely disabled 
veterans are precluded from coherent post-separation financial planning 
by the effects of the disabilities themselves or simply did not know 
about the free 1-year extension.
    It should also be noted that, while the SGLI Disability Extension 
is 1 year, the time period allowed for applying for Service-Disabled 
Veterans Insurance is 2 years from the date the veteran is rated 
service-connected by VA.
                senator daniel k. akaka, ranking member
    Question 1: I was happy to hear that 6 months after initial contact 
with a surviving spouse, VA reconnects with that spouse and provides 
additional information. How does VA continue to update surviving 
spouses and their families about benefits or programs that they may be 
newly eligible for?
    Response: Information about newly legislated benefits would be 
provided to surviving spouses through either a news media campaign or 
by sending letters to the involved individuals. For example, we 
recently sent letters to surviving spouses who were potentially 
eligible for restoration of benefits under Public Law 108-183. That 
mailing and associated news releases resulted in about 5,700 surviving 
spouses applying for restoration of DIC benefits.
    Question 2: Is VA currently capable of putting together a benefits 
analysis for a survivor upon the death of a servicemember? If so, is 
this analysis similar to the product that the Armed Forces Services 
Corporation makes available to its customers? If not, what are the 
necessary steps that need to take place for VA to be able to provide 
this information?
    Response: VA casualty assistance officers are trained to discuss 
benefits available from other Federal agencies such as the Social 
Security Administration to a certain degree, but cannot provide a full 
benefits analysis similar to that offered by the Armed Forces Services 
Corporation. VA would need to either develop an application or contract 
for services to offer a similar full benefits analysis.
    Question 3: Currently, the Servicemembers' Group Life Insurance 
program is voluntary. The servicemember can opt-out. Last year's Review 
of Military Death Benefits Report stated that some employers provide a 
minimum life insurance benefit to their employees. Should the 
Servicemembers' Group Life Insurance follow the lead of these other 
employers and provide a minimum benefit?
    Response: Most private sector employers in the U.S. provide a basic 
level of life insurance at no cost to their employees, with the most 
common coverage level being one to two times salary. Most companies 
also offer supplemental coverage, which can be employer-subsidized or 
employee-paid.
    Last year SAG Corporation, under contract by the Principal Deputy 
Under Secretary of Defense to assess the sufficiency of death benefits 
provided to the survivors of military members, recommended in its final 
report that the Government fund an automatic level of SGLI coverage for 
all members. While noting that military benefits in their entirety 
compare favorably with those offered by other public sector and private 
sector employers, SAG Corporation pointed out that military income 
replacement benefits could be brought more into line with private 
sector practices by offering an automatic $50,000 of SGLI coverage at 
no cost to the member. The estimated annual cost to the uniformed 
services of providing this benefit to all active duty and reservist 
personnel would be about $90 million. We defer to DoD on the SAG 
recommendation.
    Because of its automatic enrollment feature, participation in the 
SGLI program is very high. The participation rate for fiscal year 2004 
was 98.3 percent for active duty (including reservists call to active 
duty) and 93.2 percent for ready reservists. Of those who participate 
in the SGLI program, 91 percent are covered for the $250,000 maximum 
amount.
    The Administration has proposed increasing death benefits for 
survivors of servicemembers at no cost to the member by increasing the 
death gratuity paid by DoD.
    Question 4: What is your view on the proposal to underwrite 
increased life insurance benefits only for those servicemembers serving 
in combat zones?
    Response: The proposal under consideration is for DoD to pay the 
premium cost for the additional $150,000 of coverage for members 
serving in combat zones. OMB has assessed the FY06 cost of this 
proposal at $30 million, based on the current SGLI premium rate and an 
assumption of 250,000 members serving in combat zones.
    We defer to DoD on the desirability of providing such free coverage 
only to those who serve in combat. The cost would rise substantially if 
the proposal were expanded to provide such free coverage to all 2.3 
million servicemembers. The FY06 cost (based on the current SGLI 
premium rate) would be $269 million. If the SGLI monthly premium rate 
were to increase to $.075 per $1,000 (as is projected in year 2010), 
the annual cost would be $310 million.
    Question 5: Is VA engaging in additional outreach to surviving 
spouses of National Guard and Reserve members? If yes, then what does 
this outreach consist of?
    Response: Surviving spouses of National Guard and Reserve members 
who die on active duty are provided the same personal service that is 
offered to surviving spouses of active duty personnel. This service is 
provided regardless of the cause of death (combat, disease/disability, 
vehicle accident, suicide, etc.). A Casualty Assistance Officer (CAO) 
is designated at each VBA regional office. In coordination with the 
military's casualty assistance call officer, the VA CAO personally 
visits the surviving spouse to provide information about and assistance 
with benefits administered by the VA. In some instances, personal 
visits are also made to surviving parents. All claims for dependency 
and indemnity compensation (DIC) based on an in-service death are faxed 
to a centralized processing unit at the Philadelphia Regional Office. 
Our goal is to process DIC in-service death claims within 48 hours of 
receipt. A 6-month follow up letter is sent to the surviving spouses as 
a reminder of other benefits such as Dependents Educational Assistance 
to which they may be entitled.
                           senator john thune
    Question 1: In the 108th Congress we eliminated the spousal benefit 
Social Security offset to provide more assistance to surviving spouses. 
This Congress we have been asked to eliminate the Disability and 
Indemnity offset for spousal benefits as well. What are the long term 
costs associated with such an initiative and how will it affect other 
veterans or defense spending priorities?
    Response: The elimination of the spousal offset of payments under 
the Survivor Benefit Plan (SBP) due to receipt of VA Dependency and 
Indemnity Compensation (DIC) would have no impact on VA costs. 
Currently, when making an initial award of DIC benefits, VA coordinates 
with the Defense Manpower Data Center to determine the amount of SBP 
that had been paid up to the time VA prepares its award. An accrual is 
established in the VA DIC award to recoup the amount of SBP already 
paid from the retroactive award. These recouped benefits are then 
transferred to the Defense Finance and Accounting Service to be 
returned to the appropriate account. Therefore, there would be no 
additional cost to VA if such a change were made. The additional costs 
would be borne by the Department of Defense.
    Question 2: Understanding survivor benefits can be a difficult 
task, particularly when trying to deal with the loss of a loved one. Do 
you think that survivors adequately understand their options? Does the 
VA provide assistance to help survivors understand their rights and 
benefits?
    Response: VA provides benefits applications to survivors of 
deceased veterans who had been receiving benefits at the time of their 
death. If the surviving spouse applies for benefits, a determination is 
made as to whether the survivor is entitled to DIC and/or death 
pension, and awards whichever is the greater benefit.
    In the case of in-service deaths, working with the Department of 
Defense, the DD Form 1300 (Report of Casualty) is emailed to VA Central 
Office and then forwarded to the VA regional office casualty assistance 
officer (CAO) closest to the residence of the surviving spouse. 
Outreach visits are scheduled with the families in coordination with 
the assigned military casualty assistance call officer. During the 
personal visit, the VA CAO provides information about and assistance 
with applying for VA benefits. VA Pamphlet 21-02-1, Benefits and 
Services for Survivors of Servicemembers Who Die on Active Duty, is 
left with the surviving spouse. The pamphlet explains all VA benefits 
and provides telephone numbers and the address of the VA website for 
further information and assistance. If requested, the VA CAO will 
conduct a follow up visit. The pamphlet is a letter size tri-fold with 
a pocket that can be used to save/store documents.
    DIC applications based on an in-service death are faxed to a 
centralized unit at the Philadelphia Regional Office for processing. 
Our goal is to process in-service death DIC claims within 48 hours of 
receipt.
    Bereavement counseling is also available through the VA Vet 
Centers. A follow-up letter is sent to the surviving spouses 
approximately 6 months after a DIC award is made. Its purpose is to 
remind surviving spouses of the range of VA benefits available to them.
    The VA Insurance Service also has a special outreach program for 
veterans who are recently separated and are terminally ill and the 
families of those veterans. Through this outreach, we assure the 
veterans and their families that the veteran's Servicemembers' Group 
Life Insurance (SGLI) is still in force during the 120-day conversion 
period after separation and that the veteran is entitled to the SGLI 1-
year disability extension if he/she was totally disabled at separation.
    SGLI beneficiaries are entitled to free, personalized, objective 
financial counseling called Beneficiary Financial Counseling Service 
(BFCS). BFCS has been in use in the SGLI and Veterans Group Life 
Insurance programs since October 1999 and provides the services of 
certified financial planners and other financial professionals who are 
trained and experienced in handling a wide range of financial 
situations.
    Question 3: Based on the 2004 study DoD conducted comparing 
military survivor benefits to their civilian counterparts, what 
deficiencies do you believe need to be addressed in order to improve 
the overall effectiveness of what appears to be a first class program?
    Response: VA offers a comprehensive array of benefits to survivors 
of veterans who die in service. These include Servicemember's Group 
Life Insurance, DIG, Dependents Educational Assistance for the 
surviving spouse and children over the age of 18, educational 
counseling, and home loan guaranty benefits. Survivors are also 
entitled to civil service preference for Federal Government employment 
opportunities.
    The supplemental appropriations request for fiscal year 2005 that 
the President sent to Congress on February 14, 2005, includes a 
proposal to increase the maximum amount of SGLI and VGLI coverage to 
$400,000.
                          senator richard burr
    Question 1: What are the current availabilities of electronic 
information that surviving family members can access without having to 
go through a Casualty Assistance Calls Officer (CACO) or other benefits 
expert?
    Response: The VA website includes a special section containing 
information about survivors' benefits. A survivor can also email a 
question to VA via the VA website. Such inquiries are directed to the 
regional office nearest the inquirer's residence through area code 
identification. Information can also be obtained through the VA's toll 
free telephone service at 1-800-827-1000.
    The VA Insurance website (www.insurance.va.gov) provides 
information about all VA life insurance benefits. Information available 
includes an overview of the Beneficiary Financial Counseling Program 
and how to obtain services, insurance claim forms that can be 
downloaded, and an ``Insurance Needs Calculator'' tool to assess life 
insurance needs, as well as handbooks and brochures that give a 
comprehensive look at all VA insurance programs. Survivors can also 
email their specific questions through our site, or use the toll-free 
numbers provided to speak to an insurance representative.
    Question 2: What do you plan to do to make information more 
accessible electronically to surviving family members so they can have 
an additional resource when benefit and process questions arise?
    Response: We continually update and add new content to our sites to 
ensure that all visitors' needs are addressed. We use the sites to keep 
servicemembers, veterans and their beneficiaries apprised of new 
programs and events and to provide answers to the most frequently asked 
questions received by our representatives via phone and e-mail.

    Chairman Craig. Now let us turn to Mark Ward, Senior Policy 
Advisor, Casualty, Mortuary and Funeral Affairs Honors, Office 
of the Deputy Under Secretary of Defense. Thank you.

  STATEMENT OF MARK L. WARD, SENIOR POLICY ADVISOR, CASUALTY, 
  MORTUARY AND MILITARY FUNERAL HONORS, OFFICE OF THE DEPUTY 
       UNDER SECRETARY OF DEFENSE, DEPARTMENT OF DEFENSE

    Mr. Ward. Thank you, sir. Mr. Chairman and Members of this 
distinguished Committee, thank you for the opportunity to be 
here today to discuss the Department's policies and procedures 
on assisting families of the servicemembers who die while on 
active duty in the Armed Forces. I have a short oral statement 
and I request that Mr. Abell's statement be entered into the 
official record.
    Chairman Craig. Without objection.
    Mr. Ward. Mr. Chairman, I have focused my comments on three 
important areas of Mr. Abell's statement that bear on the 
substance of this hearing, casualty assistance, the assignment 
and training of a Casualty Assistance Officer, and death 
benefits.
    I have been privileged to work these important issues for 
the last 10 years, including the final 6 years of my 26-year 
active duty Marine Corps career. I have delivered the sad and 
tragic news to family members, provided casualty assistance, 
and presented our Nation's flag to the families of the fallen 
in over 400 instances. There is no assignment or job 
opportunity that I consider more important or challenging than 
to assist families during the most tragic times of their lives.
    When a military member dies, our first concern is to inform 
the next-of-kin as promptly as possible in a manner that is 
dignified, professional, and highly respectful. A uniformed 
representative of the military service concerned shall make 
initial notification in person to the primary next-of-kin 
unless unusual circumstances prevent such procedures. 
Additionally, whenever a casualty occurs as a result of either 
hostile action or a terrorist activity, initial notifications 
are also made to the parents who are considered secondary next-
of-kin. No information concerning the military member will be 
released to individuals, agencies, the media, or the general 
public until 24 hours after the appropriate next-of-kin have 
been notified.
    Our Casualty Assistance Program is highly developed and 
well suited to effectively perform this difficult task. To 
ensure that our policies and programs stay current and address 
the needs of our servicemembers and their families, we chair a 
joint Casualty Advisory Board that meets three times a year to 
review, assess, and recommend appropriate changes. Attendance 
at these meetings includes the casualty heads from each of the 
Military Services, the Joint Staff, representatives from other 
Federal agencies such as the Department of Veterans Affairs and 
the Social Security Administration, non-profit organizations, 
family support groups, and surviving family members. This 
partnership approach on policy development, especially 
involving those who have experienced a loss and received the 
follow-on assistance, guarantees that our program is addressing 
the required services to meet the needs of our servicemembers 
and their families.
    In each case in which a military member is declared 
deceased or missing, the Military Service concerned appoints a 
Casualty Assistance Officer to advise and assist the primary 
next-of-kin. Among the services, Assistance Officers are 
referred to by different names, but their roles and 
responsibilities are essentially the same.
    The Assistance Officer maintains contact with the next-of-
kin to keep them informed on all matters related to the case 
until the case has been resolved and all entitlements and 
benefits are received. There is no time limit on how long 
assistance will be provided. The families know that they can 
contact their Assistance Officer at any time for assistance 
during the days, weeks, months, and sometimes years later for 
assistance. Once assigned as an Assistance Officer, this 
becomes their primary responsibility.
    Casualty Assistance Officer can be officers, staff 
noncommissioned officers, or senior civilian employees. A 
sample listing of the duties and responsibilities of the 
Assistance Officer include become the family's point of contact 
with the respective service, provide assistance in making 
contact with other Federal or State agencies, run interference 
when problems arise, coordinate the return of personal effects, 
assist the family with any required travel requirements, assist 
the family with burial arrangements, and assist in completion 
of all the required forms for applying for the various benefits 
or entitlements, including DoD benefits such as the death 
gratuity benefit.
    This benefit provides an immediate source of financial 
assistance to support the family with unexpected financial 
requirements. The amount is currently $12,420 and normally paid 
within 24 to 48 hours.
    Funeral costs--the Government pays the costs of the burial 
and DoD will reimburse some or all of the expenses the family 
pays directly. Depending on the options selected by the family, 
the family can qualify for reimbursement up to $6,900.
    Housing, in-kind, or cash allowance--families of 
servicemembers who reside in military housing may remain in 
housing without cost for up to 6 months after the member's 
death. If they vacate housing prior to the expiration of the 6-
month period, they receive a cash allowance for the remaining 
time. And for the family members who do not occupy Government 
quarters, they are paid the 6-month allowance.
    The DoD survivor benefit plan is a monthly payment from DoD 
equal to 55 percent of the retired pay the member would have 
received if he or she had retired with total disability on the 
date of death. And community privileges, such as commissary, 
theater, and exchange, as well as Veterans Administration and 
Social Security benefits.
    It is important to note that Assistance Officers are not 
experts in all relevant areas in the areas the family members 
may have questions. If an answer is not known, the Assistance 
Officer will find an expert and ensure the family gets accurate 
information.
    Assignment as a Casualty Assistance Officer can be one of 
the most challenging and emotionally charged duties a 
servicemember will ever assume. Until assigned to an actual 
case, Assistance Officer duties are normally assigned as an 
additional responsibility. Therefore, it is extremely important 
that we train and prepare them as much as possible to succeed. 
We only get an opportunity to do this right once. As a result 
of this dedicated and professional assistance and a genuine 
desire to assist families of a fallen brother or sister, we 
often hear from families that they consider the Casualty 
Assistance Officer part of their family.
    Assistance Officers can be assigned from the unit of the 
deceased, from the parent installation, or from the unit 
closest to where the family is located. The Military Services 
ensure that their personnel assigned Casualty Assistance or 
notification responsibilities receive appropriate training. 
Training is conducted in multiple ways--a review of applicable 
Service Directives or Instructions, hard-copy Casualty 
Assistance Guides, courses of instruction in formal schools, 
classroom instruction, training videos, video teleconferencing, 
and distance learning via the Web.
    When possible, a servicemember who has prior assistance 
experience normally assists first-time Casualty Assistance 
Officers. Because this is not always possible, the services and 
my office are available by phone, fax, and e-mail to provide 
help to an Assistance Officer facing an unfamiliar situation. 
This is also the reason why only senior personnel are selected 
for this responsibility.
    Mr. Chairman, thank you again for the opportunity to 
provide information on the Department's Casualty Assistance 
Program. Our goal is to provide the very best support and 
assistance possible to our family members during the worst of 
times and to assure them that we are there for as long as they 
need us.
    Mr. Chairman, this concludes my statement. I am also 
accompanied today by Mr. Tom Tower, our expert on DoD survivor 
benefits. We welcome the opportunity to respond to your 
questions, sir.
    Chairman Craig. Mark, thank you very much for that 
testimony.
    [The responses of Mark Ward to written questions follows:]

 Written Questions for Mark Ward, Senate Veterans' Affairs Committee, 
                     Committee on Veterans' Affairs
                    senator larry e. craig, chairman
    Question 1: Getting a good Casualty Assistance Officer assigned to 
a survivor seems to be a ``hit or miss'' proposition. How do you 
explain this? Do the military services have any way to measure the 
quality of services provided by Casualty Assistance Officers?
    Response: Characterizing the assignment process for Casualty 
Assistance Officers (CAO) as a ``hit or miss'' proposition is 
inaccurate and unmerited. The Military Services all have sound systems 
in place to select and train quality assistance officers to accomplish 
this challenging assignment. Once assigned to a case, the Services 
monitor the individual Casualty Assistance Officer's interaction with 
the family and provide a feedback mechanism to assess the quality of 
the assistance.
    In the Army, Navy, and Marine Corps, Casualty Assistance Officers 
are drawn from officers with at least two years of active duty or from 
senior enlisted personnel. Each Casualty Assistance Officer is a 
professional who realizes that he or she represents their Service at a 
critical moment in a military family's life. They are committed to 
providing the same high level of support to the grieving family that 
they would want their own families to receive under similar 
circumstances.
    Each Servicemember assigned to this duty receives a standardized 
block of instruction prior to being assigned to assist a surviving 
family member. Once a CAO is assigned to a family member, he or she 
receives an additional briefing tailored to the particular case.
    From the time of initial assignment, to submission of the final 
report to close the case, Casualty Assistance Officers provide many 
different kinds of support for the grieving military family. Once 
assigned as a Casualty Assistance Officer, supporting the family is the 
Casualty Officer's fulltime job. They act as liaisons on behalf of the 
next-of-kin with service and support agencies (e.g., Department of 
Veterans Affairs, the Social Security Administration). They assist with 
the burial, completion of claim forms for benefits/entitlements, and 
identify/coordinate need for, family support (financial, medical, 
morale). In performing these duties and others unique to each family, 
military Casualty Assistance Officers draw on an extensive support 
system at the local, regional and headquarters level. At the local and 
regional levels, they can draw on their installation's legal, 
personnel, and family support services. Questions and issues of greater 
scope can be referred to Military Department subject matter experts for 
immediate response.
    Authorities in the Military Services monitor the Casualty 
Assistance Officer's progress. Reports are filed on each case. Surveys, 
feedback forms, and follow-up visits allow the respective Military 
Departments to assess the satisfaction of the fallen Servicemember's 
family and the performance of their Casualty Assistance Officer. 
Immediate corrective action is taken to address any shortcomings, 
whether it is with the individual or a process improvement to the 
system.
    Question 2: There is unprecedented reliance on Guard and Reserve 
units to supplement the regular components of the Armed Forces. Who 
provides casualty assistance services to survivors of an activated 
Guardsmen or Reservist? Are they drawn from the ranks of the deceased's 
unit? If so, what assistance is given to those units to ensure the 
information they are providing survivors is current and accurate?
    Response: Casualty assistance is a total force requirement and the 
Services treat all duty deaths the same, regardless of the member's 
component. If a Reserve or Guard component member is on active duty at 
the time of his/her death, that Servicemember's family is entitled to, 
and receives, the same support for his or her family regardless of the 
deceased member's component.
    A Casualty Assistance Officer (CAO) is assigned in each case. The 
selected CAO, whether active duty, Reserve, or Guard, receives the same 
training and is held to the same high standards in carrying out this 
critical mission. Proximity of the nearest trained CAO to the family, 
not component, is the primary factor in assigning a CAO to a family. If 
an activated Guardsman or Reservist's unit is geographically located in 
the area of the next-of-kin, a member from that unit is usually 
assigned.
                senator daniel k. akaka, ranking member
    Question 1: What is being done to ensure the timely return of 
personal effects from Servicemembers killed overseas?
    Response: Personal effects of deceased Servicemembers are processed 
and returned to the Person Eligible to Receive Effects (PERE) as 
expeditiously as possible. Those personal effects that accompany the 
remains, such as wedding rings, necklaces, medallions or other items of 
sentimental value are cleaned and either delivered to the family by the 
remains escort officer or processed and sent to the family through 
their Casualty Assistance Officer.
    All other personal effects of deployed Servicemembers who die in 
theater are immediately secured and inventoried by the unit and shipped 
through the mortuary affairs collections points to the Theater Personal 
Effects Depot in Kuwait. In Kuwait the personal effects are staged for 
trans-shipment through Dover Air Force Base to undergo cleaning and 
processing at the Joint Personal Effects Depot (JPED) at Aberdeen, 
Maryland. After final processing, the depot sends the belongings to the 
Casualty Assistance Officer for delivery to the family.
    Prior to deployment, Servicemembers often place additional personal 
effects in temporary storage. If the Servicemember becomes a casualty, 
those personal effects are collected, inventoried, and prepared for 
shipment to the PERE by way of the Casualty Assistance Officer. The 
Services will honor the PERE request to have personal effects shipped 
to them directly without the assistance of the Casualty Assistance 
Officer.
    The Services have developed automated tracking systems that 
continue to improve the accountability and timeliness in returning 
personal effects to the PERE. Some delays have been experienced when 
the identification of the PERE is not readily apparent, when family 
members engage legal authorities to seek ownership of the personal 
effects, or when a PERE must be appointed by a local magistrate or 
civilian court as a guardian to receive personal effects. This occurs 
rarely, when the next-of-kin is a minor.
    Question 2: What impact would there be to the Army, Navy, and 
Marine Corps Casualty Assistance Programs if all Casualty Assistance 
Officers (CAO) were civilian employees? Does DoD have any proposals to 
address the complaint from survivors about the transient nature of the 
Casualty Assistance Officer?
    Response: Changes in the Service casualty assistance, programs are 
constantly being considered to ensure the most effective, thoughtful 
and timely delivery of services to surviving family members. There are 
no data available to suggest that the use of civilians to accomplish 
this important mission would enhance Service programs. Family members 
have overwhelmingly indicated their acceptance and appreciation of the 
current assistance officer processes. A strong indication that the 
current system is working, and working well, is that Navy headquarters 
has not received a single complaint from surviving family members about 
the assistance officer or the assistance rendered in more than five 
years.
    Collectively, the Services and the Office of the Deputy Under 
Secretary of Defense (Military Community and Family Policy) meet 
formally at least three times a year to review the policies and 
programs that make up the Department's casualty assistance program and 
to learn from one another's experiences. Informally, these same offices 
communicate via phone and e-mail on an almost daily basis to ask 
questions of one another, exchange ideas, and to work in tandem to 
enhance the support we provide to the grieving military families.
    To describe the CAO assignment process as ``transient'' is both 
unfair and inaccurate. Each family is told that it will have a CAO to 
assist, as long as necessary. This is an open-ended commitment; 
therefore, it may be necessary on some occasions to change the CAO 
during the process. However, when this does happen, the new CAO is 
fully briefed on the requirements of the position as well as 
particulars of the family. The incoming and outgoing CAOs will meet 
with the family together to review the still-remaining assistance 
requirements. The transfer of casualty assistance duties mostly occurs 
due to relocation of next-of-kin. In these cases, coordination is 
conducted with the military unit closest to where the family will 
relocate to provide any necessary follow-on assistance.
    Question 3: What mechanism exists to inform next of kin of the 
circumstances surrounding the death of a Servicemember?'
    Response: When a Servicemember dies, every effort is made to 
provide as much information to the next-of-kin as can be substantiated 
in fact. Often initial information surrounding the death is sketchy, 
therefore Casualty Assistance Officers are directed to pass only 
information that has been absolutely verified, even if minimal, to the 
families. As a follow on, commanders write condolence letters and 
usually telephone the family to provide additional details that are 
available. Some families request to speak with Servicemembers who were 
with their loved one at the point of death, to know about their last 
moments and words. When such requests are received, they are relayed to 
the appropriate Servicemembers, if known, and they decide whether or 
not to make contact with the requesting family member.
    It is Department of Defense (DoD) policy to keep; primary next of 
kin informed on matters relating to DoD investigations. Information is 
often the most important element of support that DoD can provide in the 
aftermath of the loss of their loved one. Depending on the 
circumstances of death, final conclusions on cause and events 
surrounding the death may take some time to verify. All Services take 
great care not to speculate or pass on unverified information. After 
investigations are completed and reports released, the next-of-kin are 
provided reports from the Armed Forces Medical Examiner, the unit's 
collateral investigation and any other pertinent released reports. 
Families continue to be informed as long as any new information becomes 
available concerning the death of the Servicemember.
    Question 4: What impact would there be if widows and dependent 
children were allowed to utilize ``Space A'' travel on military 
aircraft?
    Response: Space-available travel is a privilege that accrues to 
active duty military members as an avenue of respite from the rigors of 
military duty. Although travel is available to other categories of 
travelers at a lower priority, the principal objective of the privilege 
is the morale and welfare of those currently serving on active duty.
    Unfortunately, the system is limited by mission requirements and 
resource restraints. Extending full space-available travel privileges 
could overtax present resources and diminish the limited benefit 
currently available. Those authorized space-available travel are often 
already disillusioned by the contrast between the promise of space-
available travel as a benefit of military service and the reality of 
the lack of available seats and the arduous conditions often 
encountered when they use the system. At this time, any increase in the 
number of people who are eligible for and seek space-available travel 
would adversely affect the DoD's ability to support those entitled to 
the privilege and the ability to effectively accomplish the airlift 
mission support activities.
    Question 5: As a result of lessons learned from deaths of 
Servicemembers in OEF and OIF, what improvements have been made to the 
military services' Casualty Assistance Programs?
    Response: All the Services continuously refine and enhance their 
processes as a result of lessons learned from OEF and OIF. All the 
Service Casualty Offices aspire to hone their casualty notification and 
assistance programs to become more responsive to the needs of the 
family, and they routinely compare notes with one another toward that 
shared goal. In addition to a consistent sharing of information, 
Service casualty offices and the OSD oversight offices meet three times 
a year to review and assess our policies and procedures to ensure they 
remain current. To further enhance the Department's desire to lean 
forward on this important issue, these meetings, called Casualty 
Advisory Boards, include representatives from other Federal Agencies 
such as the Department of Veterans Affairs and the Social Security 
Administration, non-profit organizations, family support groups, and 
surviving family members. This partnership approach on policy 
development, especially involving those who have experienced a loss and 
received the follow-on assistance, guarantees our program is addressing 
the required services and concerns to meet the needs of our 
Servicemembers and their families.
    The deployment of the Defense Casualty Information Processing 
System (DCIPS) to the theater of operations has significantly 
streamlined the casualty reporting process. In addition, the enhanced 
use of DCIPS has ensured more timely notification to and support of the 
families of the fallen. DCIPS is being improved to better track the 
wounded in action and monitor their progress from time of injury 
through the Medical Treatment Facilities, rehabilitation, and final 
return to duty, medical discharge or medical retirement.
    Since the commencement of OEF and OIF, the Services have developed 
enhanced capabilities through casualty assistance drills, certification 
courses in grief and bereavement and advanced casualty assistance 
training. In addition to in-person and casualty assistance handbook 
training, the Services have developed Web-based training with one 
Service incorporating video interviews with previously assigned 
casualty officers that provide insight and advice on how to best 
provide casualty assistance. After completion of casualty assistance 
responsibilities, the Services' Casualty headquarters contact the 
casualty officers to obtain their perspective on the training they 
received and the available resources. Feedback from these evaluations 
is passed to other casualty coordinators for use in making continuous 
program improvements.
    The ongoing demands of the Global War on Terrorism have caused the 
Services to develop innovative ways to train and share qualitative 
improvements in the casualty assistance process. This includes monthly 
newsletters, video. teleconferences with casualty assistance 
coordinators, and a collaboration site that encourages discussion 
forums and sharing of lessons learned. The site also has a growing 
casualty-related resource reference library.
    All of the Services provide information to the families on their 
benefits and entitlements. This information is both printed and Web-
based and includes information for key resources such as, the 
Department of Veteran Affairs, the Social Security Administration, the 
U.S. Citizenship and Immigration Service, among others. Information for 
the survivors must be in a flexible format because benefits change 
based on annual economic adjustment and statutory changes.
    Question 6: What is being done to ensure that there is a consistent 
standard for the training of Casualty Assistance Officers across the 
Services? How is this training being applied to the Reserve components, 
including the National Guard?
    Response: The challenge of providing the proper amount of training 
prior to the necessity of having to use it is recognized by every 
Service without regard to the component of the Servicemember. The 
Department of Defense establishes standards and guidance for Casualty 
Assistance in the Department of Defense Instruction 1300.18, ``Military 
Personnel Casualty Matters, Policies, and Procedures.'' All Military 
Services abide by this Instruction. Casualty Assistance Officers (CAO) 
can be assigned from the unit of the deceased, from the parent 
installation, or from the unit closest to the family's location. The 
Military Services ensure that all active, Guard, and Reserve component 
personnel assigned casualty assistance or notification responsibilities 
receive appropriate, standardized training. Training is conducted in 
multiple ways: review of applicable Service Directives and 
Instructions, hard copy casualty assistance guides, course of 
instruction at formal schools, classroom instruction, training videos, 
video teleconferencing, and distance learning via the Web. Service 
Casualty offices are available at every stage of the training process.
    Casualty Assistance Officer training is a commander's 
responsibility. All Commands are required to identify members (active 
duty, Guard or Reserve) to support the Services' Casualty Assistance 
Program. Therefore, the Service Casualty Headquarters routinely 
monitors training classes conducted throughout their respective 
Services to ensure standardization to the maximum. extent possible. All 
potential CAOs get the same training.
    Collectively, the Services and the Office of the Deputy Under 
Secretary of Defense (Military Community and Family Policy) meet 
formally at least three times a year to review the policies and 
programs that make up the Department's casualty assistance program and 
to learn from one another's experiences. Informally, these same offices 
communicate via phone and e-mail on an almost daily basis to ask 
questions of one another, exchange ideas, and to work in tandem to 
enhance the support we provide to the grieving military families.
                          senator richard burr
    Question 1: What are the current availabilities of electronic 
information that surviving family members can access without having to 
go through a Casualty Assistance Calls Officer (CACO) or other benefits 
expert?
    Response: The current availability of electronic information for 
surviving family members is extensive. During the casualty assistance 
process, family members are provided a wealth of information that is 
available to them on-line via the Web that they can access at any time. 
Specific examples include: Department of Defense Websites and 
individual Service Websites that explain, among other items, the 
casualty assistance process including benefits and entitlements, 
military pay, mortuary benefits, and military funeral honors. Family 
members are also provided access information to other sites such as 
TRICARE, Defense Finance and Accounting Service (DFAS), Servicemembers 
Group Life Insurance Program, Survivors Benefit Plan and other Federal 
Agencies such as the Department of Veterans Affairs and the Social 
Security Administration. Additionally, family members are provided 
Website information on non-profit: organizations such as Tragedy 
Assistance Program for Survivors (TAPS), Gold Star Wives of America, 
American Gold Star Mothers, and various other Veterans Service 
Organizations. A phone number, most often toll-free, to each of these 
organizations, or Websites, is also provided to our family members for 
their use.
    When the Department or the Military Services identify an additional 
resource that could be of some assistance or benefit to our family 
members, this information is added to the list and provided to all 
family members during the casualty assistance process.
    Question 2.: What do you plan to do to make information more 
accessible electronically to surviving family members so they can have 
an additional resource when benefit and process questions arise?
    Response: Family members currently have unlimited access to all 
known electronic sites that should be able to provide them with the 
information necessary to answer their questions or address their 
concerns. The Casualty Assistance Officer or the Service Casualty 
Headquarters Office is always available to provide any kind of 
assistance sought by a family.

    [The prepared statement of Mr. Abell follows:]

  Prepared Statement of Hon. Charles S. Abell, Principal Deputy Under 
              Secretary of Defense, Department of Defense
    Mr. Chairman and Members of this distinguished Committee, it is my 
privilege to discuss the means by which we care for the severely 
wounded, as well as the surviving families of deceased military 
personnel.
                    support to the severely wounded
    Each of the services has initiated an effort to ensure that our 
seriously wounded servicemembers are not forgotten--medically, 
administratively, or in any other way. To facilitate a coordinated 
response, the Department has established a Joint Support Operations 
Center. We are collaborating, not only with the military services, but 
also with other departments of the Federal Government, non-profit 
organizations, and corporate America, to assist these deserving men and 
women and their families.
    A number of our severely injured servicemembers will be able to 
return to duty, thanks to their dedication and commitment, and the 
phenomenal quality of military medicine. Some, however, will transition 
from the military and return to their hometowns or become new members 
of another civilian community. These are capable, competent, goal-
oriented men and women--the best of our Nation. We will ensure that 
during their rehabilitation we provide a ``case management'' approach 
to advocate for the servicemember and his or her family. From the joint 
support operations center here, near the seat of Government, to their 
communities across America, we will be with them. This will continue 
through their transition to the Department of Veterans Affairs, and the 
many other agencies and organizations providing support to them.
    I have mentioned that the Joint Support Operations Center is a 
collaborative effort, both inside and outside the Government. I 
recognize and appreciate the interest and expressed desire of the 
Congress to help ensure the success of this effort. As we identify the 
need for statutory changes, we will be certain to make you aware and 
seek your assistance
    Twenty-four hours a day, 7 days a week, 365 days a year, we are a 
toll-free phone call away. We will provide a venue for each of the 
separate programs to be successful, while ensuring that no one falls 
through a crack. The Center will be a one-stop location, providing a 
central point of contact for information and support.
                          preventing injuries
    The Department actively pursues all methods to prevent our military 
members from bodily harm. As technology has dramatically advanced from 
previous wars, the military has increased its lethality, but our 
equipment is safer, and our warfighter is more highly skilled.
    With your support, we strive to provide the best military equipment 
in the world and ensure that it is safe to operate. For example, we 
believe that body armor, helmets and protective vests, are reducing 
both hostile and accidental serious injuries. This is supported by 
preliminary analysis, which indicates that most injuries are to the 
body extremities, arms and legs, with less severe injuries to the head 
and torso areas.
    Secretary Rumsfeld's initiative to change how the Department of 
Defense views the safety of its military personnel and civilian 
employees also has made an impact. Our goal is zero preventable 
mishaps. We have taken a major step in that direction. We are 
succeeding: in Operation Iraqi Freedom (OIF). Historically, about half 
of the Army 's wartime losses were due to accidents; in OIF, about 26 
percent of the losses result from preventable mishaps.
    When injuries do occur, far-forward medical and surgical 
resuscitation, en route critical care support and rapid evacuation to 
definitive care have significantly reduced combat-related deaths. This 
is very evident in OIF as we have a ratio of only one battle death for 
every ten wounded in action, compared to ratios for previous wars that 
ran typically around 1 to 3. With improved treatment we are also seeing 
48 percent of the wounded in Iraq return to their units within 72 
hours.
    Similarly, our Military Health System has made significant advances 
in the prevention of injury and disease. These include public health 
measures, immunization of servicemembers, use of early detection 
techniques against biochemical agents, and pre- and post-deployment 
assessments. These have been particularly beneficial in prevention and 
early detection and treatment of disease and non-battle injuries. 
Consequently, disease/non-battle injury rates have been lower than in 
any other conflict.
                             death benefits
    We realize first that no benefits can replace a human life. The 
lost presence of the family member is what the survivors face. We can't 
provide that, nevertheless, we must try to address the difficult issue 
of how to compensate these survivors. Permit me to offer you an 
overview of what we do in response to the loss of a military member, 
including personal assistance, as well as cash benefits.
    Our system of benefits is generally good, but our recent 
assessment, in response to your direction, concluded that the overall 
package could be improved to honor properly the contributions and 
sacrifices of our servicemembers. We are working within the Department 
and with other agencies to address these deficiencies, primarily in the 
area of immediate cash compensation, for those whose death is the 
result of hostile actions. We are looking at ways to improve the lump 
sum payments through increased insurance and death gratuity payments. I 
will address these in more detail later.
                      military casualty assistance
    When a military member dies, our first concern is to inform the 
next-of-kin in a manner that is fast, efficient, and highly respectful. 
Our military casualty assistance program is highly developed and well 
suited to perform this difficult task effectively. Notification is made 
in person by Casualty Assistance Office personnel who are customarily 
accompanied by a chaplain.
    Casualty Assistance Office personnel stay with the family following 
notification of the loss, through funeral preparations, burial, and the 
entire process of determining benefits and compensation. They provide 
valuable counsel and support to the families, arranging for the 
military funeral (if desired), running interference when problems 
arise, and ensuring that the families receive the benefits and 
compensation due them. The families know that they can contact their 
Casualty Assistance Office representative at any time, even long after 
the servicemember's death. We are proud of our Casualty Assistance 
program. We often hear from the families that they consider their 
Casualty Assistance Office representative ``part of the family.''
    The Department continuously explores how it can better support our 
family members during the most tragic of times, the loss of a loved one 
in the service to our Nation.
    One such initiative is the expedited claims process (ECP) with the 
Social Security Administration. In March 2003, we partnered with the 
Social Security Administration to study the possibility of 
institutionalizing the ECP that was so effective in the tragic 
aftermath of September 11, 2001. The ECP incorporates post-adjudicative 
development of evidence, as well as the use of a special toll-free 
number for applicants and Casualty Assistance Officers to call when 
they are ready to file. This process has been extremely successful in 
providing swift financial assistance to our families. The final results 
of the pilot program showed the average claims processing time dropped 
from several weeks to an average of just over 2 days time. Accordingly, 
the ECP was made permanent in January 2004 for surviving family members 
of all active duty casualties. We established a similar arrangement 
with the Department of Veterans Affairs several years ago. That program 
has also significantly expedited the delivery of compensation and 
benefits to our families.
                         benefits for survivors
    Benefits for survivors vary significantly in purpose and method of 
payment. Some are immediate cash payments or reimbursements for costs 
incurred; others provide long-term monthly income. These benefits are 
typically available whether the death is a result of hostilities, the 
result of non-hostile duty-related activities, or even the result of 
disease or off-duty injuries.
    Death Gratuity Benefit--The first benefit is to provide an infusion 
of cash to alleviate immediate financial requirements. This is 
accomplished by the death gratuity payment (currently $12,420, indexed 
to inflation). Our intent is to provide this payment in conjunction 
with the notification of death or as quickly thereafter as possible. 
This is done at the local level and normally takes place within 24 
hours.
    Funeral Costs--One of the first expenses survivors encounter is for 
the funeral. DoD will reimburse some or all such expenses the family 
pays directly. The amount payable varies depending which Government 
services are provided. If the family pays all costs, it qualifies for 
up to $6,900 in reimbursements for these services.
    Insurance Proceeds--After the funeral, the most substantial benefit 
is the life insurance proceeds from personal policies as well as from 
SGLI, or Servicemembers' Group Life Insurance. This is our principal 
insurance program and is under the purview of the Department of 
Veterans Affairs (VA), operated by the Office of Servicemembers Group 
Life Insurance (OSGLI), an arm of Prudential. SGLI provides up to 
$250,000 of coverage for modest premiums paid by the member. The 
Department of Defense pays any costs associated with an increased 
number of deaths attributable to the extra hazards of military service 
compared to the number of deaths expected in peacetime.
    Housing-in-kind or Cash Allowance--A surviving family may continue 
to live in military housing without cost for up to 6 months after the 
member's death. This enables the members' family to reorient their 
lives without undue pressure to relocate immediately. They are able to 
make choices about the future in an orderly manner. Should the family 
not occupy military housing or move out of military quarters before the 
end of those 6 months, they receive a cash allowance in lieu of 
quarters. In essence, we provide 6 months of transitional rent.
    Medical Benefits--Surviving family members continue to qualify for 
military medical benefits. For the first 3 years, health benefits 
remain at the same level of care as if the member were still on active 
duty. Family members are then provided medical coverage at the same 
level as for the families of retired members. Children remain qualified 
until age 23, and spouses so long as they do not remarry.
    Continued Military Community Privileges--Surviving family members 
continue to be eligible for use of the Commissary and Exchange, and 
military morale, welfare, and recreation facilities. These privileges 
continue under the same qualifying criteria that otherwise apply if the 
member were retired.
    Monthly Cash Compensation--The surviving family typically qualifies 
for one or more monthly cash benefits under plans administered the DoD, 
the VA, and by the Social Security Administration. Taken together, the 
surviving spouse with minor children will typically qualify for monthly 
benefits that are equal to or even exceed the former income of the 
member. These payments are reduced in the event of remarriage before a 
certain age. Although Survivor Benefit Plan payments from DoD are 
taxable as income, little or any tax will apply if the payments are 
made to the children. The VA Dependency and Indemnity Compensation 
(DIC) benefit is not taxable. Social Security payments can be taxable 
depending on the other income, but would probably be minimal for a 
survivor with little or no other income. Thus, the income provided the 
surviving family would carry little or no tax liability.
    VA Monthly DIC--DIC is provided by the VA to the surviving spouse 
with additional payments for children. For a spouse and two children, 
this benefit is $993 monthly plus $247 per Child (Plus if there are 
children under age 18, $250/month for 2 years). This equates to $20,844 
of tax-free income annually for the first 2 years, and $17,844 
thereafter so long as the children are not of age (the benefit for a 
spouse alone is $11,916 annually for life or until remarriage if before 
age 57). The DIC is fixed for all veterans regardless of rank in 
service.
    DoD Survivor Benefit Plan (SBP)--The family also qualifies for a 
monthly payment from DoD equal to 55 percent of the retired pay the 
member would have received if he or she had retired for total 
disability on the date of death. This retired pay is computed as 75 
percent of the member's average basic pay over the last 3 years. If the 
spouse alone qualifies for this benefit, the DIC is subtracted from the 
SBP. However, it may be paid instead to the children and the benefits 
are then additive for as long as the youngest child qualifies (about 
age 22).
    Social Security Survivor Benefit--Military members participate in 
Social Security on their basic pay and thus qualify for the same 
benefits as any other covered worker. This means monthly payments for 
children as well as to the surviving spouse with young children (up to 
age 16). These benefits depend on the history of covered wages under 
the Social Security program.
    The table below summarizes these income benefits for married 0-3s 
and E6s with two children as well as a married E6 with no children, and 
a single E6. For a married E6 with two children (8 years of service), 
the total of these three programs pays more than 110 percent of the 
member's final rate of Regular Military Compensation (RMC). For a 
married O-3 with children, the total equates to 96 percent of RMC. In 
both cases, much of the income is tax free. Thus, the family's after 
tax income could actually be higher than RMC.
    Education Benefits from the VA--Education benefits from the VA are 
quite valuable and are available to both the spouse and the children. 
These benefits are payable for up to 45 months of education time and 
can easily exceed $100,000 for a spouse and two children.

[GRAPHIC] [TIFF OMITTED] T0729.001


    Financial Counseling--A final, but important benefit is the 
financial counseling available to survivors. There are many 
associations that provide such benefits, some of them chartered for 
special status by the Congress, for example, the Mutual Aid 
Associations. Each has programs that help members and survivors 
understand their benefits. Anyone who receives proceeds under the SGLI 
program qualifies to receive continuing financial counseling service 
through a program set up by the VA. The Beneficiary Financial 
Counseling Service (BFCS) provides a highly valuable benefit for 
survivors. This program provides a comprehensive assessment of the 
lifetime financial plan of beneficiaries, including a full presentation 
of the benefits described in this paper.
    We are currently in the process of testing a Servicemembers Benefit 
Analysis program through an Army pilot. We are also developing simple 
spreadsheet tools to help describe available benefits for service 
personnel. We expect to see rapid improvement in our capability to 
deliver financial counseling over the next several months.
                          adequacy of benefits
    The Fiscal Year 2004 National Defense Authorization Act included a 
requirement for us to study the totality of all current and projected 
death benefits for survivors of deceased members of the Armed Forces. 
The study was to include a comparison of military with other Federal 
death benefits as well as with commercial and other private sector 
death benefit plans. The Government Accountability Office (GAO) was to 
conduct a similar study.
    To ensure an independent review, we contracted for the study with 
the SAG Corporation. SAG completed the study in June 2004. The study 
concluded that the system of benefits provided to survivors of members 
who die on active duty to be adequate, substantial and comprehensive. 
However, it identified areas where improvements could make the benefits 
more comparable to benefits provided by other employers. For example, 
many large employers provide some insurance at no cost. The rationale 
of providing Federal benefits in recognition of deaths in the 
performance of duty of law-enforcement officers and firefighters, would 
seem to apply as well to military members.
    GAO's report, dated July 2004, ``Survivor Benefits for 
Servicemembers and Federal, State, and City Government Employees'' made 
no recommendations, but reached findings similar to the SAG report. GAO 
found servicemembers almost always obtain higher lump sums than do the 
survivors of 61 civilian Government entities, but the survivors of 
civilian Government employees in some high-risk occupations may receive 
supplemental benefits. These supplemental payments generally result in 
higher benefits to employees in these high-risk occupations than for 
servicemembers.
    As you can see from the foregoing, the benefits provided are 
substantial. They come from a wide variety of programs and address a 
variety of concerns. They provide significant continuing income and are 
of great help to survivors in making their transition through the 
changes in life that inevitably follow a member's death. A surviving 
spouse with young children has the potential to receive more than $2 
million over her or his remaining lifetime.
    We agree with the findings of the SAG and GAO reports that our 
benefits, while substantial, do not provide specific recognition of 
deaths that occur when our members are sent into harms' way in the 
service of their Nation; so we propose increasing the cash benefits for 
deaths that occur under these circumstances. We support the principle 
that the surviving family of a member killed in combat should receive 
about $500,000. This compares to the approximately $262,000 they are 
able to receive today. We advocate doing this by: (1) Increasing the 
maximum SGLI to $400,000 with $150,000 of insurance funded by the 
Government when the member is serving in an operation or area 
designated by the Secretary of Defense, (2) Increasing the current 
$12,420 death gratuity to $100,000 for deaths occurring in these same 
designated areas, and (3) Applying these improvements retroactively to 
the beginning of Operations Enduring Freedom and Iraqi Freedom. We 
intend to fund these enhancements within planned appropriations or 
budgeted levels.
    These improvements I have outlined in benefits are an outgrowth of 
the conclusions in both the SAG and the GAO reports that I discussed 
above. We have drafted language to make these improvement and are eager 
to move this legislation forward. Our bill, while not identical, is 
broadly consistent with other bills already introduced in the 109th 
Congress, such as the HEROES Act of 2005.
    Our objective is to ensure that we fully support our servicemembers 
when we send them in harm's way, and that we properly support the 
family's needs if the servicemember dies on active duty.

    Chairman Craig. Now let me turn to Frederick Streckewald, 
Assistant Deputy Commissioner for Disability and Income 
Security Programs, Social Security Administration. Welcome to 
the Committee, Frederick.

    STATEMENT OF FREDERICK G. STRECKEWALD, ASSISTANT DEPUTY 
            COMMISSIONER FOR PROGRAM POLICY, SOCIAL 
                    SECURITY ADMINISTRATION

    Mr. Streckewald. Thank you. Chairman Craig, Members of the 
Committee, thank you for inviting me to testify about Social 
Security benefits available to the survivors of the brave men 
and women who serve in our Armed Forces and who have given 
their lives in service to their country.
    I would first like to say that I, too, was moved by the 
testimony of Mrs. Petty and Mrs. McCollum and I would like to 
apologize to Mrs. Petty on behalf of the Social Security 
Administration for any rudeness she received from us. That is 
completely unacceptable under any situation.
    The difficulties they face remind us of how important 
Social Security is to young surviving families. We admire their 
courage and we are grateful for their ultimate sacrifice made 
by their spouses.
    I will briefly discuss our procedures to expedite claims 
for the survivors of the military personnel. These procedures 
are similar to those implemented following the September 11, 
2001, terrorist attack. I will then describe Social Security 
benefits that are paid to survivors and explain how these 
benefits are computed.
    Last year, the Social Security Administration paid about 
$490 billion to over 47 million Social Security beneficiaries. 
Thirty percent of our beneficiaries are disabled workers and 
their families and survivors of deceased workers, widows, 
widowers, and children.
    The Social Security Administration has responded quickly to 
help families who have lost a loved one in the Armed Forces of 
our great Nation. SSA personnel are well trained to handle 
these claims in a compassionate, accurate, and timely manner. 
Working closely with the Department of Defense, SSA implemented 
special instructions to expedite the processing and payment of 
claims filed by survivors of all servicemembers who die on 
active duty.
    All claims for survivors' benefits based on the records of 
military casualties are being processed by a special staff in 
our Philadelphia payment center. Families of servicemembers 
calling to apply for survivor benefits using our toll-free 
number will have their call transferred to this special staff 
in Philadelphia, where an application will be completed and the 
necessary evidence will be discussed. In addition, SSA has 
established a toll-free number to allow these claimants to call 
this special staff directly in Philadelphia. To prevent any 
possible loss of benefits, SSA allows a third party, such as 
the Casualty Assistance Officer, to file applications on behalf 
of any survivors.
    By having these claims expedited through a special central 
processing unit, SSA is able to process these cases in an 
average of 2 to 3 days. In many cases, these claims are 
processed the same day the call is received. And for those who 
prefer to file in person at their local Social Security office, 
that option, of course, remains available.
    The monthly cash benefit Social Security pays to the 
survivors of deceased servicemembers are the same benefits paid 
to the survivors of all insured workers. In 2004, Social 
Security paid over $14.5 billion in benefits to over 1.9 
billion surviving children and approximately $1.5 billion to 
184,000 widowed mothers and fathers. In December 2004, the 
average monthly benefit paid to surviving spouses caring for 
workers' children was $689 per month. With respect to surviving 
families, the average monthly benefit paid to a family 
consisting of a surviving spouse and two or more children was 
$1,905 per month.
    For survivors to be eligible to receive benefits, the 
deceased worker must have credit for a certain amount of work 
that is covered under Social Security. Active duty military 
service employment has been covered by Social Security since 
1957. For servicemembers who die at age 27 or earlier, only six 
quarters of coverage, basically a year-and-a-half of work are 
needed for the worker's survivors to be eligible for benefits. 
This required coverage can be obtained from earnings while in 
the military and earnings before military employment.
    Let me now briefly outline who can qualify for survivor 
benefit payments. A widow, widower, or a surviving divorced 
spouse who meets certain duration of marriage requirements can 
begin receiving benefits at age 60, or if disabled, at age 50. 
On the other hand, a widow, widower, or surviving divorced 
spouse who is caring for an entitled child of the worker who is 
under age 16 or is disabled can qualify for benefits. So if the 
child is under age 16 or the child is disabled, the parent 
caring for the children, can receive benefits, and there is no 
duration of marriage requirement.
    In addition, the child of a deceased worker can receive 
benefits if the child is under age 18 and unmarried, or is 
under age 19 and attending elementary or secondary school full 
time or is disabled.
    Social Security benefits are based on the deceased worker's 
primary benefit, which is based on Social Security covered 
earnings over the worker's lifetime. Monthly benefits payable 
on a worker's record are limited to a statutory family maximum. 
The family maximum ranges from about 150 percent to about 188 
percent of the worker's primary benefit and usually applies 
when more than two survivors are eligible for benefits on the 
worker's records.
    In conclusion, I want to again thank the Committee for 
inviting me to testify today about the important role that 
Social Security plays in providing economic security for the 
families of those in our Armed Forces who have lost lives in 
the service of our Nation. I will be happy to answer any 
questions.
    Chairman Craig. Thank you very much for that testimony.
    [The prepared statement of Mr. Streckewald follows:]

   Prepared Statement of Frederick G. Streckewald, Assistant Deputy 
    Commissioner for Program Policy, Social Security Administration
    Chairman Craig and Members of the Committee, thank you for inviting 
me to testify about Social Security benefits available to the survivors 
of the brave men and women who serve in our Armed Forces.
    In my testimony I will discuss our procedures to expedite claims 
for the surviving family members of our military personnel who have 
given their lives in the service of our country and the current 
conflicts in Iraq and Afghanistan. These procedures are similar to 
those implemented following the September 11, 2001 terrorist attacks. I 
will also describe the types of Social Security benefits that are paid 
to these widows, widowers, and children and how these benefits are 
computed.
    Last year, the Social Security Administration (SSA) paid about $490 
billion in benefits to over 47 million beneficiaries. Social Security 
is much more than a retirement program. Thirty percent of our 
beneficiaries are disabled workers and their families and survivors of 
deceased workers--widows, widowers and children. Among those counting 
on the protection of Social Security are our young servicemen and 
servicewomen and their families. They, and the millions joining the 
system every year, are relying on Social Security for a major portion 
of their future financial security.
    At Social Security, we are committed to delivering high quality, 
citizen centered service. We offer our services in person at our nearly 
1,300 field offices located throughout the country, via our toll-free 
telephone service (1-800-772-1213) and via our website 
(www.socialsecurity.gov).
                           special procedures
    The Social Security Administration, in the best tradition of public 
service, has responded quickly to help families who have lost a loved 
one in the Armed Forces of our great Nation. We are grateful to our 
servicemen and servicewomen for the sacrifices they make in defense of 
our freedom, and we take great care in assisting the families of those 
who have made the ultimate sacrifice. SSA personnel are well-trained 
and experienced to handle these claims in a compassionate manner. 
Further, we are committed to processing these claims in an accurate and 
timely manner.
    Working closely with the Department of Defense, SSA implemented 
special instructions to expedite the processing and payment of claims 
filed by survivors of all servicemembers who die on active duty. All 
claims for survivors benefits based on the records of military 
casualties are being processed by the Immediate Claims Taking Unit in 
our Philadelphia payment center.
    Families of servicemembers calling to apply for survivor benefits 
using SSA's toll-free 800 number will have their call transferred to 
this special staff, where an application will be completed and 
necessary evidence discussed. In addition, SSA has established a toll-
free number to allow claimants to call this special staff directly. To 
prevent any possible loss of benefits, SSA allows a third party, such 
as the Casualty Assistance Officer, to file applications on behalf of 
any survivors.
    By having these claims expedited through a special central 
processing unit, SSA is able to process these cases in an average of 2-
3 days. In many cases, these claims are processed the same day the call 
is received. However, for those who prefer to file in person at their 
local office, that option remains available.
                   social security survivor benefits
    Now, I'd like to turn my focus to the importance of survivor 
benefits.
    Social Security is especially valuable for workers who die before 
they are able to accumulate additional assets towards providing 
security for their survivors. By providing a monthly benefit that is 
inflation adjusted, Social Security benefits also ensure that the 
purchasing power for the survivors will not erode over time.
    The monthly cash benefits Social Security pays to the survivors of 
deceased servicemembers are the same benefits paid to the survivors of 
all insured workers. In 2004, Social Security paid over $14.5 billion 
in benefits to over 1.9 million surviving children and approximately 
$1.5 billion to 184,000 widowed mothers and fathers. In December 2004, 
the average monthly benefit paid to surviving children was $625; the 
average monthly benefit paid to surviving spouses caring for the 
worker's children was $689. With respect to surviving families, the 
average monthly benefit paid to a family consisting of a surviving 
spouse and two or more children was $1,905.
    For survivors to be eligible to receive benefits, the deceased 
worker must have credit for a certain amount of work that is covered 
under Social Security. Active duty military service employment has been 
covered by Social Security since 1957. Depending upon the worker's age 
at death, as few as 6 quarters of coverage from any work covered under 
Social Security may be sufficient for the worker's survivors to be 
eligible for benefits. (Six quarters of coverage represents 1\1/2\ 
years of work.) The maximum requirement for coverage under Social 
Security is 40 quarters of coverage.
    Social Security benefits for survivors are based on the deceased 
worker's ``primary benefit''. The primary benefit is the same benefit 
amount paid to workers who receive Social Security disability insurance 
benefits or who wait until the full-benefit retirement age (FRA) to 
claim benefits. (The FRA is currently age 65 and 6 months for workers 
reaching age 65 this year, but will gradually increase to age 67.)
    The first step in computing the worker's primary benefit is to 
update (index) the worker's earnings to reflect today's dollars. Then 
the worker's indexed earnings are averaged over a period of years. (For 
servicemembers and other workers who die at age 29 or earlier, just the 
highest 2 years of indexed earnings are counted for this average.) 
Finally, a benefit formula is applied to the worker's average earnings 
amount to compute the worker's primary benefit.
    Monthly benefits payable on a worker's record are limited to a 
statutory maximum, known as the family maximum. The family maximum 
ranges from about 150 percent to about 188 percent of the worker's 
primary benefit, and usually applies when two or more survivors are 
eligible for benefits on the worker's record.
    The following requirements apply for Social Security survivor 
benefits:
Widow/Widower (of deceased worker)
    Married to the worker at least 9 months. (If the death is 
accidental or occurs in the line of duty while the deceased is a member 
of a uniformed service on active duty, the 9 month requirement is 
waived.) Or divorced from the worker after 10 years of marriage. 
Benefits are available at:
    <bullet> Full-benefit Retirement Age (FRA) (100 percent of the 
worker's primary benefit)
    <bullet> Age 60 to FRA (100 percent of worker's primary benefit 
permanently reduced for each month of the widow/widowers entitlement 
prior to FRA)
    <bullet> Age 50-59 and disabled (71.5 percent of the worker's 
primary benefit)
    At any age to a surviving spouse or surviving divorced spouse, 
without a duration of marriage requirement, if caring for an entitled 
child of the deceased worker, under age 16 or disabled (75 percent of 
the worker's primary benefit).
Child (of deceased worker) and Meets One of Following Requirements:
    <bullet> Under age 18 and unmarried (75 percent of worker's primary 
benefit)
    <bullet> Attending elementary or secondary school full-time at age 
18 and through the end of the school term in which age 19 is attained 
(75 percent of the worker's primary benefit)
    <bullet> Disabled child, age 18 or over, who was disabled before 
age 22 (75 percent of the worker's primary benefit).
Dependent Parent Age 62 or Older (of deceased worker)
    <bullet> One surviving parent (82\1/2\ percent of worker's primary 
benefit)
    <bullet> Two surviving parents (75 percent of worker's primary 
benefit payable to each parent).
Lump-Sum Death Payment
    A one-time amount of $255 is payable, upon the death of an insured 
worker, to a spouse with whom the worker was living at the time of 
death or to a spouse or child who is eligible for monthly survivor 
benefits for the month of the worker's death.
    In conclusion, I want to again thank the Committee for inviting me 
to testify today about the important role that Social Security plays in 
providing economic security for the families of those in our Armed 
Forces who have lost their lives in the service of our Nation. For 
decades, the Social Security program has provided this protection and 
is as important as ever. Social Security employees reflect the highest 
ideals and the finest traditions of our Agency in making real our 
common goal of providing prompt and caring service to those affected by 
the war on terror.
    I will be happy to answer any questions you may have regarding the 
benefits that the Social Security Administration pays to survivors of 
our servicemembers.

    Chairman Craig. All of you were present for the testimony 
and the questioning of the first panel, I believe, and it is 
certainly my observation and the observation of some of my 
colleagues that there is clearly a disconnect in an accurate 
and complete flow of information to a surviving spouse at a 
time of a casualty. Recognizing the environment in which that 
information first comes and then the continuity as that spouse 
and family move forward becomes very obvious from that 
testimony.
    I guess, Mr. Ward, the thing that all of us try to 
understand under those circumstances is how do we get a 
complete amount of information to a surviving spouse in a 
timely and responsible fashion and bring around them the 
necessary services and informational flow to allow them, when 
appropriate, to make the right judgments and decisions?
    Senator Graham mentioned, and it was certainly, I think, 
many of our thoughts as we were listening to this testimony 
that the military works awfully hard at taking care of its own, 
and responsibly so, and that responsibility falls under the 
Casualty Assistance Officer. At the same time, we heard clear 
testimony that that is sometimes, if I can be blunt, a hit-and-
miss proposition, that it doesn't have the continuity that it 
obviously must or should have, that the information flow isn't 
as accurate or as timely and that it is only by phenomenal due 
diligence on the part of the widow that they begin to 
understand the total array of benefits that might be available 
to them.
    How do we improve this situation?
    Mr. Ward.  Well, thank you very much for the question, 
Senator. I can tell you up front that what I heard also this 
morning in the stories, and I don't know the specifics 
surrounding each of those specific cases, but they were 
certainly alarming to me to hear some of the things that they 
indicated about the lack of getting accurate information in a 
timely fashion.
    One of the things we have heard today also is that this is 
an extremely complex issue. Our Casualty Assistance Officers 
are very unique in the respect that some are better than 
others. We go to great lengths to ensure that they are 
appropriately trained, provided all the necessary tools to do a 
good job, but again, delivery of those services are going to be 
as best to the individual's individual ability to be able to do 
that.
    What we have done is, in part of our feedback from family 
members to ensure that our programs are working as intended to, 
not only do we get feedback from individual Casualty Assistance 
Officers after they have provided service to the families for 
as long as necessary, but we also have follow-up mechanisms to 
ask family members in follow-up letters, survey letters, if you 
will, are there any additional items pending, again expressing 
our condolences, and do they have any recommendations on how we 
can improve our processes.
    We want to ensure that if there are any lingering issues 
out there that we address them appropriately and quickly. We 
don't want family members to go off with things unanswered, 
questions still in their minds of things they think they should 
be entitled to or receive. We want to be able to address them 
very quickly.
    Some of the questions or some of the issues that were 
brought up this morning about Casualty Assistance Officers 
assigned and then they move on, you know, there was a 
disconnect there. We have several issues or policies in place 
to ensure that when a commander assigns an Assistance Officer 
to work with a family that that individual is going to be there 
for as long as possible.
    We also understand that, periodically, some cases are going 
to take longer than others to resolve and those individuals are 
going to move on, and so we have processes in place to do a 
warm handoff, to do a tradeoff, such as if I am leaving, if I 
am the Casualty Assistance Officer and you are the family I am 
dealing with, I will bring my replacement in to meet you so 
that you know exactly who is going to be working with you after 
that.
    What we have to do, an improvement, I think, in our 
guidebooks that we provide families to encapsulate all their 
benefits and entitlements and phone numbers that they can call. 
The services all produce guides that they provide survivors 
that they can review the benefits that they have been provided 
or are getting and if they have any additional questions that 
they can call on, so we can do a little bit better there.
    Chairman Craig. At the time of contact, certainly--and I am 
quite sure not in the immediate sense, but in days to follow--
is anything as comprehensive as that list over there on the 
easel that gives the example of the spouse and her family and 
all of the total benefit packages within DoD, within VA, and 
within Social Security that are available to them handed to 
them?
    Mr. Ward.  No, sir. There is not a single document they are 
provided. As I indicated earlier, our Casualty Assistance 
Officers are not experts in all those areas. But what they do, 
and through their process of working with the families, is to 
put the family in contact or facilitate that contact with the 
experts in those various agencies to ensure that the family 
members get accurate information on the benefits from that 
particular agency.
    Chairman Craig. Well, I think that is part of my 
frustration. I worked with our Government a good many years and 
sometimes the right hand and the left hand don't communicate 
until they are forced to or until they are caused to, when, in 
fact, they make, when joined together, the total picture and 
the total package. And certainly to the individual on the 
outside of Government, we are a very large black hole. And if 
we are not helping facilitate that, we are not really helping, 
especially when you can't provide a single clear picture of 
totality of benefit even though there is a necessary need to 
hand that individual through the process from agency to agency.
    Mr. Ward.  If I could defer a little bit to my colleague 
here, Tom might be able to address some of the things that we 
are doing in that particular regard.
    Chairman Craig. Tom.

      STATEMENT OF THOMAS R. TOWER, ASSISTANT DIRECTOR OF 
           COMPENSATION, OFFICE OF THE DEPUTY UNDER 
          SECRETARY OF DEFENSE, DEPARTMENT OF DEFENSE

    Mr. Tower.  Mr. Chairman and other distinguished Members, I 
would just like to first say how deeply I appreciate the 
sacrifices made by your earlier panel members and other members 
of the audience who have lost loved ones. It is very touching 
to hear their stories and we are moved that we do have some 
areas where we don't quite measure up and we certainly want to 
try to do our best to improve. I have talked to Mrs. Smith on 
numerous occasions at length and it is always a wonderful 
opportunity to hear from people like her.
    We are working in this area. There is a study ongoing to 
report out this spring to provide this kind of a service. The 
Army is the lead agency on this. They contracted with a private 
corporation to look at ways to use technology to bring this 
kind of information to servicemembers, not only at the time of 
a casualty and crisis, but to members before that happens, as 
well. As one of the widows expressed this morning, you need 
this information to look at beforehand, sort of kind of to 
think about and be prepared. So we have that ongoing study and 
hope that will lead to some sort of service that will provide 
that kind of single document.
    I believe all the services also have this service or 
similar services available through the associations that 
provide this kind of service, like Navy Mutual Aid and Army-Air 
Force Mutual Aid Associations, and I think some of the widows 
were members of that and have availed themselves of that.
    We also rely on the VA for the fine service that they are 
providing through the beneficiary financial counseling service, 
and I think this can provide exactly what these widows are 
looking for, maybe not in the exact format that we have seen 
here, but all of this information, and perhaps our colleagues 
from the VA could speak to this, should be available through 
that beneficiary financial counseling service. That is, I 
believe, like a $2,000 value that is presented to any SGLI 
recipient, beneficiary, as being available to them.
    If, as I heard this morning from the widows, they are not 
hearing about it, I think this is where we have a shortfall and 
need to address why aren't people becoming aware that this 
counseling service is available, because I think this would 
help them in understanding how they can manage their proceeds 
from the insurance as well as the annuity-type benefits that 
are being provided or education-type benefits to best achieve 
the financial results that they are looking for as surviving 
families.
    So I think we are doing a few things. I think we have some 
things, but I am a little concerned that they are not quite as 
visible as we had hoped they would be.
    [The responses of Thomas M. Tower to written questions 
follows:]

    Written Questions for Thomas M. Tower, Senate Veterans Affairs 
               Committee, Committee on Veterans' Affairs
                    senator larry e. craig, chairman
    Question 1: The survivors' advocates on our first panel all 
testified about available technology, which shows customized, current 
and forward-looking information about survivor benefits. Why doesn't 
the Government have this sort of integrated system available?
    Response: The Department is monitoring the Army's pilot program to 
implement a Servicemembers Benefit Analysis Online (SMBA) system. The 
Army awarded a contract to Resource Consultants, Incorporated (RCI) in 
September 2004 to conduct a concept validation of SMBA Online. RCI is 
assessing the effectiveness of existing means of benefits counseling 
with a focus on deploying personnel and is expected to submit its 
findings in July 2005.
    As the Department continues to pursue technological means to 
provide accurate and customized benefits information, each of the Armed 
Services has military casualty assistance programs in place to provide 
surviving families with counseling on financial assistance, military 
benefits, and entitlements. The casualty officer assigned to a 
surviving family provides valuable support and counsel to ensure that 
they understand the full complement of benefits that will accrue to 
them. The casualty officers assist the families with completing and 
submitting the paperwork to ensure expeditious processing of these 
benefits. During the casualty assistance process, the families are also 
provided Websites that give additional detailed. information on each 
benefit or entitlement.
    Question 2: On February 1, 2005, the Administration announced its 
proposal to increase death gratuity payments to $100,000. I am 
concerned about the impact increasing the gratuity might have on a 
young, single Servicemember's willingness to remain in the Government's 
group insurance plan. If young, healthy Servicemembers decline 
coverage, what would be the impact on premiums? Have the potential 
``unintended consequences'' of these proposals been thoroughly 
examined?
    Response: The purpose of the death gratuity is to provide immediate 
cash to meet the needs of survivors. The death gratuity is geared 
toward helping survivors meet immediate expenses incurred, such as 
burial costs and/or transportation of family members to funeral 
locations. The Servicemembers Group Life Insurance (SGLI) is an 
insurance program that enables Servicemembers to increase substantially 
the amount available to their beneficiaries in the event of their 
death. Not only are there different reasons for the two streams of 
money, many Servicemembers may not be able to obtain affordable life 
insurance because of their age or military assignments. Some private 
plans may not insure persons in high-risk groups or may not pay for 
combat-related death. SGLI has affordable premium rates, giving them 
the opportunity to provide for their survivors in the event of their 
death. The VA sets the premium rates to keep the program sound, keeping 
in mind affordable rates to the member. All members are automatically 
enrolled in SGLI at the maximum level. Historically more than 90 
percent (even higher during times of war) of all members retain the 
maximum SGLI coverage. Our proposed, enhancements would not only 
increase the maximum coverage to $400,000, but also would require 
spousal concurrence to decline or reduce SGLI coverage. We are 
confident that overall SGLI participation rates will remain at their 
historically high levels.
                senator daniel k. akaka, ranking member
    Question 1: Is DoD currently capable of compiling a complete 
benefits analysis for a survivor upon the death of a Service member? If 
so, is this analysis similar to the product that the Armed Forces 
Services Corporation makes available to its customers? If not, what are 
the necessary steps that DoD would need to take to be able to make this 
information available to survivors?
    Response: It is not appropriate under current acquisition rules to 
comment on the capabilities of a commercial product. The Department is 
monitoring the Army's pilot program to implement a Servicemembers 
Benefit Analysis Online (SMBA) system. The Army awarded a contract to 
Resource Consultants, Incorporated (RCI) in September 2004 to conduct a 
concept validation of SMBA Online. RCI is assessing the effectiveness 
of existing means of benefits counseling with a focus on deploying 
personnel and is expected to submit its findings in July 2005.
    Each of the Armed Services military casualty assistance programs 
provides. surviving families a complete analysis on military benefits 
and entitlements. The casualty officer assigned to a surviving family 
provides valuable support and counsel. The CAO works closely with the 
family to ensure that the full complement of benefits is understood. 
The casualty officers assist the families with completing and 
submitting the paperwork to ensure expeditious processing of these 
benefits. During the casualty assistance process, the families are also 
provided Websites that give additional detailed information on each 
benefit or entitlement.
                           senator john thune
    Question 1: In the 108th Congress we eliminated the spousal benefit 
Social Security offset to provide more assistance to surviving spouses. 
This Congress we have been asked to eliminate the Disability and 
Indemnity offset for spousal benefits as well. What are the long term 
costs associated with such an initiative and how will it affect other 
veterans or defense spending priorities?
    Response: The Survivor Benefits Plan (SBP) program, as enacted, 
ensured that payments from all Federal survivor benefits totaled at 
least 55 percent of the member's retired pay (or in the case of an 
active duty death, the amount of retired pay as if the member retired 
on the date of death). Both SBP and Dependency and Indemnity 
Compensation (DIC) for active duty deaths are fully funded by the 
Government. Thus, the offset of DIC from SBP avoids the duplication of 
Government benefits. Since retirees pay premiums to cover a portion of 
SBP funding, those premiums attributed to the reduction for DIC are 
returned to the beneficiary, generally in a lump-sum payment.
    The Fiscal Year 2004 National Defense Authorization Act did 
authorize survivors of members who die on active duty who have children 
to elect to have the SBP paid to the children. Thus, for Servicemembers 
who die on active duty, survivors have the option to pay DIC to the 
spouse and SBP in the children's name, which avoids the offset.
    Eliminating the SBP offset for all widows entitled to DIC would 
cost the Military Retirement Fund more than $5 billion over 10 years.
    Question 2: Understanding survivor benefits can be a difficult 
task, particularly when trying to deal with the loss of a loved one. Do 
you think that survivors adequately understand their options? Does the 
VA provide assistance to help survivors understand their rights and 
benefits?
    Response: The Department is working to improve access to accurate 
survivor benefits information. There are initiatives underway to meet 
this goal. The Department is monitoring the Army's pilot program to 
implement a Servicemembers Benefit Analysis Online (SMBA) system. The 
Army awarded a contract to Resource Consultants, Incorporated (RCI) in 
September 2004 to conduct a concept validation of SMBA Online. RCI is 
assessing the effectiveness of existing means of benefits counseling 
with a focus on deploying personnel and is expected to submit its 
findings in July 2005.
    As the Department continues to pursue technological means to 
provide accurate and customized benefits information, each of the Armed 
Services has military casualty assistance programs in place to provide 
Servicemembers and their families with counseling on financial 
assistance, military benefits, and entitlements. The casualty officer 
assigned to a surviving family provides valuable support and counsel to 
ensure that they understand the full complement of benefits that will 
accrue to them. The casualty officers assist the families with 
completing and submitting the paperwork to ensure expeditious 
processing of these benefits. During the casualty assistance process, 
the families are also provided Websites that give additional detailed 
information on each benefit or entitlement.
    The VA has a comprehensive pamphlet for survivors of Servicemembers 
who die on active duty. In addition to information on burial benefits, 
the pamphlet outlines programs including Vocational Rehabilitation and 
Employment Services, Work-Study Employment, Civil Service Preference, 
Education Program Refunds, Home Loan Guaranty, Dependency and Indemnity 
Compensation, and Dependents' Education Assistance.
    Question 3: Based on the 2004 study DoD conducted comparing 
military survivor benefits to their civilian counterparts, what 
deficiencies do you believe need to be addressed in order to improve 
the overall effectiveness of what appears to be a first class program?
    Response: The Department contracted with the SAG Corporation in 
2004 to conduct an independent study on the Department's death benefits 
program. The study found the system of benefits provided to survivors 
of members who die on active duty to be adequate, substantial and 
comprehensive. However, it identified a lack of recognition for direct 
sacrifice of life, as is provided by the Public Safety Officers' 
Benefit Act (pays over $267,000 to survivors in recognition of deaths 
in the performance of duty of law-enforcement officers and 
firefighters). Additionally, a 2004 GAO report, ``Survivor Benefits for 
Servicemembers and Federal, State, and City Government Employees,'' 
found the survivors of civilian government employees in some high-risk 
occupations may receive supplemental benefits for deaths while 
performing dangerous duties. The Department's proposed death benefits 
program enhancements recognize the direct sacrifice of life in service 
to the Nation.

    Chairman Craig. Admiral, I will come back to you in a 
moment to follow up on the question that I think is appropriate 
from Tom's observations, but first, let me go to my colleague, 
Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Admiral Cooper, I was impressed with the list of benefits 
you explained that are provided by VA. What is VA doing to make 
sure that surviving spouses are aware of these services?
    Mr. Cooper. I would say that we made a great deal of 
progress in the last couple of years because of the push that 
we have had. First, we are working very closely with DoD on our 
joint Casualty Assistance Program. I have a very good person 
who is in charge of our outreach.
    We have a VA worker in each regional office who is in 
charge of casualty assistance. We follow the lead of the CACO, 
or of the military Casualty Assistance Officer. We give him 
this trifold pamphlet when he first visits the family. He then 
gives us the forms necessary to claim the SGLI insurance and to 
start the DIC. We try to do that within 2 days of getting that 
paperwork.
    When we are told that the family is available for our 
people then we go to the family to talk to them about VA 
benefits. But we do wait until we are told that they are ready 
to talk to us rather than get in too soon.
    As far as the financial counseling, when the SGLI insurance 
is paid we send a letter and pamphlet advising that we have 
this financial counseling service available. About 2 months 
later, we will send another letter if the recipient has not 
taken advantage of the benefit. And 6 months after that, we 
will send another letter reiterate some of the VA benefits 
they're entitled to, but may not remember at a time of such 
great personal loss.
    What we have found is a very low percentage of 
beneficiaries take advantage of this financial counseling. We 
continue to push it. But only about 3 percent have come back 
and said we would like to participate and see what help we can 
get. It is perhaps attributable to the fact that all of us get 
lots of mail and sometimes we throw that mail away and don't 
see it. I have very good people who are looking at it on a 
continuous basis to try to increase participation.
    Senator Akaka. Thank you for those details. I am interested 
in the 3 percent participation rate and ask why is it only 3 
percent. We have been talking about transparency, 
communicating. It appears to me that is part of that problem. 
But I am interested in knowing why it is only 3 percent.
    Mr. Cooper. And I am, too, but let me mention, I am being 
told that it is 8 percent.
    [Laughter.]
    Senator Akaka. It is growing.
    Mr. Cooper. But the fact is, of the 3 percent who make 
contact, 11 percent of that group completes the financial 
questionnaires and gets a personalized financial report.
    I can't tell you what the reason is. It is something that 
we will continue working on. It is difficult to find out why 
somebody doesn't do something. We are planning a survey to help 
us determine why people are not taking advantage of this 
benefit.
    Senator Akaka. It is obvious that work needs to be done in 
that area.
    Mr. Cooper. I will mention one more thing. Prudential tells 
us that this is a much higher return rate than they see on 
their other group policies. So it is an interesting phenomenon, 
but it is something we have to work on.
    Senator Akaka. Yes.
    Mr. Tower, you advocated that VA's financial counseling 
service should be better utilized. This is the case here, too. 
Is this counseling occurring at military installations by VA 
personnel, and how accessible is this counseling?
    Mr. Tower.  I am not sure if the question is for me, 
Senator, but I am not involved in any of the provision of the 
counseling, so I would have to defer to our VA colleagues.
    Mr. Cooper. The counseling is on an individual basis and so 
it is a matter of that person, that spouse coming back in and 
saying, I would like to take advantage of this counseling 
service. At that point, it is strictly a one-to-one, starting 
out with paper and then communication verbally as it goes 
along. So it is not something that they would be made aware of 
before the time came that they would want to use it. That is, 
they wouldn't know about it before their spouse had been 
killed.
    Senator Akaka. Mr. Chairman, I see my time is up.
    Chairman Craig. Go ahead.
    Senator Akaka. Thank you.
    Chairman Craig. I have got one more question. I am going to 
be out of time here in just a few more minutes. Please proceed.
    Senator Akaka. Mr. Ward, what do you think of making the 
Casualty Officer duty more permanent in terms of conversion to 
a GS position?
    Mr. Ward.  One of the services right now has that setup in 
place, the Air Force. They have trained professionals at all 83 
of their installations. They are all GS employees, GS-9 to 11. 
When they are not performing casualty assistance duties, they 
also perform duties as SBP counselors, SGLI counselors, 
passport agents and the like. When they get assigned a casualty 
assistance case, that becomes their primary responsibility 
until they are finished with that particular case.
    Now, that particular program works exceptionally well for 
the Air Force. The other services and their programs that they 
have where they don't utilize civilian personnel out in the 
field, their programs work exceptionally well for them. The 
service headquarters, of course, and the Casualty Officers are 
made up of a combination of each to ensure that long-term 
continuity and expertise at the headquarters level and/or at 
the casualty area commands, if it is broken down by regions 
around the country.
    But to answer your question about what do I feel about 
having those personnel be more permanent, like GS employees, I 
think we would have to take that back and look at it a little 
bit on each individual service basis because we also understand 
that one size doesn't fit all. The expertise is already 
resident at the service headquarters level and it needs to be 
spread out a little bit more around the country.
    Senator Akaka. I hope that expertise also includes up-to-
date information on compensation and other services that would 
be available.
    Mr. Ward.  Yes, sir.
    Senator Akaka.  Mr. Streckewald, at this week's Senate 
Armed Services hearing, Dr. Chu mentioned that the Social 
Security Administration has developed an expedited claims 
process for the delivery of Social Security benefits to the 
families of deceased servicemembers. You also mentioned this in 
your written testimony. Would you briefly explain how this 
system works, and in your opinion, what can be done to improve 
that program?
    Mr. Streckewald.  I would be glad to. We saw a need to make 
sure that the survivor claims for our brave men and women lost 
in battle were expedited and we put in place procedures that 
were flexible, similar to the way we did after the 9/11 
attacks. We wanted to get the benefits to people right away so 
we relaxed some of our evidentiary requirements and expedited 
those cases. In some cases, we got the proofs we needed after 
we had already processed the case and started the payments. 
That worked out very well.
    So for the military deaths, we have a special unit that is 
in the Mid-Atlantic Payment Service Center, which is in 
Philadelphia, and they have an immediate claims-taking unit 
there. When they receive the Form 1300, from the Casualty 
Assistance Officer, either faxed or called over to that unit 
from the Defense Department, that form acts as an indication of 
death. It has the surviving members listed on the form. It has 
proof of military service. So we already have a lot of what we 
need just with that form.
    One of our employees will then check to see if a claim has 
already been filed, because the family may have already gone 
into a local Social Security office and we don't want to 
intrude upon them again if they have already taken care of it. 
Our employees will look in the system. If a claim has not been 
filed, they will look to see if the serviceperson was insured 
for Social Security, which in most cases they are, and they 
would contact the family and offer to take a claim from them 
over the phone and explain what the benefit payments would be 
if they were found eligible.
    If the serviceperson for some reason was not insured, and 
this might be because a newly-enlisted person had no prior work 
and they had not been in the military long enough to get the 
six quarters of coverage that a young person needs, then we 
would compute the benefit that they would have received if they 
had been insured for Social Security. We send information on 
that amount to the VA and the VA then determines the benefit, 
which I understand is very close to what our determination was, 
and then the VA makes the payment. I don't know a lot about the 
VA benefit process, but I know we do make that computation and 
we send it to the VA.
    Senator Akaka. Thank you for your responses.
    Mr. Streckewald.  We think our current process is working 
very well. Most payments are processed within 2 or 3 days and 
the checks are received shortly afterwards.
    Senator Akaka. Thank you for the time, Mr. Chairman.
    Mr. Ward.  Mr. Chairman, if I could add just one more 
comment.
    Chairman Craig. Mr. Ward.
    Mr. Ward.  Thank you, sir. I just want to compliment the 
Social Security Administration. We formed a partnership with 
them a little over 2 years ago to work out a partnership based 
on the model after September 11, and working in partnership 
with the Social Security Administration, we took a system where 
a family member would apply for benefits that would normally 
take several weeks to resolve or for the family members to 
start receiving those benefits down to just a little over a 
couple of days that we are hearing today. And family members 
have told us that they were very grateful, and one, they are 
astounded they have two different Federal agencies working so 
closely together in their behalf. But this really was a process 
improvement to expedite delivery of services and benefits to 
family members and it is a good thing.
    Chairman Craig. That is good to hear, Dan, thank you.
    Richard.
    Senator Burr. Thank you once again, Mr. Chairman. I thank 
all of you for your willingness to come in.
    Mr. Ward, you had an opportunity to hear the testimony 
especially of Tiffany and Jennifer.
    Mr. Ward.  Yes, sir.
    Senator Burr. Is that the first time you have heard some of 
the things, the issues they have raised?
    Mr. Ward.  No, sir, it is not. I am sorry--I am sad to hear 
that, but the truthful answer is, no, that is not the first 
time.
    Senator Burr. What does it take for us to accomplish what I 
think every Member said and certainly I think is the spirit of 
the Committee, and that is let us quit talking and do something 
to fix it? What does it take?
    Mr. Ward.  Well, clearly, I think, there is a need for us 
to ensure that our personnel that are assigned to do the very 
important casualty assistance duties are sufficiently trained 
and prepared to go out and do that duty. As I indicated 
earlier, there are some who do it much better than others, and 
when we get feedback from family members that tell us that 
there was a problem in the system, we take a look and listen to 
their comments very seriously to see if, one, is that a problem 
in our policies or procedures, or is that a problem with the 
specific individual. Hopefully, it is the individual that we 
can work on and maybe ensure that they never get assigned this 
type of duty again because the families deserve better.
    Senator Burr. When Tiffany Petty says, ``I was officially 
notified from the Army of Jerrick's death the day after his 
parents were notified,'' whose problem?
    Mr. Ward.  Well, again, sir, I don't know the specifics of 
her particular case. I can tell you that the policy is to 
notify the primary next-of-kin as expeditiously as possible, 
and for those casualties that occur in a hostile situation or a 
terrorist activity, we also notify the parents. When you have 
family members that are located at various places around the 
country and the Army or Navy, whatever service is involved, 
send out Assistance Officers to notify all those family 
members, we hope that the primary next-of-kin, in this 
particular case the spouse, will be notified first. A lot of 
times, the services coordinate their simultaneous 
notifications.
    We do have cases in the past, maybe not in Tiffany's 
particular case, where the information on the record of 
emergency data that the servicemember provides us has an 
inaccurate address, or the address is accurate and the family 
member may be on travel or visiting relatives elsewhere. So 
there are a lot of things that go into those cases sometimes 
where a family member doesn't get notified as expeditiously as 
we would like.
    Senator Burr. I think we all realize that each case is a 
little bit different.
    Mr. Ward.  Yes, sir.
    Senator Burr. Each case in total shouldn't add up to a lot 
of reasons why something didn't happen before we sit and look 
at the system and say, have we constructed it right? I think if 
there is a message I would like all of you to leave with, I 
would like you to start with a blank piece of paper and say, in 
an ideal situation, given what we know today, how would we do 
it differently? I think many things in this institution, within 
Government, are done because that is the way we have always 
done them.
    When she says, ``When I spoke at a local Veterans' Day 
celebration in October 2004, I learned the Army had not yet 
paid my husband's funeral expenses at a local funeral home, it 
should not have taken 9 months,'' does that disturb you? Can 
that happen?
    Mr. Ward.  It concerns me to the part where, again, I don't 
know the specifics of the case, but part of the counseling and 
assistance to family members is an explanation of what burial 
entitlements and burial benefits they are eligible for. And 
depending on the options selected by the family will determine 
what amount of support or money, basically, that the Government 
will pay for.
    Senator Burr. So what happens if they aren't informed of 
that? What happens if there is a breakdown and nobody shares 
that? Have we got a survivor that is out there now potentially 
liable and it is her credit that is at risk?
    Mr. Ward.  Yes, sir. I can honestly say that I don't know 
of any case where a family member has never been provided 
information surrounding mortuary benefits. Part of the process, 
when the servicemember dies on active duty, is for somebody in 
the mortuary affairs community to go out and speak with the 
family regarding disposition, and part of that disposition 
process is to explain what the entitlements are, whether they 
are going to have their loved one buried in a national 
cemetery, whether they are going to have their loved one buried 
in a private cemetery, who they want to prepare the remains, 
what they want the Government to do. And based on their options 
that they select regarding disposition, they can be eligible 
for reimbursement from $600 all the way up to $6,900 if they 
desire to do all the preparation and taking care of their loved 
one's funeral themselves. Anything beyond that, then it is an 
expense incurred by the family.
    Senator Burr. I know my time has run out, Mr. Chairman. I 
do want to stress with all of you with the same ease that we 
have a tendency--I include myself with that--to turn and say 
every situation has a different set of circumstances that 
affect the outcome, it is important that when you construct 
what it is we do that you realize each one of these individuals 
potentially have a different set of circumstances, that there 
is no black and white situation, and that if we are to 
construct something that truly does fill the need of what we 
are trying to do, it has to have flexibility. It has to accept 
the fact that if our intent is to notify a spouse before we 
notify a parent, that maybe there is a process we go through 
that assures us that has been done before we put a spouse 
through the anguish of wondering not whether his parents were 
notified, who else knew before I did.
    I am particularly sensitive to the fact that my wife still 
lives in North Carolina. Trust me; I pay when she is the last 
to know.
    [Laughter.]
    Senator Burr. Clearly, that doesn't reach the magnitude of 
what some certainly have been here to explain to us, but I 
think if we are deficient, I don't think it is we apply to them 
the same excuse that we use, and that is that each case is 
unique and potentially different. Therefore, our system has to 
have the ability to address the uniqueness of it if we want it 
to work and if we want those individuals to have the 
compassion, the service, and the help that they are indeed 
entitled to.
    Once again, I thank you. Thank you, Mr. Chairman.
    Chairman Craig. I have one concluding observation and then 
one last question before we conclude the hearing.
    Mark, you had mentioned that the Air Force was trying a 
professional person in the sense of a Casualty Assistance 
Officer different from the other services. You also mentioned 
that one size does not fit all. I reflected on that thought 
while others have been asking questions. I understand the 
tremendous difference in our services. At the same time, I 
don't think that Marine wives are tougher than Air Force wives 
or Army wives. I don't think they can macho their way through 
it.
    I do believe that when a death occurs, one size does fit 
all and there needs to be clear continuity and coordination and 
the benefit needs to be exactly the same.
    [Applause.]
    Chairman Craig. And if it is working well for the Air Force 
but we are getting reports of it not being as well done 
elsewhere or there is a lack of coordination or there is a lack 
of continuity, maybe we really ought to examine that service-
wide.
    I am going to pursue that a little more. I want you all to 
think about that. I know there is a study and work underway to 
look at that, because I think in death, one size does fit all 
when it comes to bringing your arms around and making everybody 
totally aware of what they are eligible for and what is 
available to them.
    Lastly, in our first panel, survivor advocates testified 
about available technology which shows customized, current, and 
forward-looking information about survivors' benefits. I can't 
imagine today, with the sophistication of our military, that 
there isn't a software package that at the appropriate time 
plugs Jennifer into it or somebody else into it and there is a 
complete printout on what is exactly available through the VA, 
certainly lost benefits through Social Security, and the 
timeliness of accessing them.
    I can appreciate, obviously, Admiral, the pamphlet you are 
talking about and the flow of information and contact points. 
But if I am dealing in the private sector with an insurance 
company, I am quite confident that that insurance company does 
provide that service of a complete printout of all that is 
available and that the surviving spouse expects from that 
particular policy.
    I just think we have arrived at a time where what I am 
hearing, while there is an effort here in Congress to recognize 
death benefits and to contemporize them today, what we are also 
finding is that when you look at the total package, there is a 
tremendous amount out there already that is available to a 
surviving spouse and his or her family and their children and 
that we have built a substantial package over time and that 
maybe the knowledge of that package, the information flow and 
the continuity and coordination of that package is as important 
as other kinds of benefits currently being talked about, and 
that was partly the purpose of this hearing today and it will 
be the pursuit of this Committee, to help that happen. So we 
will be working with you in the immediate future to get that 
done.
    We are also, and I won't pursue it with you now, Admiral, 
but as we are talking about the Servicemen's' Group Life 
Insurance coverage and beginning to move that around in value 
versus, let us say, casualty benefits and upping that, do we 
create shifts within the makeup of the insurance? Do young, 
single servicemen decide they don't need insurance anymore? All 
of those kinds of mechanics and what does that do, could that 
do to premiums, what I am trying to cause all of my colleagues 
to do by these hearings is to look at the total package, not to 
deny the need to modernize and adjust and add, but to recognize 
that there is a total picture to be seen out there in providing 
benefits and making sure that they are known, timely, and that 
the surviving families are treated well.
    Gentlemen, thank you very much for your time and your 
presence here today. We will submit some questions in writing 
to you to complete our record as we pursue what I think today 
demonstrates is a clear need to tweak this, modernize it, 
create some continuity, and to recognize that we are not 
fulfilling our responsibility as completely and timely as we 
ought to. Thank you very much.
    The hearing will stand adjourned.
    [Whereupon, at 12:44 p.m., the hearing was adjourned.]

  

                                  <all>

</pre></body></html>
